No.
In the Supreme Court of the United States
DONALD J. TRUMP; THE TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC; THE
TRUMP CORPORATION; DJT HOLDINGS LLC; THE DONALD J. TRUMP REVOCABLE
TRUST; AND TRUMP OLD POST OFFICE LLC,
Applicants,
v.
MAZARS USA, LLP; COMMITTEE ON OVERSIGHT AND REFORM OF THE
U.S. HOUSE OF REPRESENTATIVES,
Respondents.

On Application for Stay
EMERGENCY APPLICATION FOR A STAY OF MANDATE
PENDING THE FILING AND DISPOSITION OF
A PETITION FOR A WRIT OF CERTIORARI

Jay Alan Sekulow
Stuart J. Roth
Jordan Sekulow
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave, NW, Suite 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com
Stefan C. Passantino
MICHAEL BEST & FRIEDRICH LLP
1000 Maine Ave. SW, Ste. 400
Washington, D.C. 20024
(202) 747-9582
spassantino@michaelbest.com

William S. Consovoy
Counsel of Record
Jordan M. Call
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com

Counsel for Applicants

PARTIES TO THE PROCEEDING AND RELATED PROCEEDINGS
The parties to the proceeding below are as follows:
Applicants are Donald J. Trump, President of the United States of America;
Trump Organization, Inc.; Trump Organization; LLC, Trump Corporation; DJT
Holdings, LLC; Donald J. Trump Revocable Trust; and Trump Old Post Office LLC.
They were the plaintiffs in the district court and appellants in the court of appeals.
Respondents are Mazars USA, LLP and Committee on Oversight and Reform
of the U.S. House of Representatives. Mazars was the defendant in the district court
and appellee in the court of appeals. The Committee was the intervenor-defendant
in the district court and intervenor-appellee in the court of appeals.
The related proceedings below are:
1. Donald J. Trump, et al., v. Mazars USA, LLP & Committee on Oversight
and Reform of the U.S. House of Representatives, No. 19-5142 (D.C. Cir.) –
Judgment entered October 11, 2019; and
2. Donald J. Trump, et al. v. Committee on Oversight & Reform of the U.S.
House of Representatives, et al., No. 19-cv-01136 (APM) (D.D.C.) –
Judgment entered May 20, 2019.

i

CORPORATE DISCLOSURE STATEMENT
Per Supreme Court Rule 29, Applicants The Trump Organization, Inc., Trump
Organization LLC, The Trump Corporation, DJT Holdings LLC, and Trump Old
Post Office LLC state that they have no parent companies or publicly-held
companies with a 10% or greater ownership interest in them.

ii

TABLE OF CONTENTS
PARTIES TO THE PROCEEDING AND RELATED PROCEEDINGS.............. i
CORPORATE DISCLOSURE STATEMENT ....................................................... ii
TABLE OF AUTHORITIES................................................................................... iv
INTRODUCTION ................................................................................................... 1
OPINIONS BELOW ............................................................................................... 5
JURISDICTION ..................................................................................................... 5
STATEMENT OF THE CASE ............................................................................... 5
REASONS FOR GRANTING THE STAY ............................................................. 14
I.

There is a reasonable probability that the Court will
grant certiorari to determine whether the Committee’s
subpoena is lawful .................................................................................. 14

II.

There is a fair prospect that this Court will reverse the
D.C. Circuit’s decision upholding the subpoena ................................... 17

III.

Applicants will suffer irreparable harm absent a stay ........................ 27

IV.

The balance of equities and relative harms weigh
strongly in favor of granting a stay ....................................................... 29

CONCLUSION ....................................................................................................... 33
APPENDIX TABLE OF CONTENTS
APPENDIX

iii

TABLE OF AUTHORITIES
Cases
Airbnb, Inc. v. City of New York,
373 F. Supp. 3d 467 (S.D.N.Y. 2019).................................................................. 28, 29
Alden v. Maine,
527 U.S. 706 (1999) ................................................................................................... 22
Araneta v. United States,
478 U.S. 1301 (1986) (Burger, C.J., in chambers) ............................................. 28, 31
Barenblatt v. United States,
360 U.S. 109 (1959) ............................................................................................. 15, 19
Campbell v. Davidson,
233 F.3d 1229 (10th Cir. 2000) ................................................................................. 21
Cheney v. U.S. Dist. Court for D.C.,
542 U.S. 367 (2004) ............................................................................................. 16, 19
Clinton v. Jones,
520 U.S. 681 (1997) ....................................................................................... 16, 26, 27
Coal. for Responsible Regulation, Inc. v. EPA,
2012 WL 6621785 (D.C. Cir. 2012) (Kavanaugh, J., dissenting from denial of
rehearing en banc) .................................................................................................... 30
CSX Transp., Inc. v. Williams,
406 F.3d 667 (D.C. Cir. 2005) ................................................................................... 29
Eastland v. U.S. Servicemen’s Fund,
421 U.S. 491 (1975) ..................................................................................................... 2
Free Enter. Fund v. PCAOB,
561 U.S. 477 (2010) ......................................................................................... 3, 20, 27
Garrison v. Hudson,
468 U.S. 1301 (1984) (Burger, C.J., in chambers) ............................................... 2, 28
Griffin v. Padilla,
--- F. Supp. 3d. ---, 2019 WL 4863447 (E.D. Cal. 2019) ........................................... 22
Hollingsworth v. Perry,
558 U.S. 183 (2010) ................................................................................................... 14

iv

In re Biaggi,
478 F.2d 489, 493 (2d Cir. 1973) .............................................................................. 30
In re Lindsey,
158 F.3d 1263 (D.C. Cir. 1998) ................................................................................. 33
In re Sealed Case,
121 F.3d 729 (D.C. Cir. 1997) ................................................................................... 19
John Doe Agency Corp.,
488 U.S. 1306 (Marshall, J., in chambers) .................................................... 2, 28, 30
Kilbourn v. Thompson,
103 U.S. 168 (1881) ......................................................................................... 3, 12, 19
Maness v. Meyers,
419 U.S. 449 (1975) ................................................................................................... 28
Maryland v. King,
133 S. Ct. 1 (2012) (Roberts, C.J., in chambers) ...................................................... 30
McGrain v. Daugherty,
273 U.S. 135 (1927) ................................................................................... 9, 12, 19, 23
Merrill Lynch, Pierce, Fenner & Smith, Inc. v. Bishop,
839 F. Supp. 68 (D. Me. 1993) ............................................................................ 28, 29
Metro. Life Ins. Co. v. Usery, 426
F. Supp. 150 (D.D.C. 1976) ....................................................................................... 28
Mikutaitis v. United States,
478 U.S. 1306 (1986) (Stevens, J., in chambers) ............................................... 28, 29
Morrison v. Olson,
487 U.S. 654 (1988) ............................................................................................. 13, 27
NFIB v. Sebelius,
567 U.S. 519 (2012) ................................................................................................... 23
Nixon v. Fitzgerald,
457 U.S. 731 (1982) ............................................................................................ passim
Philip Morris USA Inc. v. Scott,
561 U.S. 1301 (2010) (Scalia, J., in chambers) .................................................. 27, 31
Powell v. McCormack,
395 U.S. 486 (1969) ............................................................................................... 3, 21
v

Providence Journal Co. v. FBI,
595 F.2d 889 (1st Cir. 1979) ............................................................................... 28, 31
Public Citizen v. U.S. Dept. of Justice,
491 U.S. 440 (1989) ................................................................................................... 25
Rostker v. Goldberg,
448 U.S. 1306 (Brennan, J., in chambers) ........................................................... 3, 30
Schaefer v. Townsend,
215 F.3d 1031 (9th Cir. 2000) ................................................................................... 22
Senate Select Comm. on Presidential Campaign Activities v. Nixon,
498 F.2d 725 (D.C. Cir. 1974) ............................................................................. 18, 31
Tobin v. United States,
306 F.2d 270 (D.C. Cir. 1962) ............................................................................. 24, 25
Trump v. Committee on Oversight and Reform of U.S. House of Representatives,
380 F. Supp. 3d 76 (D.D.C. 2019) ............................................................................... 5
Trump v. Deutsche Bank, AG,
No. 19-1540 (2d Cir.) ........................................................................................... 28, 29
Trump v. Hawaii,
138 S. Ct. 2392 (2018) ........................................................................................... 2, 17
Trump v. Mazars USA, LLP,
--- F.3d ---, 2019 WL 5991603 (D.C. Cir. Nov. 13, 2019) ........................................... 5
Trump v. Mazars USA, LLP,
941 F.3d 710 (D.C. Cir. 2019) ..................................................................................... 5
U.S. Servicemen’s Fund v. Eastland,
488 F.2d 1252 (D.C. Cir. 1973) ................................................................................. 32
U.S. Term Limits, Inc. v. Thornton,
514 U.S. 779 (1995) ............................................................................................. 20, 21
United States v. AT&T Co.,
567 F.2d 121 (D.C. Cir. 1977) ................................................................................... 32
United States v. Deloitte LLP,
610 F.3d 129 (D.C. Cir. 2010) ................................................................................... 29
United States v. Nixon,
418 U.S. 683 (1974) ............................................................................................ passim
vi

United States v. Rumely,
345 U.S. 41 (1953) ......................................................................................... 11, 24, 25
Watkins v. United States,
354 U.S. 178 (1957) ............................................................................................. 17, 23
Wilkinson v. United States,
365 U.S. 399 (1961) ................................................................................................... 18

Statutes
28 U.S.C. § 2101(f) .......................................................................................................... 5
5 U.S.C. §7342(a) .......................................................................................................... 23
8 N.Y.C.R.R. §29.10(c) .................................................................................................. 29

Other Authorities
6 O.L.C. Op. 156 (1982) ................................................................................................ 23
AICPA Code of Professional Conduct §1.700.001.01 .................................................. 29
Congressman Sarbanes, Senate Republicans Block Effort to Pass H.R. 1 (Oct. 30,
2019), bit.ly/2qeLAD8 ............................................................................................... 31
Hearing with Michael Cohen, Former Attorney to President Donald Trump:
Hearing Before the H. Comm. on Oversight & Reform, 116th Cong. (2019),
bit.ly/2IrXTkX ............................................................................................................. 7
Memorandum from Laurence H. Silberman, Deputy Attorney General, to Richard T.
Burress, Office of the President, Re: Conflict of Interest Problems Arising out of
the President’s Nomination of Nelson A. Rockefeller to be Vice President Under
the Twenty-Fifth Amendment to the Constitution 5 (Aug. 28, 1974) .................... 20
S. Ct. R. 10(c) ................................................................................................................ 14

Constitutional Provisions
Art. I, §9 ........................................................................................................................ 23
U.S. Const. art. II, § 1 ............................................................................................ 20, 22

vii

To the Honorable John G. Roberts, Jr., Chief Justice of the United States and
Circuit Justice for the District of Columbia Circuit:
This is a case of firsts. It is the first time Congress has subpoenaed the personal
records of a President that predate his time in office. It is the first time Congress has
issued a subpoena, under its legislative powers, to investigate the President for illegal
conduct. And, for the first time, a court has upheld a congressional subpoena to the
President for his personal papers. After the decision below, however, any committee
of Congress can subpoena any personal information from the President; all the
committee needs to say is that it’s considering legislation that would force Presidents
to disclose that same information. Given the temptation to dig up dirt on political
rivals, intrusive subpoenas into personal lives of Presidents will become our new
normal in times of divided government—no matter which party is in power. If every
committee chairman is going to have this unbounded authority, this Court should be
the one to say so.
It should be unsurprising, then, that the one thing the district court, the panel,
and the dissenting judges agree upon is that this case raises important separationof-powers issues. Yet this Court will not have the opportunity to decide for itself
whether the decision warrants review unless a stay pending certiorari is granted.
That is because the Oversight Committee, despite voluntarily staying the subpoena
for more than six months while this dispute wound its way through the lower courts,
is going to enforce the subpoena when the D.C. Circuit’s mandate issues—i.e., when
the parties’ agreement expires—unless this Court issues a stay.

1

The question at this preliminary stage is thus straightforward: whether the
President will be allowed to petition for review of an unprecedented demand for his
personal papers, or whether he’ll be deprived of that chance because the Committee
issued the subpoena to a third-party custodian with no incentive to test its validity.
This choice should be easy. The Court does not “proceed against the president as
against an ordinary individual” and extends him the “high degree of respect due the
President of the United States.” United States v. Nixon, 418 U.S. 683, 708, 715
(1974). The Court’s deferential approach is not driven by concern for any “particular
President,” but for “the Presidency itself.” Trump v. Hawaii, 138 S. Ct. 2392, 2418
(2018). Respect for the office warrants a stay to prevent the President from suffering
the irreparable harm of being denied further review because his case has been
mooted through no fault of his own. See Garrison v. Hudson, 468 U.S. 1301, 1302
(1984) (Burger, C.J., in chambers); John Doe Agency Corp., 488 U.S. 1306, 1309
(Marshall, J., in chambers).
There is also a fair prospect the Court will reverse the judgment below if review
is granted. As Judge Rao thoroughly explained, the Committee’s investigation of the
President for wrongdoing is not a “‘legitimate legislative purpose.’” Eastland v. U.S.
Servicemen’s Fund, 421 U.S. 491, 501 n.14 (1975). It is an attempt to exercise a lawenforcement power beyond Congress’s legislative purview. Nor can the investigation
“result in ... valid legislation.” Kilbourn v. Thompson, 103 U.S. 168, 194 (1881). The
Presidency is created by the Constitution—not Congress. Hence, Congress cannot
expand or alter the office’s qualifications, Powell v. McCormack, 395 U.S. 486 (1969),

2

and it cannot interfere with the President’s “responsibility to take care that the laws
be faithfully executed,” Free Enter. Fund v. PCAOB, 561 U.S. 477, 493 (2010). The
species of financial-disclosure legislation that the Committee supposedly has in
mind would do both. But the court never should have reached these issues because
the Committee lacks express statutory authority to subpoena the President. An
express statement should be required given the serious separation-of-powers issues
raised by unleashing every congressional committee to subpoena the President for
his personal records.
Finally, there are no countervailing reasons to alter the status quo during the
certiorari stage. The suggestion that the Committee suddenly has an urgent need to
consider financial-disclosure legislation during the short period of time the petition
will be under review is difficult to accept. It becomes impossible upon learning that
the only pending legislation with possible relevance had already passed the House
and failed in the Senate two weeks ago. Regardless, any harm the Committee might
endure pales in comparison to the case-mooting harm Applicants will suffer. When
it comes to the balance of harms, this is not a “close case.” Rostker v. Goldberg, 448
U.S. 1306, 1308 (Brennan, J., in chambers).
For these reasons, Applicants respectfully ask this Court to stay issuance of
the D.C. Circuit’s mandate pending the filing and disposition of Applicants’ petition
for certiorari. Additionally, because the mandate will issue on November 20, 2019,
Applicants respectfully ask this to Court administratively stay issuance of the
mandate pending disposition of this Application.

3

OPINIONS BELOW
The district court’s opinion is reported at Trump v. Committee on Oversight
and Reform of U.S. House of Representatives, 380 F. Supp. 3d 76 (D.D.C. 2019), and
it is reproduced at Appendix (“App.”) 144-84. The D.C. Circuit’s opinion is reported
at Trump v. Mazars USA, LLP, 941 F.3d 710 (D.C. Cir. 2019), and it is reproduced
at Appendix 1-134. The D.C. Circuit’s order denying rehearing en banc is available
at Trump v. Mazars USA, LLP, --- F.3d ---, 2019 WL 5991603 (D.C. Cir. Nov. 13,
2019), and it is reproduced at App. 136-42.
JURISDICTION
The D.C. Circuit issued its opinion on October 11, 2019. On October 24, 2019,
Applicants filed a timely petition for rehearing and rehearing en banc. That same
day, Applicants also moved the D.C. Circuit to stay its mandate pending the filing
and disposition of a petition of certiorari. On November 7, 2019, the D.C. Circuit
denied the motion to stay the mandate. App. 143. On November 13, 2019, the D.C.
Circuit denied the petition for rehearing and rehearing en banc. App. 136. Absent a
stay by this Court, the mandate will issue on November 20, 2019. See Fed. R. App.
41(b). The Court has jurisdiction to stay issuance of the D.C. Circuit’s mandate
pending the filing and disposition of a petition for certiorari. See 28 U.S.C. § 2101(f).
STATEMENT OF THE CASE
On April 15, 2019, the Oversight Committee of the House of Representatives
(“Committee”) issued a subpoena to Mazars USA LLP, the longtime accountant for
President Trump and several Trump entities (Applicants). The subpoena required
Mazars to produce eight years of information from four broad categories:

4

1.

All statements of financial condition, annual statements, periodic
financial reports, and independent auditors’ reports prepared, compiled,
reviewed, or audited by Mazars USA LLP or its predecessor,
WeiserMazars LLP;

2.

Without regard to time, all engagement agreements or contracts related
to the preparation, compilation, review, or auditing of the documents
described in Item Number 1;

3.

All underlying, supporting, or source documents and records used in the
preparation, compilation, review, or auditing of documents described in
Item Number 1, or any summaries of such documents and records relied
upon, or any requests for such documents and records; and

4.

All memoranda, notes, and communications related to the preparation,
compilation, review, or auditing of the documents described in Item
Number 1, including, but not limited to:
a.

all communications between Donald Bender and Donald J. Trump
or any employee or representative of the Trump Organization;
and

b.

all communications related to potential concerns that records,
documents, explanations, or other information, including
significant judgments, provided by Donald J. Trump or other
individuals from the Trump Organization, were incomplete,
inaccurate, or otherwise unsatisfactory.

DDC Doc. 1 at 9-10.
The subpoena emerged from a Committee hearing last February, featuring the
testimony of Michael Cohen. At the time he testified, Cohen was awaiting sentencing
following his guilty plea to numerous dishonesty-based crimes (including lying to
Congress). Among other things, Cohen alleged that the President had “inflated” and
“deflated” his assets on “personal financial statements from 2011, 2012, and 2013” to
obtain a bank loan for a (never materialized) deal “to buy the Buffalo Bills,” “to reduce
his [New York] real estate taxes,” and to reduce his insurance premiums. Hearing
with Michael Cohen, Former Attorney to President Donald Trump: Hearing Before

5

the H. Comm. on Oversight & Reform, 116th Cong. 13, 38, 160-61 (2019),
bit.ly/2IrXTkX. The financial statements in question were prepared by Mazars.
The Committee made clear why it was interested in Cohen’s testimony. As the
Chairman put it: “Mr. Cohen’s testimony raises grave questions about the legality of
Donald Trump’s—President Donald Trump’s conduct.” Cohen Hearing 6. Committee
members agreed. See id. at 107 (Hill: “I ask these questions to help determine
whether our very own President committed felony crimes”); id. at 163-65 (Tlaib:
“[O]ur sole purpose[] is exposing the truth…. President Donald J. Trump …
commit[ed] multiple felonies, and you covered it up, correct?”); id. at 37 (Clay: “I
would like to talk to you about the President’s assets, since by law these must be
reported accurately.”); id. at 160-61 (Ocasio-Cortez: “[D]id the President ever provide
inflated assets to an insurance company? … Do you think we need to review his
financial statements … to compare them?”); id. at 150-52 (Khanna: “[Y]ou have
provided … compelling evidence of Federal and State crimes, including financial
fraud…. I just want the American public to understand that … the President … may
be involved in a criminal conspiracy.”); id. at 30 (Maloney: lamenting that “while
[Cohen is] facing the consequences of going to jail, [the President] is not”).
Before issuing the Mazars subpoena, the Chairman explained its purpose in
two documents. The first, a March 20 letter to Mazars, explained that the Committee
wanted to verify Cohen’s testimony that “President Trump changed the estimated
value of his assets and liabilities on financial statements prepared by your company—
including inflating or deflating the value depending on [his] purpose.” DDC Doc. 30

6

at 5. The Chairman identified what he perceived to be inconsistencies between the
2011, 2012, and 2013 statements produced by Cohen, and he asked Mazars “[t]o assist
[its] review of these issues.” DDC Doc. 30 at 6-8. The second, an April 12
memorandum to the Committee, again referenced the need to verify Cohen’s
testimony, and offered four potential legislative purposes for the subpoena:
(1) ‘whether the President may have engaged in illegal conduct before
and during his tenure in office,’ (2) ‘whether he has undisclosed conflicts
of interest that may impair his ability to make impartial policy
decisions,’ (3) ‘whether he is complying with the Emoluments Clauses of
the Constitution,’ and (4) ‘whether he has accurately reported his
finances to the Office of Government Ethics and other federal entities.’
DDC Doc. 30 at 21. “The Committee’s interest in these matters,” the memorandum
continued, “informs its review of multiple laws and legislative proposals under [its]
jurisdiction.” DDC Doc. 30 at 21.
On April 22, 2019, Applicants sued Mazars, the Committee Chairman, and the
Committee lawyer who served the subpoena. The lawsuit alleged that the subpoena
lacked statutory authority and sought Applicants’ private information without a
“legitimate legislative purpose.” App. 169. A few days later, the Committee
intervened in place of the individual congressional defendants, and it agreed to stay
enforcement of the subpoena until the district court ruled on Applicants’ preliminaryinjunction motion. App. 155-56.1
The district court treated the preliminary-injunction filings as cross-motions
for summary judgment, entered judgment for the Committee, and then denied a stay

Throughout the proceedings below, Mazars has taken the position that “the
dispute in this action is between Plaintiffs and the Committee,” DDC Doc. 23, and
thus deferred to the judiciary’s resolution of this matter.
1

7

pending appeal. App. 158, 184. After Applicants appealed, the Committee again
agreed to stay enforcement of the subpoena; by the parties’ agreement, the subpoena
will remain stayed until the D.C. Circuit’s mandate issues. CADC Doc. 18 at 2-3.
Upon issuance of the mandate, then, Mazars must promptly disclose Applicants’
private information to the Committee.
On October 11, 2019, in a divided opinion, the D.C. Circuit affirmed the district
court’s judgment. App. 1-66. For the subpoena to be statutorily valid, the majority
explained, Congress must have “given the issuing committee ... authority” to demand
these records. App. 18. For the subpoena to be constitutional, it needs a “legitimate
legislative purpose.” App. 46. That means, inter alia, that the Committee is “pursuing
a legislative, as opposed to a law-enforcement, objective” and “is investigating a
subject on which constitutional legislation ‘could be had.’” App. 21. (quoting McGrain
v. Daugherty, 273 U.S. 135, 177 (1927)).
Taking the issues “in reverse order,” App. 20, the majority first upheld the
subpoena as constitutional. In the majority’s view, the Committee was pursuing a
legislative—and not law-enforcement—investigation of the President. In so holding,
the majority relied heavily on the Chairman’s first memorandum. Despite the
Committee’s avowed desire to investigate whether the President broke the law, its
assertion that its “interest in these matters informs the Committee’s review of
multiple laws and legislative proposals under its jurisdiction” was simply “more
important.” App. 26. (cleaned up). Moreover, “that the House has pending several
pieces of legislation related to the Committee’s inquiry offers highly probative

8

evidence of the Committee’s legislative purpose.” App. 27. The majority’s view, then,
was that this justification is not “an insubstantial, makeweight assertion of remedial
[legislative] purpose.” App. 28.
The majority further held that the Committee was investigating an area “in
which [Congress] may potentially legislate or appropriate.” App. 36, 45 (citation and
quotations omitted). Specifically, laws requiring presidents to “disclose financial
information” are a “category of statutes” within Congress’s legislative authority
because Congress could, among other things, enact laws to enforce the Emoluments
Clauses. App. 39. According to the majority, such legislation would not “prevent the
President from accomplishing his constitutionally assigned functions” in violation of
Article II of the Constitution, impose an additional qualification, or otherwise exceed
Congress’ authority. App. 40 (cleaned up). To conclude otherwise “would be a return
to an ‘archaic view of the separation of powers’” that “is not the law.” App. 43. In all,
the majority saw “no constitutional flaw in laws requiring Presidents to publicly
disclose certain financial information.” App. 45.
The majority then turned to the Committee’s statutory authority. It recognized
that the Committee’s subpoena authority under the House Rules does not expressly
reach the President. But the majority declined “to interpret the House Rules
narrowly to deny the Committee the authority it claims.” App. 55. First, it rejected
application of the clear-statement rule because “the House Rules have no effect
whatsoever on ‘the balance between Congress and the President.” App. 59. Since
“Congress already possesses—in fact, has previously exercised—the authority to

9

subpoena Presidents and their information, nothing in the House Rules could in any
way alter the balance between the two political branches of government.” App. 5960. (citations and quotations omitted).
Second, the majority declined to apply the canon of constitutional avoidance.
Under controlling precedent, the Committee’s statutory authority must be narrowly
interpreted if there are serious “‘doubts’” as to the subpoena’s “‘constitutionality.’”
App. 60. (quoting United States v. Rumely, 345 U.S. 41, 46 (1953)). In the majority’s
view, however, “the constitutional questions raised here are neither grave nor serious
and difficult.” App. 61 (cleaned up).
Last, the majority rejected application of a narrowing construction to avoid the
separation-of-powers concerns raised by authorizing every House committee to
subpoena the President. App. 61-64. Whether a flurry of committee subpoenas would
interfere with the President’s official duties was not presented, the majority held,
because this subpoena was “directed at Mazars” and, regardless, there could be no
argument that this subpoena “risks unconstitutionally burdening the President’s
core duties.” App. 64.
Judge Rao dissented. App. 67-134. She explained that this case “raises serious
separation of powers concerns about how a House committee may investigate a
sitting president.” App. 67. That is because “allegations of illegal conduct against the
President cannot be investigated by Congress except through impeachment.” App.
72. “Congress cannot undertake a legislative investigation of an impeachable official
if the ‘gravamen’ of the investigation rests on ‘suspicions of criminality.’” App. 73.

10

(quoting Kilbourn, 103 U.S. at 193, 195). Thus, whether this subpoena has “a
legislative purpose presents a serious conflict between Congress and the President.”
App. 77.
In Judge Rao’s view, Congress had exceeded its “legislative power” because the
“subpoena and investigation explicitly state a purpose of investigating illegal conduct
of the President, including specific violations of ethics laws and the Constitution.”
App. 67. Indeed, “the Committee has emphasized repeatedly and candidly its interest
in investigating allegations of illegal conduct by the President.” App. 104. The
Committee’s “investigation,” she explained, “is not about administration of the laws
generally or the President’s incidental involvement in or knowledge of any alleged
unlawful activity within the executive branch. Instead the topics of investigation
exclusively focus on the President’s possible engagement in ‘illegal conduct.’” App.
105. That is law enforcement.
Judge Rao recognized that the subpoena also claims “a legislative purpose.”
App. 108. But “the mere statement of a legislative purpose is not ‘more important’
when a committee also plainly states its intent to investigate such conduct.” App.
109. In this case, the subpoena’s “gravamen ... is the President’s wrongdoing. The
Committee has ‘affirmatively and definitely avowed,’ McGrain, 273 U.S. at 180, its
suspicions of criminality against the President.” App. 116. Hence, “questions of illegal
conduct and interest in reconstructing specific financial transactions of the President
are too attenuated and too tangential to the Oversight Committee’s legislative
purposes.” App. 114. (citation and quotations omitted).

11

In light of this conclusion, Judge Rao did not need to reach other arguments.
She nevertheless expressed serious concerns with the majority’s statutory analysis.
In particular, Judge Rao rejected the notion that separation-of-powers concerns are
not implicated because the subpoena was issued to a third-party custodian of the
President’s papers. App. 74-77. She also explained why, contra the majority’s view,
laws requiring regulating the President’s finances as a condition of holding office are
“rife with constitutional concerns.” App. 122.
The D.C. Circuit denied rehearing en banc. App. 136-37. Judge Katsas, joined
by Judge Henderson, dissented. As he explained, “this case presents exceptionally
important questions regarding the separation of powers among Congress, the
Executive Branch, and the Judiciary.” App. 138. This is only “the second time in
American history [that] an Article III court has undertaken to enforce a congressional
subpoena for the records of a sitting President.” App. 138. And, unfortunately, the
ruling “creates an open season on the President’s personal records” since “whenever
Congress conceivably could pass legislation regarding the President, it also may
compel the President to disclose personal records that might inform the legislation.”
App. 139. “With regard to the threat to the Presidency,” then, “‘this wolf comes as a
wolf.’” App. 139 (quoting Morrison v. Olson, 487 U.S. 654, 699 (1988) (Scalia, J.,
dissenting).
Judge Rao, joined by Judge Henderson, also dissented. “The panel’s analysis
of these issues,” she reiterated, “misapprehends the gravamen of the Committee’s
subpoena and glosses over the difficult questions it raises for the separation of

12

powers.” App. 140. She added that the fallout from upholding this “unprecedented”
subpoena will be serious; “the panel opinion has shifted the balance of power between
Congress and the President and allowed a congressional committee to circumvent
the careful process of impeachment. The exceptionally important constitutional
questions raised by this case justify further review by our court.” App. 140. Judge
Rao also explained why a recent House resolution did not alter “the central question”
here. App. 141-42. “This question is one of exceptional importance,” she concluded,
“both for this case as well as for the recurring disputes between Congress and the
Executive Branch.” App. 142.
REASONS FOR GRANTING THE STAY
“To obtain a stay pending the filing and disposition of a petition for a writ of
certiorari, an applicant must show (1) a reasonable probability that four Justices will
consider the issue sufficiently meritorious to grant certiorari; (2) a fair prospect that
a majority of the Court will vote to reverse the judgment below; and (3) a likelihood
that irreparable harm will result from the denial of a stay. In close cases the Circuit
Justice or the Court will balance the equities and weigh the relative harms to the
applicant and to the respondent.” Hollingsworth v. Perry, 558 U.S. 183, 190 (2010).
Applicants meet this test.
I.

There is a reasonable probability that the Court will grant certiorari
to determine whether the Committee’s subpoena is lawful.
This petition will present “an important question of federal law that has not

been, but should be, settled by the Court.” S. Ct. R. 10(c). The district court, before
issuing a 41-page opinion, cautioned that “[t]he issues … are serious” and that “[n]o

13

judge would make a hasty decision involving such important issues.” DDC Doc. 33 at
4-5. The United States filed an amicus brief in support of Applicants, arguing that
this dispute “raises significant separation-of-powers issues,” and agreeing with
Applicants that this novel subpoena is unlawful. CADC Doc. 12 at 6-8. The D.C.
Circuit then issued a 66-page opinion that characterized the interests at issue as
“weighty,” App. 65, and the legal questions as “far” from “unimportant.” App. 61.
Judge Rao also emphasized the importance of this case in her dissenting opinions.
There can be no reasonable dispute that “this case presents exceptionally important
questions regarding the separation of powers among Congress, the Executive Branch,
and the Judiciary.” App. 138 (Katsas, J., dissenting from denial of rehearing en banc).
Nor is there any reasonable argument that resolution of these important issues
turns on settled law. This Court has never decided whether a congressional subpoena
is constitutional if law enforcement is its “‘primary purpose[]’” or if a law-enforcement
purpose is “affirmatively and definitely avowed.” Barenblatt v. United States, 360
U.S. 109, 133 (1959). Nor has the Court decided whether Congress may impose
financial disclosure requirements on the President. This is a serious issue given that
the Office of the President (like the Supreme Court) is created by the Constitution
itself—not by an Act of Congress. The Court also has never held that the House Rules
are exempt from the clear-statement rule; rather, it has always subjected those Rules
to avoidance principles and narrowing constructions.
More fundamentally, all of these issues are unsettled because everything about
this case is “unprecedented.” App. 140 (Rao, J., dissenting from denial of rehearing

14

en banc). This is only the second time a committee has ever subpoenaed the records
of a sitting President, and the first time such a demand has been upheld. App. 13839 (Katsas, J., dissenting from denial of rehearing en banc). Until this case, no court
had ever upheld “a targeted investigation of the President’s alleged unlawful conduct
under the legislative power.” App. 103 (Rao, J., dissenting). The subpoena “represents
an unprecedented assertion of legislative power.” App. 103 (Rao, J., dissenting). “In
our government of three separate and co-equal departments the targeting of the
President in a congressional subpoena seeking evidence of illegal conduct is no mere
‘twist,’ but the whole plot.” App. 118.
That these questions will be presented in a petition filed by the President
increases the likelihood that the Court will grant certiorari. The President is no
“‘ordinary’” litigant. Cheney v. U.S. Dist. Court for D.C., 542 U.S. 367, 381 (2004)
(quoting Nixon, 418 U.S. at 715). The Court gives him “special solicitude” and “‘high
respect’” when deciding whether to grant review. Nixon v. Fitzgerald, 457 U.S. 731,
743 (1982); Cheney, 542 U.S. at 385 (quoting Clinton v. Jones, 520 U.S. 681, 707
(1997)). In Jones, the Court granted a petition filed by the President’s personal
lawyers based solely on the case’s “importance.” 520 U.S. at 689. The Court was
unmoved by arguments that the case was “one-of-a-kind” and “did not create any
conflict among the Courts of Appeals.” It deferred to the “representations made on
behalf of the Executive Branch as to the potential impact of the precedent established
by the Court of Appeals,” id. at 690—the same representations the Executive Branch
has made in this case, see supra 14.

15

President Trump should receive the same interim relief afforded to every other
occupant of the office who has litigated a question of this type: a stay that allows this
Court to review his challenge to the subpoena. Granting relief reflects the “public
importance of the issues presented,” Nixon, 418 U.S. at 686-87, as well as the
“‘judicial deference’” that is afforded to the President given his unique “‘constitutional
responsibilities and status,’” Cheney, 542 U.S. at 385 (quoting Fitzgerald, 457 U.S. at
753). The Court, in sum, should preserve its ability to review this case not to benefit
this “particular President,” but for benefit of “the Presidency itself.” Trump v. Hawaii,
138 S. Ct. at 2418.
II.

There is a fair prospect that this Court will reverse the D.C. Circuit’s
decision upholding the subpoena.
The Mazars subpoena is not “related to, and in furtherance of, a legitimate task

of the Congress.” Watkins v. United States, 354 U.S. 178, 187 (1957). Its primary
purpose is law enforcement, not legislating; the legislation it purportedly pursues
would be unconstitutional; and the subpoena is not unambiguously authorized by the
House Rules.
First, Congress is not “a law enforcement or trial agency. These are functions
of the executive and judicial departments of government.” Id. The Committee’s
subpoena, however, is an unabashed effort to investigate whether the President
violated federal law—a law-enforcement task that exceeds Congress’s legislative
power. App. 103-17 (Rao, J., dissenting).
At the Cohen hearing (the impetus for this subpoena), the Chairman and
several Committee members admitted that their purpose was to assess “the legality

16

of … President Donald Trump’s conduct.” Supra 6-7. The Committee’s first request
to Mazars also stated that it wanted to investigate the accuracy of the President’s
financial statements to see if he broke the law. In his formal memo, the Chairman’s
very first stated purpose for the Mazars subpoena was “to investigate whether the
President may have engaged in illegal conduct before and during his tenure in office.”
Id. Moreover, the subpoena’s “dragnet” requests and singular focus on “certain named
individuals” and the “precise reconstruction of past events” are the hallmark of grandjury and prosecutorial investigations, not legislative inquiries. Wilkinson v. United
States, 365 U.S. 399, 412 (1961); see Senate Select Comm. on Presidential Campaign
Activities v. Nixon, 498 F.2d 725, 732 (D.C. Cir. 1974). The Committee, therefore, has
“‘affirmatively and definitely avowed’” an “‘unlawful’” law-enforcement purpose. App.
115 (Rao, J., dissenting) (quoting McGrain, 273 U.S. at 180).
The D.C. Circuit disagreed because the Committee also said it might pass
legislation, and because Applicants’ records might be relevant to three bills currently
circulating in the House. App. 27 (majority opinion). And while the Committee
admitted that it seeks “‘to investigate whether the President may have engaged in
illegal conduct,’” the D.C. Circuit overlooked that admission because, in its view,
investigating “past illegality can be wholly consistent with an intent to enact
remedial legislation.” App. 29 (quotations omitted). That, however, just turns the
constitutional line between a permissible legislative pursuit and an impermissible
law-enforcement investigation into a magic-words test. As the Court has explained
many times, that is not the law.

17

Courts must ask, not whether legislation is one possible purpose behind the
subpoena, but whether it is the subpoena’s “real object,” “primary purpose[],” and
“gravamen.” McGrain, 273 U.S. at 178; Barenblatt, 360 U.S. at 133; Kilbourn, 103
U.S. at 195. Courts, in other words, must not refuse to “see what all others can see
and understand” when evaluating the “congressional power of investigation.”
Rumely, 345 U.S. at 44 (cleaned up). While a legislative investigation is not
illegitimate because it might incidentally expose illegal conduct, App. 22, a lawenforcement investigation does not become legitimate just because it incidentally
might inspire remedial legislation.
This anti-circumvention principle must be rigorously enforced when the
President is the target of the subpoena. Although this Court has “upheld some
congressional investigations that uncover unlawful action by private citizens,”
investigating “wrongdoing of the President or any impeachment official has never
been treated as merely incidental to a legislative purpose.” App. 113 (Rao, J.,
dissenting). That is because Congress is not afforded the benefit of the doubt when it
wields its subpoena power against the Executive. App. 23-25; U.S. Amicus Br., CADC
Doc. 12 at 24. Indeed, this Court has consistently required a heightened
demonstration of need for a subpoena demanding presidential and White House
records. See Nixon, 418 U.S. at 713; Cheney, 542 U.S. at 385; In re Sealed Case, 121
F.3d 729, 754-55 (D.C. Cir. 1997).
But the Court does not need to impose a heightened requirement to invalidate
this subpoena. As Judge Rao explained, “the gravamen of the Oversight Committee’s

18

investigation ... is the President’s wrongdoing.” App. 116 (Rao, J., dissenting). The
subpoena “seeks to investigate illegal conduct of the President by reconstructing past
actions in connection with alleged violations of ethics laws and the Emoluments
Clauses.” App. 103 (Rao, J., dissenting). It exceeds Congress’s limited, enumerated
powers under Article I of the Constitution.
Second, the subpoena concerns “an area in which Congress is forbidden to
legislate.” Quinn, 349 U.S. at 161. In the D.C. Circuit’s view, laws requiring the
President to make financial disclosures would be constitutional. App. 45. But that is
incorrect. The office of the President (like the Supreme Court) is a creature of the
Constitution itself—not an Act of Congress. Article II vests “[t]he executive Power” in
“the President of the United States of America.” U.S. Const. art. II, §1, cl. 1. Congress
might have greater control over other executive-branch officials just as it might over
the lower federal courts. But the presidency’s “unique position in the constitutional
scheme,” Nixon, 457 U.S. at 749, means that Congress’s power to legislatively control
the occupant is severely constrained, PCAOB, 561 U.S. at 493; see also Memorandum
from Laurence H. Silberman, Deputy Attorney General, to Richard T. Burress, Office
of the President, Re: Conflict of Interest Problems Arising out of the President’s
Nomination of Nelson A. Rockefeller to be Vice President Under the Twenty-Fifth
Amendment to the Constitution 5 (Aug. 28, 1974).
Such legislation also would change or expand the qualifications for serving as
President. Congress lacks “the power to add to or alter the qualifications of its
Members,” U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779, 787 (1995), and, as a

19

result, it “is limited to the standing qualifications prescribed in the Constitution,”
Powell, 395 U.S. at 550. That rule applies to the President. Thornton, 514 U.S. at 803.
Since “Congress may not alter or add to the qualifications in the Constitution” for
federal elective office, id. at 796, its legislative purpose here is invalid.
The D.C. Circuit concluded that such laws do not add a qualification because
they “exclude precisely zero individuals from running for or serving as President;
regardless of their financial holdings, all constitutionally eligible candidates may
apply.” App. 45. But this Court rejected that theory of the Qualifications Clause in
Thornton. There, Arkansas defended its term-limits rule by advancing the same
argument. Its law barred no one from running for office or serving in Congress; it
merely barred long-term incumbents from the being on the ballot. As Arkansas put
it: “they may run as write-in candidates, and if elected, they may serve.” 514 U.S. at
828. But the Court responded that because “constitutional rights would be of little
value if they could be indirectly denied,” the Qualifications Clause prohibits “indirect
attempt[s]

to

accomplish

what

the

Constitution

prohibits

[parties]

from

accomplishing directly.” Id. at 829 (cleaned up). For that reason, the Constitution
proscribes not only absolute bars on certain individuals from running or serving in
office, but also laws that have “the likely effect of handicapping a class of candidates”
in running for office. Id. at 836.
Courts applying Thornton thus have concluded that the practical ability to
both comply with the obligation and serve in office is immaterial. In Campbell v.
Davidson, the Tenth Circuit invalidated a state law requiring candidates for federal

20

office to register to vote as a condition of running for office. 233 F.3d 1229 (10th Cir.
2000). Similarly, the Ninth Circuit invalidated a state law requiring candidates for
office to be residents of the State in which they sought office when filing nominating
papers. See Schaefer v. Townsend, 215 F.3d 1031 (9th Cir. 2000). In both, the State
argued that no one was barred from running for office. And, in both, the argument
was rejected. See Campbell, 233 F.3d at 1234; Schaefer, 215, F.3d at 1037. On that
understanding, a district court recently held that a presidential financial disclosure
requirement similar to the one Congress proposes likely “imposes an additional
substantive qualification beyond the exclusive confines of the Qualifications Clause
and is likely invalid.” Griffin v. Padilla, --- F. Supp. 3d. ---, 2019 WL 4863447, at **67 (E.D. Cal. 2019).
The D.C. Circuit also pointed to the Emoluments Clauses as a source of
legislative authority. “If the President may accept no domestic emoluments and must
seek Congress’s permission before accepting any foreign emoluments,” the court
posited, “then surely a statute facilitating the disclosure of such payments lies within
constitutional limits.” App. 40. But if the President cannot accept any domestic
emolument, then there is nothing to disclose; unless, of course, Congress is seeking
to investigate wrongdoing. But that is just law enforcement. It matters not that the
Committee wants to know whether the President is complying with the Constitution
instead of a statute; “the Constitution and valid federal statutes” are both “the
supreme law.” Alden v. Maine, 527 U.S. 706, 757 (1999). Nor does the D.C. Circuit
explain how the Domestic Emoluments Clause—a provision in Article II that states

21

what “[t]he President … shall not” do, §1, cl. 7—is an affirmative grant of authority
to Congress to enact legislation under Article I.
The D.C. Circuit’s reliance on the Foreign Emoluments Clause fares no better.
It is unsettled whether this provision even applies to the President. App. 123 (Rao,
J., dissenting). The rationale also is boundless. After all, the Foreign Emoluments
Clause (unlike its Domestic counterpart) applies to all who hold an “Office of Profit
or Trust under [the United States].” Art. I, §9. According to Congress, that means it
covers millions of federal government employees. 5 U.S.C. §7342(a); 6 O.L.C. Op. 156,
156-59 (1982). If ensuring compliance with the Foreign Emoluments Clause is a
legitimate legislative purpose, Congress could subpoena the accounting records of any
(or every) one of these millions of federal employees at any time to see whether he or
she has accepted foreign emoluments. This cannot be legitimate if we are to maintain
“a government of limited powers.” NFIB v. Sebelius, 567 U.S. 519, 552 (2012) (opinion
of Roberts, C.J.). In all events, it is unclear what such legislation would be given that
the Constitution only empowers Congress to “Consent” to foreign emoluments. Art. I,
§9, cl. 8. The notion that the “real object” of this subpoena, McGrain, 273 U.S. at 178,
is to see whether the President has accepted emoluments so Congress can consent to
them is untenable.
Third, the D.C. Circuit should not have reached any of these serious issues
since the Committee lacks statutory authority to subpoena the President’s records. A
committee cannot issue a subpoena the House Rules do not authorize. See Watkins v.
United States, 354 U.S. 178, 203-05 (1957). It is common ground that the House Rules

22

do not expressly authorize the committee to subpoena the President. But, in the D.C.
Circuit’s view, there was no reason to “interpret the House Rules narrowly” because
the Mazars subpoena neither “alters the separation of powers” nor “raises serious
constitutional questions.” App. 58-65.
Both conclusions are wrong. Foremost, the “authorizing resolution[]” should be
narrowly construed to avoid the “serious constitutional questions” that this dispute
raises. Tobin v. United States, 306 F.2d 270, 274-75 (D.C. Cir. 1962). The D.C. Circuit
did not dispute the principle. Nor could it under controlling precedent. Rumely, 345
U.S. at 46-48 (giving a House committee’s authorizing resolution “a more restricted
scope” to avoid “[g]rave constitutional questions”). The court instead held that this
case raises no constitutional questions warranting invocation of the avoidance canon.
App. 61. That is indefensible given the serious “threat to presidential autonomy and
independence,” upholding the subpoena poses, App. 139 (Katsas, J., dissenting from
denial of rehearing en banc), and the “difficult questions it raises for the separation
of powers,” App. 140 (Rao, J., dissenting from denial or rehearing en banc).
In order to uphold the subpoena, the D.C. Circuit had to decide that: (1) the
Committee did not cross the line from a valid legislative purpose to an invalid lawenforcement purpose, App. 21-36, 45-50; (2) requiring the President to make financial
disclosures does not violate Article II of the Constitution, App. 36-45; (3) Congress
can rely on the Necessary and Proper Clause to enact laws enforcing the Emoluments
Clauses, App. 40; and (4) the President is subject to the Foreign Emoluments Clause,

23

App. 40. These are serious issues raised in a setting in which the Court should be
hesitant to reach them. App. 120 (Rao, J., dissenting).
There should be special “reluctance to decide constitutional issues ... where, as
here, they concern the relative powers of coordinate branches of government.” Public
Citizen v. U.S. Dept. of Justice, 491 U.S. 440, 466 (1989). That is doubly true when
those issues arise in a subpoena-enforcement action—“not the most practical method
of inducing courts to answer broad questions broadly. Especially is this so when the
answers sought necessarily demand far-reaching constitutional adjudications. To
avoid such constitutional holdings is [the Court’s] duty, particularly in the area of the
right of Congress to inform itself.” Tobin, 306 F.2d at 274. That is why the prudent
course is to “avoid serious constitutional adjudications until such time as Congress
clearly manifests its intention of putting such a decisional burden upon [the court].”
Id. at 276.
The D.C. Circuit also should have applied the clear-statement rule. It held that
“the House Rules have no effect whatsoever on the balance between Congress and the
President.” App. 59. But this Court disagrees: “Whenever constitutional limits upon
the investigative power of Congress have to be drawn by this Court, it ought only to
be done after Congress has demonstrated its full awareness of what is at stake by
unequivocally authorizing an inquiry of dubious limits.” Rumely, 345 U.S. at 46.
Forcing Congress to be fully aware and unequivocal vindicates important separationof-powers principles. App. 120-21 (Rao, J., dissenting).

24

Investigative demands like this one can “distract a President from his public
duties, to the detriment of not only the President and his office but also the Nation
that the Presidency was designed to serve.” Fitzgerald, 457 U.S. at 753; see also id.
at 760-61 (Burger, C.J., concurring) (“The essential purpose of the separation of
powers is to allow for independent functioning of each coequal branch of government
within its assigned sphere of responsibility, free from risk of control, interference, or
intimidation by other branches.”). The full House must clearly delegate authority to
its standing committees before they are unleashed to “issue successive subpoenas in
waves, making far-reaching demands that harry the President and distract his
attention.” U.S. Amicus Br., CADC Doc. 12 at 11.
The D.C. Circuit concluded that these concerns are hypothetical “because the
only subpoena” at issue “is the one directed at Mazars,” and no argument has been
made that “compliance with that subpoena risks unconstitutionally burdening the
President’s core duties.” App. 64. But that misunderstood Applicants’ argument and
the legal framework upon which it is built. App. 130-131 (Rao, J., dissenting). This
Court takes a categorical approach to presidential immunity. See Fitzgerald, 457 U.S.
at 751-53; Jones, 520 U.S. at 689-702. Immunity, accordingly, does not turn on the
idiosyncratic burdens (or lack thereof) of a particular subpoena. The issue is whether
“this particular [subpoena]—as well as the potential additional [subpoenas] that an
affirmance of the Court of Appeals judgment might spawn—may impose an
unacceptable burden on the … office.” Jones, 520 U.S. at 701-02. The President
plainly would be distracted from his official duties if every standing committee of

25

Congress has the authority to “compel the President to disclose personal records that
might inform the legislation” it purports to be considering. App. 139 (Katsas, J.,
dissenting from denial of rehearing en banc).
More broadly, the D.C. Circuit’s rejection of these concerns is emblematic of a
misguided approach to separation-of-powers questions. To be sure, “separation of
powers does not mean that the branches ‘ought to have no partial agency in, or no
control over, the acts of each other.’” App. 43 (quoting Jones, 520 U.S. at 702-03 (other
quotations omitted)). But the Court has not retreated from the foundational
understanding that it is the “responsibility” of the President—and him alone—“to
take care that the laws be faithfully executed,” PCAOB, 561 U.S. at 493, and that
“diffusion of power carries with it a diffusion of accountability,” id. at 497. The Court
remains vigilant in protecting the President from “interfere[nce] with the ...
discharge of his public duties” given “Article II’s vesting of the entire ‘executive
Power’ in a single individual, implemented through the Constitution’s structural
separation of powers, and revealed both by history and case precedent.” Jones, 520
U.S. at 710-11 (Breyer, J., concurring). There is thus every reason to be wary of the
D.C. Circuit’s decision and the flood of presidential subpoenas it will inevitably
trigger. “With regard to the threat to the Presidency, ‘this wolf comes as a wolf.’” App.
139 (Katsas, J., dissenting from denial of rehearing en banc) (quoting Morrison, 487
U.S. at 699 (Scalia, J., dissenting)).
III.

Applicants will suffer irreparable harm absent a stay.
There is a clear “likelihood of irreparable harm if the judgment is not stayed.”

Philip Morris USA Inc. v. Scott, 561 U.S. 1301, 1302 (2010) (Scalia, J., in chambers).

26

Without a stay, Mazars will disclose Applicants’ records to the Committee, mooting
this case, and irrevocably destroying Applicants’ legal right to keep their information
confidential. Certiorari is part of “‘the normal course of appellate review,’” and
“foreclosure of certiorari review by [the Supreme] Court would impose irreparable
harm.” Garrison, 468 U.S. at 1302 (Burger, C.J., in chambers); accord Mikutaitis v.
United States, 478 U.S. 1306, 1309 (1986) (Stevens, J., in chambers). “The fact that
disclosure would moot that part of the Court of Appeals’ decision requiring
disclosure,” accordingly “create[s] an irreparable injury.” John Doe Agency, 488 U.S.
at 1309 (Marshall, J., in chambers). Preventing mootness thus is “‘[p]erhaps the most
compelling justification’” for a stay pending certiorari. Id.
Even apart from mootness, the “disclosure of private, confidential information
‘is the quintessential type of irreparable harm that cannot be compensated or undone
by money damages.’” Airbnb, Inc. v. City of New York, 373 F. Supp. 3d 467, 499
(S.D.N.Y. 2019); accord Maness v. Meyers, 419 U.S. 449, 460 (1975); Araneta v. United
States, 478 U.S. 1301, 1304-05 (1986) (Burger, C.J., in chambers); Providence Journal
Co. v. FBI, 595 F.2d 889, 890 (1st Cir. 1979). Loss of confidentiality is “[c]learly …
irreparable” because “[t]here is no way to recapture and remove from the knowledge
of others information improperly disclosed.” Merrill Lynch, Pierce, Fenner & Smith,
Inc. v. Bishop, 839 F. Supp. 68, 72 (D. Me. 1993); Metro. Life Ins. Co. v. Usery, 426
F. Supp. 150, 172 (D.D.C. 1976). Both the district court and the House’s counsel agree.
See App. 182; CA2 Doc. 37 at 105:24-25, Trump v. Deutsche Bank, AG, No. 19-1540

27

(2d Cir.) (Mr. Letter: “Obviously I concede that if the documents are out, it is then
irreparable.”).
Any suggestion that concerns over confidentiality turn on the existence of a
privilege would be mistaken. “Irreparable” simply means “‘monetary damages are
difficult to ascertain or inadequate.’” CSX Transp., Inc. v. Williams, 406 F.3d 667,
673 (D.C. Cir. 2005). When confidentiality is lost, “no award of money damages will
change the fact that information which Plaintiff was entitled to have kept from the
knowledge of third parties is no longer shielded from their gaze.” Merrill Lynch, 839
F. Supp. at 72.2
Moreover, as the Committee told the district court, it “cannot pledge that [the
records] will be kept secret”: “other Members of Congress” will immediately “have
access” to them, and “the decision whether to make the records public lies within its
discretion.” 5/14/19 Tr. 59:14-25. This risk of public disclosure also irreparably harms
Applicants. See Mikutaitis, 478 U.S. at 1309; Airbnb, 373 F. Supp. 3d at 499. Even
disclosure to the Committee irreparably harms Applicants. As the Southern District
of New York explained in a similar case: “the very act of disclosure to Congress is …
irreparable…. [P]laintiffs have an interest in keeping their records private from

In any event, Applicants’ records are privileged. Accountants have a legally
enforceable duty not to disclose their clients’ confidential information. 8 N.Y.C.R.R.
§29.10(c); AICPA Code of Professional Conduct §1.700.001.01. To overcome this duty,
a subpoena must be “validly issued and enforceable.” AICPA Code §§1.700.001.02;
1.700.100.02. Even in federal court, then, clients have “a reasonable expectation of
confidentiality” in their accounting records, and an accountant can “refuse to produce
the documents” while the client “challenges the … subpoena.” United States v.
Deloitte LLP, 610 F.3d 129, 142 (D.C. Cir. 2010).
2

28

everyone, including congresspersons ….” CA2 Doc. 37 JA122:18–JA123:4, Trump v.
Deutsche Bank, AG, No. 19-1540.
IV.

The balance of equities and relative harms weigh strongly in favor of
granting a stay.
That Applicants will suffer severe, case-mooting harm should end the debate

over a stay. Even if this were a “close case,” however, the “‘balance [of] equities’”
strongly favors Applicants. Rostker, 448 U.S. at 1308 (Brennan, J., in chambers).
Stays pending certiorari are relatively “short.” In re Biaggi, 478 F.2d 489, 493 (2d Cir.
1973) (Friendly, J.). And, the Committee has identified no reason why it needs
Applicants’ records immediately, especially after it voluntarily agreed to stay its
subpoena for six months. See Maryland v. King, 133 S. Ct. 1, 3 (2012) (Roberts, C.J.,
in chambers) (agreeing that a self-imposed “eight-week delay … undermines [the
nonapplicant’s] allegation of irreparable harm”). Any “interest” the Committee has
“in receiving [this] information immediately” simply “poses no threat of irreparable
harm.” John Doe Agency, 488 U.S. at 1309.
The Committee’s only possible need for Applicants’ records is to help it consider
“laws requiring Presidents to publicly disclose certain financial information.” App.
45.3 But studying disclosure laws is not urgent in any meaningful sense, especially in

In opposing a stay below, the Committee suggested that it also needs these
records for an impeachment investigation. “Throughout this litigation,” however, “the
Committee has maintained that it is ‘not here relying on impeachment power,’ Oral
Arg. at 1:34:19–22, and both the panel opinion and dissent agree that the Committee
has never invoked the impeachment power as the basis for this subpoena.” App. 141
(Rao, J., dissenting from denial of rehearing en banc) (citing App. 24-28; App. 37-44
(Rao, J., dissenting). Indeed, the majority’s primary response to the dissent was that
the subpoena seeks “information important to determining the fitness of legislation,”
not “the President’s fitness for office.” App. 50 (emphasis omitted).
3

29

light of the “time and difficulty of enacting new legislation,” Coal. for Responsible
Regulation, Inc. v. EPA, 2012 WL 6621785, at *22 (D.C. Cir. 2012) (Kavanaugh, J.,
dissenting from denial of rehearing en banc). Nor does the Committee “need” these
records to legislate given that “legislative judgments normally depend more on the
predicted consequences of proposed legislative actions” than on examining “certain
named individuals” or “precise[ly] reconstructi[ng] past events.” Senate Select
Comm., 498 F.2d at 732. Moreover, the only pending legislation possibly related to
this subpoena (H.R. 1) died in the Senate two weeks ago. See Congressman Sarbanes,
Senate Republicans Block Effort to Pass H.R. 1 (Oct. 30, 2019), bit.ly/2qeLAD8.
Even assuming the Committee would suffer some abstract harm if it could not
immediately access these records, that harm is dwarfed by the irreparable, casemooting harm that Applicants will suffer if a stay is denied. See Providence Journal,
595 F.2d at 890 (granting a stay because “the total and immediate divestiture of
appellants’ rights to have effective review” outweighed any harm from “postpon[ing]
the moment of disclosure”); Araneta, 478 U.S. at 1304-05 (granting a stay despite the
public’s “strong interest in moving forward expeditiously with a grand jury
investigation” because “the risk of injury to the applicants could well be irreparable
and the injury to the Government will likely be no more than the inconvenience of
delay”). “Refusing a stay” in this case, at bottom, “may visit an irreversible harm on

30

applicants, but granting it will apparently do no permanent injury to respondents.”
Philip Morris, 561 U.S. at 1305.
But this Court does not need to balance the equities anew; several decisions
have already balanced them. See, e.g., Judge Order, Jones v. Clinton, No. 95-1167
(8th Cir. Apr. 16, 1996) (granting President Clinton’s “motion to stay the mandate”
until “a petition for writ of certiorari has been filed” and the Supreme Court enters a
“final disposition of the case”). In Eastland, for example, the D.C. Circuit twice stayed
a congressional subpoena to the plaintiff’s bank. U.S. Servicemen’s Fund v. Eastland,
488 F.2d 1252, 1254 (D.C. Cir. 1973). The “decisive element” favoring a stay was the
fact that “unless a stay is granted this case will be mooted, and there is likelihood,
that irreparable harm will be suffered” by the plaintiff when the enforcement date
arrives. Id. This Court ultimately reversed the D.C. Circuit’s decision on the merits.
But it praised how the court handled the preliminary procedural issues in the case—
stressing the need to avoid the risk that “compliance by the third person could
frustrate any judicial inquiry” into the subpoena’s legality. Eastland, 421 U.S. at 501
n.14. That same risk exists here.
Finally, in United States v. Nixon—the most famous case involving a subpoena
to a sitting President—the Court “stayed” the subpoena “pending [its] resolution” of
the merits. 418 U.S. 683, 714 (1974). In fact, the Court granted a stay in Nixon even
though the subpoena sought evidence that was “specific and central to the fair
adjudication of a particular criminal case.” Id. at 713. It is untenable to think that

31

the Committee somehow needs Applicants’ records more than the President’s records
were needed in Nixon.
It makes sense “that from the legislative viewpoint, any alternative to outright
enforcement of the subpoena entails delay.” United States v. AT&T Co., 567 F.2d 121,
130 (D.C. Cir. 1977). But delay “is an inherent corollary of the existence of coordinate
branches.” Id. Courts must always “balance” the “public interest in the congressional
investigation” against individual rights and “executive … interests.” Id. at 128.
Striking that balance in favor of preserving the status quo is especially important
when the case raised unprecedented separation-of-powers issues that warrant the
Court’s review. See supra 14-15, 25-26. Generic concerns about “delay” cannot prevail
when, as here, the case will have lasting “consequences for the functioning of the
Presidency.” In re Lindsey, 158 F.3d 1263, 1288-89 (D.C. Cir. 1998) (Tatel, J.,
concurring in part and dissenting in part).
CONCLUSION
For these reasons, Applicants respectfully ask that this Court order that the
mandate for the United States Court of Appeals for the District of Columbia Circuit
be stayed pending the filing and disposition of a petition for a writ of certiorari.
Because the D.C. Circuit’s mandate is set to issue on November 20, 2019. Applicants
also respectfully ask that this Court order that the issuance of the mandate be stayed
while the Court considers this Application.

32

Respectfully submitted,
Jay Alan Sekulow
Stuart J. Roth
Jordan Sekulow
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave, NW, Suite 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com

William S. Consovoy
Counsel of Record
Jordan M. Call
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com

Stefan C. Passantino
MICHAEL BEST & FRIEDRICH LLP
1000 Maine Ave. SW, Ste. 400
Washington, D.C. 20024
(202) 747-9582
spassantino@michaelbest.com

Counsel for Applicants
November 15, 2019

33

APPENDIX

APPENDIX CONTENTS
Opinion, United States Court of Appeals for the District of Columbia
Circuit, dated October 11, 2019........................................................................ A1
Judgment, United States Court of Appeals for the District of Columbia
Circuit, dated October 11, 2019........................................................................ A135
Order Denying Petition for Rehearing En Banc, United States Court of
Appeals for the District of Columbia Circuit, dated November 13, 2019 ...... A136
Order Denying Cross-Motion to Stay the Mandate, United States Court of
Appeals for the District of Columbia Circuit, dated November 7, 2019 ........ A143
Memorandum Opinion, United States District Court for the District of
Columbia, dated May 20, 2019 ......................................................................... A144
Order, United States District Court for the District of Columbia, dated
May 20, 2019 ..................................................................................................... A185

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued July 12, 2019

Decided October 11, 2019
No. 19-5142

DONALD J. TRUMP, ET AL.,
APPELLANTS
v.
MAZARS USA, LLP AND COMMITTEE ON OVERSIGHT AND
REFORM OF THE U.S. HOUSE OF REPRESENTATIVES,
APPELLEES

Appeal from the United States District Court
for the District of Columbia
(No. 1:19-cv-01136)

William S. Consovoy argued the cause for appellants. With
him on the briefs were Cameron T. Norris and Stefan C.
Passantino.
Duane Morley Cox, pro se, filed the brief for amicus
curiae Duane Morley Cox in support of appellants.
Douglas N. Letter, General Counsel, U.S. House of
Representatives, argued the cause for appellee Committee on
Oversight and Reform of the U.S. House of Representatives.
With him on the briefs were Todd B. Tatelman, Deputy General
Counsel, Megan Barbero and Josephine Morse, Associate

A1

Page 1 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

2
General Counsel, and Brooks M. Hanner, Assistant General
Counsel.
Elizabeth B. Wydra, Brianne J. Gorod, and Ashwin P.
Phatak were on the brief for amicus curiae Constitutional
Accountability Center in support of intervenor-defendantappellee Committee on Oversight and Reform of the U.S.
House of Representatives.
Hashim M. Mooppan, Deputy Assistant Attorney General,
U.S. Department of Justice, and Mark R. Freeman, Scott R.
McIntosh, and Gerard Sinzdak, Attorneys, were on the brief as
amicus curiae The United States.
Before: TATEL, MILLETT and RAO, Circuit Judges.
Opinion for the Court filed by Circuit Judge TATEL.
Dissenting opinion filed by Circuit Judge RAO.
TATEL, Circuit Judge: On April 15, 2019, the House
Committee on Oversight and Reform issued a subpoena to the
accounting firm Mazars USA, LLP for records related to work
performed for President Trump and several of his business
entities both before and after he took office. According to the
Committee, the documents will inform its investigation into
whether Congress should amend or supplement current ethicsin-government laws. For his part, the President contends that
the Committee’s investigation into his financial records serves
no legitimate legislative purpose, and he has sued to prevent
Mazars from complying with the subpoena. The district court
granted summary judgment in favor of the Committee, and we
affirm. Contrary to the President’s arguments, the Committee
possesses authority under both the House Rules and the
Constitution to issue the subpoena, and Mazars must comply.

A2

Page 2 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

3
I.
Shortly after the 116th Congress convened on January 3,
2019, the new U.S. House of Representatives debated and
adopted a set of rules to govern its proceedings. See H.R.
Res. 6, 116th Cong. (2019). Like previous Congresses, the
116th established an oversight committee, the Committee on
Oversight and Reform, which it charged with “review[ing] and
study[ing] on a continuing basis the operation of Government
activities at all levels” and which it permitted to “conduct
investigations” “at any time . . . of any matter,” “without regard
to” other standing committees’ jurisdictions. Rules of the
House of Representatives, 116th Cong., Rule X, cls. 3(i),
4(c)(2) (2019) (“House Rules”); see also id., cl. 1(n)
(establishing the Committee on Oversight and Reform). To
“carry[] out . . . [these] functions and duties,” the Oversight
Committee may “require, by subpoena or otherwise . . . the
production of such . . . documents as it considers necessary.”
House Rule XI, cl. 2(m).
This case concerns one such subpoena. Issued on April 15
by the chairman of the House Committee on Oversight and
Reform, Representative Elijah Cummings, to President
Trump’s accounting firm, the subpoena requests financial
documents concerning the President and his companies
covering years both before and during his presidency.
In order to explain the impetus behind the subpoena, we
must go back to the Ethics in Government Act of 1978. Enacted
in the wake of the Watergate scandal, that statute requires many
aspiring and current government officials, including
presidential candidates and sitting Presidents, to file financial
disclosure reports at various times during their candidacies and
incumbencies. See 5 U.S.C. app. 4 § 101(a), (c), (d), (f)
(requiring “a candidate . . . for nomination or election to the
office of President” and “the President” to “file a report

A3

Page 3 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

4
containing the information described” in section 102 of the
Act). In their initial reports, presidential candidates and new
Presidents must provide information concerning their income,
assets, liabilities, and employers. See id. § 102(b) (requiring
“[e]ach report filed pursuant to subsections (a), (b), and (c) of
section 101” to contain such information). Once in office,
sitting Presidents must file annual reports disclosing that same
information plus details about any covered gifts, real estate and
securities transactions, and blind trusts. See id. § 102(a)
(requiring “[e]ach report filed pursuant to section 101(d) and
(e)” to contain such information). Presidential candidates
submit their reports to the Federal Election Commission, see
id. § 103(e), while incumbent Presidents file with the Office of
Government Ethics, an “executive agency” tasked with
“interpreting rules and regulations . . . governing . . . the filing
of financial statements,” id. §§ 103(b), 401(a), 402(b)(3),
402(b)(6).
Last year, the Office of Government Ethics announced that
it had identified an error in one of the several reports that
President Trump had filed since he became a presidential
candidate in 2015. Specifically, by letter dated May 16, 2018,
the Acting Director of the Office of Government Ethics advised
the Deputy Attorney General that, “based on the information
provided” in President Trump’s 2018 financial disclosure
report (covering calendar year 2017), he had determined that
the President’s 2017 financial disclosure (covering calendar
year 2016) omitted “a reportable liability under the Ethics in
Government Act,” namely, “a payment made by Mr. Michael
Cohen,” President Trump’s former personal lawyer, “to a third
party.” Letter from David J. Apol, Acting Director, Office of
Government Ethics, to Rod J. Rosenstein, Deputy Attorney
General, Department of Justice 1 (May 16, 2018) (“Apol
Letter”). Because President Trump’s 2018 filing disclosed that
in 2017 the President had reimbursed Cohen for the 2016

A4

Page 4 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

5
payment, the Acting Director concluded that “the payment
made by Mr. Cohen [was] required to be reported as a liability”
before it was reimbursed. Id. at 1; see also OGE Form 278e,
2017 Annual Report for Donald J. Trump, Part 8 n.3 (May 15,
2018),
https://oge.app.box.com/v/Trump2018Annual278
(disclosing that “Mr. Trump fully reimbursed Mr. Cohen in
2017”).
Several months later, then-Ranking Member Cummings
wrote to White House Counsel seeking documents related to
President Trump’s payments to Cohen. See Letter from Elijah
E. Cummings, Ranking Member, House Committee on
Oversight and Reform, to Donald F. McGahn II, Counsel to the
President, The White House, and George A. Sorial, Executive
Vice President of the Trump Organization 4–5 (Sept. 12, 2018).
That letter remained unanswered as of January 2019, when
Representative Cummings, who in the intervening months had
become Chairman Cummings, reiterated his request in a
second letter. See Letter from Elijah E. Cummings, Chairman,
House Committee on Oversight and Reform, to Pat Cipollone,
Counsel to the President, The White House 1–2 (Jan. 8, 2019).
Chairman Cummings also wrote to the new Director of the
Office of Government Ethics, asking him, too, for “documents
related to President Donald Trump’s reporting of debts and
payments to his personal attorney, Michael Cohen.” Letter
from Elijah E. Cummings, Chairman, House Committee on
Oversight and Reform, to Emory A. Rounds III, Director,
Office of Government Ethics 1 (Jan. 22, 2019).
In February, White House Counsel responded that the
President would consider permitting the Committee to review,
on a limited basis, a subset of the requested documents, but
Chairman Cummings rejected this proposal as inadequate. See
Letter from Elijah E. Cummings, Chairman, House Committee
on Oversight and Reform, to Pat Cipollone, Counsel to the

A5

Page 5 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

6
President, The White House 1 (Feb. 15, 2019) (“Cummings
Feb. 15 Letter”) (stating that the President’s offer to “consider
providing Committee staff with the ability to review limited
portions of two of the six categories of documents in camera”
would “not obviate the need . . . to fully comply” (internal
quotation marks omitted)). Citing the Oversight Committee’s
status as “the authorizing Committee for the Office of
Government Ethics,” the President’s statutory obligation to
“file . . . public financial disclosure report[s],” and Congress’s
“plenary authority to legislate and conduct oversight regarding
compliance with ethics laws and regulations,” Chairman
Cummings urged the White House “to provide documents
relevant to the Committee’s investigation of these matters.” Id.
at 7–8. “These documents will help the Committee determine,”
he explained, “why the President failed to report . . . payments
and whether reforms are necessary to address deficiencies with
current laws, rules, and regulations.” Id. at 9.
Two weeks later, Michael Cohen appeared at a hearing
before the Oversight Committee. See Hearing with Michael
Cohen, Former Attorney to President Donald Trump: Hearing
Before the House Committee on Oversight and Reform, 116th
Cong. (Feb. 27, 2019). He testified that he believed, based on
his experience working for President Trump, that the President
had “inflated his total assets when it served his purposes” in
some situations and had “deflated his assets” in others. Id. at
13 (testimony of Michael D. Cohen). Several Committee
Members questioned Cohen’s credibility; he had, after all,
recently pleaded guilty to various crimes, including lying to
Congress. See, e.g., id. at 7 (statement of Ranking Member Jim
Jordan) (“This might be the first time someone convicted of
lying to Congress has appeared again so quickly in front of
Congress.”); id. at 57 (statement of Rep. Michael Cloud)
(asking Cohen to “state what you’ve been convicted of”).
Seeking to support his testimony, Cohen produced to the

A6

Page 6 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

7
Committee several accounting documents, all of which
predated Mr. Trump’s presidency. Two of these documents—
2011 and 2012 “Statements of Financial Condition” for Donald
J. Trump—were prepared by Mazars. See “Donald J. Trump
Statement of Financial Condition” dated June 30, 2011;
“Donald J. Trump Statement of Financial Condition” dated
June 30, 2012.
Chairman Cummings next wrote to Mazars. In a March
2019 letter, he explained that the statements of financial
condition prepared by the firm and supplied by Cohen had
“raise[d] questions about the President’s representations of his
financial affairs,” “particularly [his] debts,” “on these forms
and on other disclosures.” Letter from Elijah E. Cummings,
Chairman, House Committee on Oversight and Reform, to
Victor Wahba, Chairman and Chief Executive Officer, Mazars
USA, LLP 1 (Mar. 20, 2019) (“Cummings Mar. 20 Letter”).
Chairman Cummings highlighted several “specific concerns,”
including: (1) that “[t]he 2012 Statement of Financial
Condition prepared by [Mazars]” intentionally omitted over
$50 million in assets and $75 million in liabilities that “thenCandidate Trump” later disclosed on his “first publicly filed
financial disclosure made . . . in 2015,” (2) that read together,
the 2012 statement of financial condition and 2015 financial
disclosure indicated that Deutsche Bank had reduced the
interest rate it was charging on a $125 million loan to thenCandidate Trump, potentially saving him “about $625,000”
each year, and (3) that “both the 2011 and 2012 financial
statements” noted that, before becoming a presidential
candidate, Mr. Trump “ha[d] pledged” almost $20 million to a
“former partner in the Trump World Tower at United Nations
Plaza,” who, “[a]ccording to contemporaneous reports,” was
possibly “the Korean conglomerate Daewoo” or a “German
financial institution.” Id. at 2–3. “To assist [its] review of these
issues,” the Committee requested several categories of

A7

Page 7 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

8
documents relating to President Trump’s accounts going back
to January 2009. Id. at 4.
Mazars responded that it could not provide the requested
documents voluntarily. See Letter from Jerry D. Bernstein,
Partner, Blank Rome LLP, to Elijah E. Cummings, Chairman,
House Committee on Oversight and Reform 1 (Mar. 27, 2019).
So, on April 12, Chairman Cummings sent a memorandum to
his fellow committee members explaining his intention to
issue, pursuant to the Committee’s authority under House Rule
X to “investigate ‘any matter at any time,’” a subpoena to
Mazars. Memorandum from Chairman Elijah E. Cummings to
Members of the Committee on Oversight and Reform 3
(Apr. 12, 2019) (“Cummings Memo”). The Chairman
identified four subject matters that, in his view, “[t]he
Committee has full authority to investigate”: (1) “whether the
President may have engaged in illegal conduct before and
during his tenure in office,” (2) “whether [the President] has
undisclosed conflicts of interest that may impair his ability to
make impartial policy decisions,” (3) “whether [the President]
is complying with the Emoluments Clauses of the
Constitution,” and (4) “whether [the President] has accurately
reported his finances to the Office of Government Ethics and
other federal entities.” Id. at 4. “The Committee’s interest in
these matters,” he stated, “informs its review of multiple laws
and legislative proposals under [its] jurisdiction.” Id.
The subpoena issued three days later. It requested, “[w]ith
respect to Donald J. Trump” and several of his affiliated
businesses—including the Trump Organization, the Trump
Corporation, and the Trump Old Post Office LLC—“[a]ll
statements of financial condition, annual statements, periodic
financial reports, and independent auditors’ reports prepared,
compiled, reviewed, or audited by Mazars . . . or its
predecessor.” Subpoena to Mazars USA, LLP, Apr. 15, 2019

A8

Page 8 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

9
(“Subpoena”). Furthermore, with respect to Mazars’s
“preparation, compilation, review, or auditing” of those
documents, the subpoena requested all related “engagement
agreements or contracts” “[w]ithout regard to time”; “[a]ll
underlying, supporting, or source documents and records . . . or
any summaries of such documents”; and all related
“memoranda, notes, and communications,” including
“communications related to potential concerns that . . .
information . . . provided by Donald J. Trump or . . . the Trump
Organization[] [was] incomplete, inaccurate, or otherwise
unsatisfactory.” Id. Narrowed somewhat from the Chairman’s
initial request to Mazars, the subpoena sought documents from
“calendar years 2011 through 2018” “[u]nless otherwise
noted.” Id. The subpoena instructed Mazars to comply by
April 29.
Before that date arrived, however, President Trump and
several of his business entities (collectively, the “Trump
Plaintiffs”) filed this lawsuit seeking a declaratory judgment
invalidating the subpoena and a permanent injunction
prohibiting its enforcement. See Complaint at 13, Trump v.
Committee on Oversight & Reform of U.S. House of
Representatives, 380 F. Supp. 3d 76 (D.D.C. 2019) (No.
19-cv-01136) (“Complaint”). The Trump Plaintiffs also moved
for a preliminary injunction, and while that motion was
pending, the Committee agreed to defer Mazars’s deadline to
comply with the subpoena.
The district court worked quickly to provide the parties
with an answer. Following the Supreme Court’s direction to
“give[] the most expeditious treatment” to suits seeking to
enjoin congressional subpoenas, Eastland v. U.S. Servicemen’s
Fund, 421 U.S. 491, 511 n.17 (1975), the court “consolidate[d]
[its] hearing on the preliminary injunction” with a resolution of
the merits by “treat[ing] the parties’ briefing”—which raised

A9

Page 9 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

10
no disputes of material fact—“as cross-motions for summary
judgment,” Trump, 380 F. Supp. 3d at 88, 90; see also Fed. R.
Civ. P. 65(a)(2) (permitting the court, “[b]efore or after
beginning the hearing on a motion for a preliminary
injunction,” to “advance the trial on the merits and consolidate
it with the hearing”). Then, after explaining that its “analysis
must be highly deferential to the legislative branch,” Trump,
380 F. Supp. 3d at 91, the court concluded that each of the four
investigative topics set forth in Chairman Cummings’s
April 12 memorandum represents “a subject ‘on which
legislation could be had,’” id. at 94 (quoting McGrain v.
Daugherty, 273 U.S. 135, 177 (1927)). The court thus granted
summary judgment in favor of the Oversight Committee. See
id. at 105.
The Trump Plaintiffs now appeal, challenging the district
court’s grant of summary judgment to the Committee (though
not its decision to treat the briefs as cross-motions for summary
judgment). By agreement of the parties, Mazars need not
comply with the subpoena during the pendency of this
expedited appeal. See Oral Arg. Tr. 129. After oral argument,
and at the court’s invitation, the Department of Justice filed an
amicus brief, and the Trump Plaintiffs and Committee
responded. Our review is de novo. See Teva Pharmaceuticals
USA, Inc. v. Food & Drug Administration, 441 F.3d 1, 3 (D.C.
Cir. 2006) (reviewing de novo “the district court’s legal
determination” made after “consolidat[ing] [a] motion for a
preliminary injunction with a final decision on the merits”).

A10

Page 10 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

11
II.
This is hardly the first subpoena Congress has issued—
legislative subpoenas are older than our country itself—and the
parties draw upon the historical record to support their claims.
Accordingly, before digging into the details of this case, we
think it necessary to place the challenged subpoena in historical
context.
The story of legislative subpoenas extends all the way back
to the “emergence of [the English] Parliament,” when that
body, as part of its campaign to “challenge the absolute power
of the monarch,” asserted “plenary authority” to hold offending
parties in contempt. Watkins v. United States, 354 U.S. 178,
188 (1957). Beginning in the late seventeenth century,
Parliament armed “a host of committees” with the “powers to
send for persons and papers” in aid of their
“investigat[ions] . . . [into] the operations of government”—
from “the conduct of the war in Ireland” to “[t]he unwarranted
proclamation of martial law . . . by a commissioner of the East
India Company” to “the State of the Gaols of [the] Kingdom.”
James M. Landis, Constitutional Limitations on the
Congressional Power of Investigation, 40 Harv. L. Rev. 153,
162–63 (1926). Across the Atlantic, too, “[t]he privileges and
powers of the [House of] Commons were naturally assumed to
be an incident of the representative assemblies of the Thirteen
Colonies.” Id. at 165.
After the Revolutionary War and the Constitutional
Convention, the U.S. Congress wasted little time in asserting
its power to use compulsory process to investigate matters of
national—and potentially legislative—importance. The House
of Representatives opened the first such investigation in 1792,
when it passed a resolution appointing a committee “to inquire
into the causes of the failure of the late expedition under Major
General St. Clair,” whose troops had recently suffered an

A11

Page 11 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

12
embarrassing defeat in the Northwest Territory, and
“empowered” that committee “to call for such persons, papers,
and records, as may be necessary to assist [its] inquiries.”
3 Annals of Congress 493 (1792); see also George C. Chalou,
General St. Clair’s Defeat, 1792–93, in 1 Congress
Investigates: A Critical and Documentary History 1, 2 (Roger
A. Bruns et al. eds., rev. ed. 2011). More investigatory
committees, similarly empowered to issue subpoenas,
followed. For example, in 1814, the House directed an inquiry
“into the causes of the success of the enemy”—that is, the
British—“in his late enterprises” in burning the Capitol, 28
Annals of Congress 310 (1814), and, in 1859, the Senate
established a select committee to “inquire into the facts
attending” John Brown’s raid on Harpers Ferry and to “report
whether . . . and what legislation may . . . be necessary . . . for
the future preservation of the peace,” Cong. Globe, 36th Cong.,
1st Sess. 141 (1859).
But not until 1880 did “the first case reach[] [the Supreme]
Court to challenge the use of compulsory process as a
legislative device.” Watkins, 354 U.S. at 193. In that case,
Kilbourn v. Thompson, 103 U.S. 168 (1881), the Court held
that the House had exceeded its investigatory authority by
opening an inquiry into the bankruptcy proceedings of a firm
into which the United States had invested money. The Court
explained that Congress’s sole route to a remedy in that
bankruptcy proceeding, like that of all other dissatisfied
creditors, was “by a resort to a court of justice.” Id. at 193.
Accordingly, because under those circumstances the House’s
investigation “could result in no valid legislation,” id. at 195,
the Court concluded that the House had impermissibly
“assumed a power which could only be properly exercised by
another branch of the government,” id. at 192.

A12

Page 12 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

13
If Kilbourn created any doubt about Congress’s power to
conduct legislative investigations, the Supreme Court dispelled
that cloud in a pair of cases arising out of alleged corruption in
the administration of President Warren G. Harding. In the first,
McGrain v. Daugherty, the Court considered a subpoena issued
to the brother of then-Attorney General Harry Daugherty for
bank records relevant to the Senate’s investigation into the
Department of Justice. Concluding that the subpoena was valid,
the Court explained that Congress’s “power of inquiry . . . is an
essential and appropriate auxiliary to the legislative function,”
as “[a] legislative body cannot legislate wisely or effectively in
the absence of information respecting the conditions which the
legislation is intended to affect or change.” 273 U.S. at 174–
75. It mattered not that the Senate’s authorizing resolution
lacked an “avow[al] that legislative action was had in view”
because, said the Court, “the subject to be investigated was . . .
[p]lainly [a] subject . . . on which legislation could be had” and
such legislation “would be materially aided by the information
which the investigation was calculated to elicit.” Id. at 176–77
(internal quotation marks omitted). That was enough. Although
“[a]n express avowal” of the Senate’s legislative objective
“would have been better,” the Court admonished that “the
presumption should be indulged that [legislation] was the real
object.” Id. at 178.
Two years later, in Sinclair v. United States, 279 U.S. 263
(1929), the Court echoed many of the same refrains. In this
second case, Harry Sinclair, the president of an oil company,
appealed his conviction for refusing to answer a Senate
committee’s questions regarding his company’s allegedly
fraudulent lease on federal oil reserves at Teapot Dome in
Wyoming. The Court, acknowledging individuals’ “right to be
exempt from all unauthorized, arbitrary or unreasonable
inquiries and disclosures in respect of their personal and private
affairs,” id. at 292, nonetheless explained that because “[i]t was

A13

Page 13 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

14
a matter of concern to the United States,” “the transaction
purporting to lease to [Sinclair’s company] the lands within the
reserve cannot be said to be merely or principally . . . personal,”
id. at 294. The Court also dismissed the suggestion that the
Senate was impermissibly conducting a criminal investigation.
“It may be conceded that Congress is without authority to
compel disclosures for the purpose of aiding the prosecution of
pending suits,” explained the Court, “but the authority of that
body, directly or through its committees, to require pertinent
disclosures in aid of its own constitutional power is not
abridged because the information sought to be elicited may also
be of use in such suits.” Id. at 295.
The Court returned to the question of Congress’s
investigative authority during the Cold War, as “investigations
into the threat of subversion of the United States Government”
began to raise “novel questions [about] the appropriate limits
of congressional inquiry” “into the lives and affairs of private
citizens.” Watkins, 354 U.S. at 195. At first, the Court avoided
these thorny First Amendment issues by resolving cases on
other grounds. In United States v. Rumely, the Court overturned
a defendant’s contempt-of-Congress conviction for refusing to
answer a congressional committee’s request for “the names of
those who made bulk purchases” of “books of a particular
political tendentiousness.” 345 U.S. 41, 42 (1953). Rather than
reach the “[g]rave” First Amendment question posed by such
an inquiry, the Court interpreted the House’s authorizing
resolution, which instructed the committee to study “lobbying
activities,” as failing to permit an investigation into the sale of
books. Id. at 45, 48. And a few years later, in Watkins v. United
States, the Court overturned another contempt conviction, this
time holding that the defendant, a labor organizer who had
refused “to testify about persons who may in the past have been
Communist Party members,” 354 U.S. at 185, had received
insufficient notice of “the ‘question under inquiry’” at his

A14

Page 14 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

15
congressional hearing, id. at 214 (quoting 2 U.S.C. § 192). In
that case, the Court took the opportunity to emphasize that
although “there is no congressional power to expose for the
sake of exposure,” courts should avoid “testing the motives of
committee members for this purpose.” Id. at 200. Rather, the
crucial inquiry is whether a “legislative purpose is being
served.” Id.
The Court soon reached the First Amendment issue it had
been avoiding. In Barenblatt v. United States, the Court
considered the case of a teacher convicted of criminal contempt
for refusing, when testifying before a Subcommittee of the
House Committee on Un-American Activities, to answer
questions about his “past or present membership in the
Communist Party.” 360 U.S. 109, 126 (1959). Unlike the
Watkins defendant, the Barenblatt defendant had been
“sufficiently apprised of the topic under inquiry” by “other
sources of . . . information,” such as the Subcommittee
“Chairman’s statement as to why he had been called” to testify
and the questions posed by the Subcommittee to previous
witnesses. Id. at 124–25 (internal quotation marks omitted).
Proceeding, then, to the “precise constitutional issue”—
namely, “whether the Subcommittee’s inquiry . . . transgressed
the provisions of the First Amendment”—the Court explained
that although “Congress may not constitutionally require an
individual to disclose his . . . private affairs except in relation
to” “a valid legislative purpose,” such a purpose was present in
that case. Id. at 127. Congress’s “wide power to legislate in the
field of Communist activity . . . and to conduct appropriate
investigations in aid thereof[] is hardly debatable,” said the
Court, and “[s]o long as Congress acts in pursuance of its
constitutional power, the Judiciary lacks authority to intervene
on the basis of the motives which spurred the exercise of that
power.” Id. at 127, 132. Thus, given “the governmental
interests . . . at stake,” the Court concluded that “the First

A15

Page 15 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

16
Amendment [had] not been offended” and affirmed the
defendant’s conviction. Id. at 134.
Presidents, too, have often been the subjects of Congress’s
legislative investigations, though fewer of these have required
judicial intervention. Historical examples stretch far back in
time and broadly across subject matters. In 1832, for example,
the House vested a select committee with subpoena power “to
inquire whether an attempt was made by the late Secretary of
War . . . [to] fraudulently [award] . . . a contract for supplying
rations” to Native Americans and to “further . . . inquire
whether the President . . . had any knowledge of such attempted
fraud, and whether he disapproved or approved of the same.”
H.R. Rep. No. 22-502, at 1 (1832) (internal quotation marks
omitted). Shortly after World War II, Congress’s Pearl Harbor
Committee published a joint report exonerating the President
of “charges” that he had “tricked, provoked, incited, cajoled, or
coerced Japan into attacking this Nation.” S. Doc. No. 79-244,
at xiii, 251 (1946). In 1987, the House established a committee
to investigate the Iran-Contra Affair, including “the role of the
President.” H.R. Rep. No. 100-433, at 21 (1987). During that
investigation, President Reagan declined to assert executive
privilege, going so far as to furnish “relevant excerpts of his
personal diaries” to Congress. Morton Rosenberg,
Congressional Research Service, RL 30319, Presidential
Claims of Executive Privilege: History, Law, Practice and
Recent Developments 14 (Aug. 21, 2008) (internal quotation
marks omitted). And in the 1990s, first the House and Senate
Banking Committees and then a Senate special committee
investigated President and Mrs. Clinton’s involvement in the
Whitewater land deal and related matters. See Douglas L.
Kriner & Eric Schickler, Investigating the President 56–62
(2016) (describing the “three-year congressional investigation
of Whitewater”); see also S. Res. 120, 104th Cong. (1995)
(establishing the Senate Special Committee to Investigate

A16

Page 16 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

17
Whitewater Development Corporation and Related Matters).
Thanks to a last-minute compromise between the White House
and the Senate, the courts were kept out of a dispute over
whether the special committee could subpoena meeting notes
taken by President Clinton’s former lawyer. See Louis Fisher,
Congressional Research Service, RL 31836, Congressional
Investigations: Subpoenas and Contempt Power 16–18
(Apr. 2, 2003).
Of all the historical examples, perhaps the most highprofile congressional investigation into a President—and the
only one we have found that produced an appellate-level
judicial opinion—was Congress’s investigation into President
Nixon. The Senate created the Senate Select Committee on
Presidential Campaign Activities, better known as the Senate
Watergate Committee, to investigate “illegal, improper, or
unethical activities engaged in by any persons” involved in a
campaign “conducted by . . . any person seeking nomination or
election . . . for the office of the President of the United States”
during the “Presidential election of 1972.” S. Res. 60, 119
Cong. Rec. 3255, 93rd Cong. § 1(a) (1973) (emphasis added).
In Senate Select Committee on Presidential Campaign
Activities v. Nixon, our court was asked to decide whether
President Nixon had “a legal duty to comply with” a subpoena
issued by the Senate Watergate Committee for “taped
recordings of five conversations . . . discussing alleged
criminal acts.” 498 F.2d 725, 726–27 (D.C. Cir. 1974) (en
banc). President Nixon, apparently taking no issue with the
general power of congressional committees to subpoena sitting
Presidents, instead asserted executive privilege over the
individual tapes requested, arguing that they “[could] []not be
made public consistent with the confidentiality essential to the
functioning of the Office of the President.” Id. at 727 (internal
quotation marks omitted). In the end, we agreed with the
President: although the “presumptive[] privilege[]” protecting

A17

Page 17 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

18
“presidential conversations” could “be overcome . . . by an
appropriate showing of public need,” id. at 730 (internal
quotation marks omitted), we explained, the Committee had
failed to make such a showing “in the peculiar circumstances
of [that] case,” id. at 733. But even though the Senate
Watergate Committee ultimately lost, Senate Select Committee
strongly implies that Presidents enjoy no blanket immunity
from congressional subpoenas. After all, if such immunity
exists, it would have been wholly unnecessary for the court to
explore the subpoena’s particulars and to weigh “the public
interest [in] favor[] [of] confidentiality” against a “showing of
need by another institution of government”—that is, Congress.
Id. at 730.
All told, from Congress’s centuries-long experience
issuing legislative subpoenas, and the courts’ (somewhat less
frequent) experience reviewing them, a few principles
emerge—principles that control our resolution of this case.
As an initial matter, “whether [a] committee [is]
authorized [to] exact the information” it has subpoenaed “must
first be settled before . . . consider[ing] whether Congress had
the [constitutional] power to confer upon the committee the
authority which it claim[s].” Rumely, 345 U.S. at 42–43. In
other words, it matters not whether the Constitution would give
Congress authority to issue a subpoena if Congress has given
the issuing committee no such authority.
That said, once a committee has been delegated “[t]he
power of the Congress to conduct investigations,” that
constitutional authority “is broad.” Watkins, 354 U.S. at 187;
accord Eastland, 421 U.S. at 504 n.15 (“[T]he power to
investigate is necessarily broad.”); Barenblatt, 360 U.S. at 111
(describing Congress’s investigative power as “broad”);
Quinn v. United States, 349 U.S. 155, 160 (1955) (same);

A18

Page 18 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

19
McGrain, 273 U.S. at 173–74 (same). “It encompasses
inquiries concerning the administration of existing laws as well
as proposed or possibly needed statutes,” “[i]t includes surveys
of defects in our social, economic or political system for the
purpose of enabling the Congress to remedy them,” and “[i]t
comprehends probes into departments of the Federal
Government to expose corruption, inefficiency or waste.”
Watkins, 354 U.S. at 187. In short, “[a] legislative inquiry may
be as broad, as searching, and as exhaustive as is necessary to
make effective the constitutional powers of Congress.”
Townsend v. United States, 95 F.2d 352, 361 (D.C. Cir. 1938).
Expansive as it is, however, Congress’s subpoena power is
subject to several key constraints.
First, because “the power of Congress . . . to investigate”
is “co-extensive with [its] power to legislate,” Quinn, 349 U.S.
at 160, Congress may in exercising its investigative power
neither usurp the other branches’ constitutionally designated
functions nor violate individuals’ constitutionally protected
rights. Congress may not conduct itself as “a law enforcement
or trial agency,” as “[t]hese are functions of the executive and
judicial departments.” Watkins, 354 U.S. at 187. And Congress
lacks any “general power to expose where the predominant
result can only be an invasion of the private rights of
individuals.” Id. at 200.
Next, precisely because “[t]he scope of [Congress’s]
power of inquiry . . . is as penetrating and far-reaching as the
potential power to enact and appropriate under the
Constitution,” Barenblatt, 360 U.S. at 111, Congress may
investigate only those topics on which it could legislate, see
Quinn, 349 U.S. at 161 (stating that Congress’s “power to
investigate” does not “extend to an area in which Congress is
forbidden to legislate”). If no constitutional statute may be

A19

Page 19 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

20
enacted on a subject matter, then that subject is off-limits to
congressional investigators.
And finally, congressional committees may subpoena only
information “calculated to” “materially aid[]” their
investigations. McGrain, 273 U.S. at 177. Even a valid
legislative purpose cannot justify a subpoena demanding
irrelevant material.
With these principles in mind, we proceed to the
particulars of this case. The Trump Plaintiffs dispute both the
Committee’s authority from the House to issue the subpoena
and the House’s authority under the Constitution to confer the
same. For reasons that shall become clear later, we address
these questions in reverse order.
III.
At the outset, we emphasize that to resolve this case we
need not decide whether the Constitution permits Congress, in
the conduct of a legislative—that is, non-impeachment—
investigation, to issue subpoenas to a sitting President. That
issue is not presented here because, quite simply, the Oversight
Committee has not subpoenaed President Trump. Rather, the
Committee has issued its subpoena to Mazars, an accounting
firm with whom President Trump has voluntarily shared
records from his time as a private citizen, as a candidate, and
as President. Neither the Trump Plaintiffs nor the Department
of Justice argues that the Constitution denies Congress
authority to subpoena non-governmental custodians of the
President’s financial information. Cf. Oral Arg. Tr. 50 (stating
that assuming a committee has authority from the House to
issue a subpoena, the relevant inquiry is whether “the subpoena
ha[s] a legitimate legislative purpose”); id. at 68 (denying that
the President is “absolutely immune from any oversight
whatsoever”); Department Br. 7–8. Nor do the Trump Plaintiffs

A20

Page 20 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

21
assert any property rights in, or executive or other recognized
evidentiary privilege over, the subpoenaed information. See
Complaint (failing to assert any claim of privilege or property
right in the subpoenaed materials); Oral Arg. Tr. 15
(confirming that the President asserts no claim of executive
privilege or immunity); see also Couch v. United States, 409
U.S. 322, 335 (1973) (recognizing that “no confidential
accountant-client privilege exists under federal law, and no
state-created privilege has been recognized in federal cases”);
Peerenboom v. Marvel Entertainment, LLC, 148 A.D.3d 531,
532 (N.Y. App. Div. 1st Dep’t 2017) (holding that “[t]here is
no accountant-client privilege in [New York]”). Instead, the
Trump Plaintiffs ask us to do what courts have done ever since
Kilbourn: to determine “[w]hether the Committee’s subpoena
. . . is ‘related to, and in furtherance of, a legitimate task of the
Congress.’” Appellants’ Br. 5 (quoting Watkins, 354 U.S. at
187); see also Department Br. 10 (quoting same).
Taking up that question, we consider whether the
Oversight Committee is pursuing a legislative, as opposed to a
law-enforcement, objective; whether the Committee is
investigating a subject on which constitutional legislation
“could be had,” McGrain, 273 U.S. at 177; and whether the
challenged subpoena seeks information sufficiently relevant to
the Committee’s legislative inquiry.
A.
While “[t]he power of the Congress to conduct
investigations is inherent in the legislative process,” Watkins,
354 U.S. at 187, that authority “must not be confused with any
of the powers of law enforcement,” which “are assigned under
our Constitution to the Executive and the Judiciary,” Quinn,
349 U.S. at 161. The Trump Plaintiffs contend that the
Committee has crossed this constitutional line, veering from
permissible legislative investigation into impermissible law

A21

Page 21 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

22
enforcement. In assessing whether Congress has strayed
outside its legislative lane, we face two analytical hurdles.
First, the case law is quite stingy in describing what
impermissible congressional law enforcement might look like
in practice. The Supreme Court has framed its primary
instruction on this point in the negative: the fact that an
investigation might expose criminal conduct does not
transform a legislative inquiry into a law-enforcement
endeavor. As the Court explained in Sinclair, Congress’s
“authority . . . to require pertinent disclosures in aid of its own
constitutional power is not abridged” merely “because the
information sought to be elicited may also be of use” in
criminal prosecutions. 279 U.S. at 295. “Nor [is] it a valid
objection,” said the Court in McGrain, that an investigation
“might possibly disclose crime or wrongdoing.” 273 U.S. at
179–80. Indeed, thanks to the Court’s clarity on this matter, all
parties here agree that “a permissible legislative investigation
does not become impermissible merely because it might expose
law violations.” Appellants’ Br. 33 (internal quotation marks
omitted); see also Appellee’s Br. 44 (“The fact that the . . .
underlying conduct might also be unlawful . . . does not
invalidate the inquiry.”).
Second, the Supreme Court has made plain that “in
determining the legitimacy of a congressional act,” courts may
“not look to the motives alleged to have prompted it.” Eastland,
421 U.S. at 508; see also Watkins, 354 U.S. at 200 (stating that
“a solution to our problem is not to be found in testing the
motives of committee members for [legislative] purpose”);
Barenblatt, 360 U.S. at 132 (“So long as Congress acts in
pursuance of its constitutional power, the Judiciary lacks
authority to intervene on the basis of the motives which spurred
the exercise of that power.”). This is true both because “it is not
for [the courts] to speculate as to the motivations that may have

A22

Page 22 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

23
prompted the decision of individual [committee] members,”
Wilkinson v. United States, 365 U.S. 399, 412 (1961), and
because, in any event, those “motives alone would not vitiate
an investigation which had been instituted by a House of
Congress if that assembly’s legislative purpose is being
served,” Watkins, 354 U.S. at 200. On this point, too, the parties
agree. See Appellants’ Reply Br. 11 (“To determine whether a
subpoena is pursuing [the] impermissible goal” of law
enforcement, “courts . . . cannot delve into legislators’ hidden
motives . . . .”); Appellee’s Br. 43 (“[C]ourts cannot examine
Congress’s motives to determine the validity of a subpoena.”).
Thus stranded between Charybdis and Scylla, we must
determine whether Congress’s “legislative purpose is being
served,” Watkins, 354 U.S. at 200, without taking into account
either whether the investigation will reveal, or whether the
investigators are motivated to reveal, criminal conduct.
According to the Committee, the way out of this dilemma is
simple: just “‘presume Congress is acting in furtherance of its
constitutional responsibility to legislate and . . . defer to
congressional judgments about what Congress needs to carry
out that purpose.’” Appellee’s Br. 46 (quoting Trump, 380 F.
Supp. 3d at 82). In most cases, such a presumption would be
entirely appropriate. As the Court instructed in Tenney v.
Brandhove, “[t]o find that a committee’s investigation has
exceeded the bounds of legislative power it must be obvious
that there was a usurpation of functions exclusively vested in
the Judiciary or the Executive,” 341 U.S. 367, 378 (1951)
(emphasis added); or, as it said in McGrain, even absent an
“express avowal” by Congress that the purpose of an
“investigation was to aid it in legislating,” “the presumption
should be indulged that this was the real object,” 273 U.S. at
178.

A23

Page 23 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

24
The trouble, however, is that this deferential presumption
finds its roots in the principle that “every reasonable
indulgence of legality must be accorded to the actions of a
coordinate branch of our Government,” Watkins, 354 U.S. at
204, and here, we arguably confront not one but two
“coordinate branch[es] of our Government”—Congress and
the President. We say “arguably” because it is far from obvious
that President Trump, proceeding in his individual capacity,
carries the mantle of the Office of the President in this case.
The challenged subpoena seeks financial records totally
unrelated to any of the President’s official actions; indeed, for
six of the eight years covered by the subpoena, President
Trump was merely Mr. Trump or Candidate Trump. Cf.
Clinton v. Jones, 520 U.S. 681, 697 (1997) (“[W]e have never
suggested that the President . . . has an immunity that extends
beyond the scope of any action taken in an official capacity.”).
That said, the fact remains that the constitutional authority
assigned to the Office of the President can be exercised only by
the flesh-and-blood human occupying that office, so as a
practical matter, a restriction on the person might constrain the
branch of government. Cf. In re Lindsey, 158 F.3d 1263, 1286
(D.C. Cir. 1998) (“Because the Presidency is tied so tightly to
the persona of its occupant[,] . . . official matters . . . often have
personal implications for a President” and vice versa.) (Tatel,
J., concurring in part and dissenting in part). In short, although
the challenged subpoena, which seeks financial documents
related to President Trump in his pre-presidential, private
capacities, presents no direct inter-branch dispute, separationof-powers concerns still linger in the air. Cf. United States v.
Nixon, 418 U.S. 683, 702 (1974) (explaining that where a
pretrial “subpoena is directed to a President of the United
States, appellate review, in deference to a coordinate branch of
Government, should be particularly meticulous”).

A24

Page 24 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

25
Assuming for the moment that we owe Congress no
deference, we must figure out how to assess whether the
subpoena serves “a valid legislative purpose,” Barenblatt, 360
U.S. at 127, without resorting to the “presumption” “that
[legislation] was the real object” of Congress’s investigation,
McGrain, 273 U.S. at 178. The Trump Plaintiffs, arguing that
“‘purpose’ and ‘motive’” are different, suggest that we may
rely upon “available evidence”—that is, “what [the
Committee] is doing and what it has stated publicly”—to
“discern for [ourselves] what the Committee’s actual purpose
is.” Appellants’ Br. 29–30. Following that course, we conclude
that the public record reveals legitimate legislative pursuits, not
an impermissible law-enforcement purpose, behind the
Committee’s subpoena. As a result, we need not decide
precisely what deference we owe Congress, as we would reach
the same conclusion absent any deference at all.
We start with Chairman Cummings’s April 12
memorandum, in which he laid out the “need for [the]
subpoena” issued to Mazars. Cummings Memo 1. As the
document most closely tied in time and subject matter to the
subpoena, that memorandum offers a natural starting point for
our analysis. Cf. Shelton v. United States, 404 F.2d 1292, 1297
(D.C. Cir. 1968) (identifying “the opening statement of the
Chairman at [committee] hearings” and the “statements of the
members of the committee” as “‘sources [that might] indicate
the existence of a legislative purpose’” (quoting Wilkinson, 365
U.S. at 410)). The Trump Plaintiffs and the Committee appear
to agree, as does the dissent. See Appellee’s Br. 30–31 (relying
on Chairman Cummings’s memorandum to supply a list of the
subjects of the Committee’s investigations); Appellants’ Reply
Br. 20–21 (dismissing as “retroactive rationalizations”
potential legislative purposes that did not “appear[] in the
Chairman’s memorandum” (alterations and internal quotation

A25

Page 25 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

26
marks omitted)); Dissenting Op. at 2 (tracing the “reasons” for
the subpoena to Chairman Cummings’s Memo).
Chairman Cummings’s memorandum identifies four
questions that the subpoena will help answer: “whether the
President may have engaged in illegal conduct before and
during his tenure in office,” “whether [the President] has
undisclosed conflicts of interest that may impair his ability to
make impartial policy decisions,” “whether [the President] is
complying with the Emoluments Clauses of the Constitution,”
and “whether [the President] has accurately reported his
finances to the Office of Government Ethics and other federal
entities.” Cummings Memo 4. But even more important than
this list, the Chairman’s very next sentence explains that “[t]he
Committee’s interest in these matters informs [the
Committee’s] review of multiple laws and legislative proposals
under [its] jurisdiction.” Id. Such an “express avowal of the
[Committee’s] object” offers strong evidence of the
Committee’s legislative purpose. McGrain, 273 U.S. at 178.
The April memorandum does not stand alone. Just two
months earlier, Chairman Cummings articulated the same
remedial legislative objective in his letter to White House
Counsel. In that letter, he explained that obtaining the
requested financial documents would “help the Committee
determine why the President failed to report . . . payments and
whether reforms are necessary to address deficiencies with
current laws, rules, and regulations.” Cummings Feb. 15 Letter
9. “Since the earliest days of our republic,” the Chairman
emphasized, “Congress has investigated how existing laws are
being implemented and whether changes to the laws are
necessary.” Id. And “[f]or decades,” he concluded, “this has
included laws relating to financial disclosures required of the
President.” Id.

A26

Page 26 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

27
What’s more, although the House is under no obligation to
enact legislation after every investigation, the fact that the
House has pending several pieces of legislation related to the
Committee’s inquiry offers highly probative evidence of the
Committee’s legislative purpose. See In re Chapman, 166 U.S.
661, 670 (1897) (“[I]t is certainly not necessary” to identify
future legislation “in advance.”); see also Eastland, 421 U.S.
at 509 (“The very nature of the investigative function—like any
research—is that it takes the searchers up some ‘blind alleys’
and into nonproductive enterprises.”). The House has already
passed one such bill, H.R. 1, which requires Presidents to list
on their financial disclosures the liabilities and assets of any
“corporation, company, firm, partnership, or other business
enterprise in which” they or their immediate family have “a
significant financial interest.” H.R. 1, 116th Cong. § 8012
(2019). Another bill currently pending, H.R. 706, would
require both sitting Presidents and presidential candidates to
“submit to the Federal Election Commission a copy of the
individual’s income tax returns” for the preceding nine or ten
years, respectively. H.R. 706, 116th Cong. § 222 (2019). And
still another, H.R. 745, would amend the Ethics in Government
Act to make the Director of the Office of Government Ethics
removable only for cause. See H.R. 745, 116th Cong. § 3
(2019) (making the Director “subject to removal only for
inefficiency, neglect of duty, or malfeasance in office”).
Despite these indicia of legislative purpose, the Trump
Plaintiffs contend that “[t]he subpoena’s actual purpose is law
enforcement.” Appellants’ Reply Br. 9 (emphasis added). They
make four principal arguments.
First, the Trump Plaintiffs question whether the
Committee’s avowals of legislative purpose are genuine.
Quoting our court’s opinion in Shelton v. United States, they
argue that “Congress cannot cure [a] constitutional violation

A27

Page 27 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

28
through ‘the mere assertion of a need to consider remedial
legislation.’” Appellants’ Br. 34 (quoting Shelton, 404 F.2d at
1297). But the Trump Plaintiffs stop at a key conjunction.
“[T]he mere assertion of a need to consider ‘remedial
legislation’ may not alone justify an investigation,” we
explained in Shelton. 404 F.2d at 1297. “[B]ut,” we continued,
“when the purpose asserted is supported by references to
specific problems which in the past have been or which in the
future could be the subjects of appropriate legislation, then we
cannot say that a committee of the Congress exceeds its broad
power.” Id. (emphasis added).
That is just this case. We do not confront an insubstantial,
makeweight assertion of remedial purpose. To the contrary,
Chairman Cummings’s April 12 memorandum to his
colleagues lists four investigative topics; his March 20 letter to
Mazars details several “specific concerns raised by the [firm’s]
financial statements,” Cummings Mar. 20 Letter 2; and his
February 15 letter to White House Counsel states his intent to
assess whether “changes to the laws . . . relating to financial
disclosures required of the President” “are necessary,”
Cummings Feb. 15 Letter 9. These “references to specific
problems,” Shelton, 404 F.2d at 1297, together with actual
legislation now pending, see supra at 26–27, are more than
sufficient to demonstrate the Committee’s interest in
investigating possible remedial legislation.
Second, the Trump Plaintiffs contend that, far from
“avow[ing]” a legislative intent, McGrain, 273 U.S. at 178,
Chairman Cummings’s memorandum and statements by other
Representatives have “affirmatively and definitely avowed an
unlawful law-enforcement purpose,” Appellants’ Reply Br. 13
(internal quotation marks omitted); see also Dissenting Op. at
43. In particular, the Trump Plaintiffs take issue with the first
investigative rationale offered in Chairman Cummings’s

A28

Page 28 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

29
memorandum: “to investigate whether the President may have
engaged in illegal conduct before and during his tenure in
office.” Cummings Memo 4. But even if such an investigation
would not by itself serve a legitimate legislative purpose, we
can easily reject the suggestion that this rationale spoils the
Committee’s otherwise valid legislative inquiry. Simply put, an
interest in past illegality can be wholly consistent with an intent
to enact remedial legislation.
Take Hutcheson v. United States, in which the Court
considered the activities of a Senate committee tasked with
“investigat[ing] . . . the extent to which criminal . . . practices
or activities” were occurring “in the field of labor-management
relations” and “determin[ing] whether any changes [were]
required in the laws . . . to protect . . . against . . . such practices
or activities.” 369 U.S. 599, 600–01 (1962) (quoting S. Res. 74,
85th Cong. (1957)). The president of the United Brotherhood
of Carpenters and Joiners of America, called before the
committee to testify regarding whether he had used “union
funds . . . to ‘fix’ a 1957 criminal investigation . . . by a state
grand jury,” id. at 603, refused to answer such questions and
was convicted of criminal contempt, see id. at 605. Even
though “[t]he Committee’s concern . . . was to discover
whether . . . [union] funds . . . had been used . . . to bribe a state
prosecutor,” and even though “[i]f these suspicions were
founded, they might . . . have warranted a separate state
prosecution for obstruction of justice,” the Supreme Court
nonetheless affirmed the contempt conviction. Id. at 617–18.
What mattered to the Court was that the committee’s
investigation into the details of the defendant’s illegal conduct
“would have supported remedial federal legislation for the
future.” Id. at 617. “[S]urely,” the Court concluded, “a
congressional committee . . . engaged in a legitimate legislative
investigation need not grind to a halt whenever . . . crime or

A29

Page 29 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

30
wrongdoing is disclosed.” Id. at 618 (internal citations
omitted).
Sinclair teaches a similar lesson. Shortly before the Senate
summoned the oil tycoon Sinclair to testify, it had passed a
joint resolution “recit[ing] that [his company’s] leases . . . were
executed under circumstances indicating fraud and corruption”
and “direct[ing] the President . . . to prosecute such . . .
proceedings, civil and criminal, as were warranted by the
facts.” 279 U.S. at 289. When Sinclair appeared for the hearing,
the Senate committee considered but rejected a motion that
would have prohibited “inquir[ies] . . . relat[ing] to pending
controversies before any of the Federal courts in which Mr.
Sinclair [was] a defendant.” Id. at 290. “If we do not examine
Mr. Sinclair about those matters,” one committee member
lamented, “there is not anything else to examine him about.”
Id. Despite all this, the Court held that “[t]he record [did] not
sustain [Sinclair’s] contention that the investigation was
avowedly not in aid of legislation.” Id. at 295. The failed
motion and the member’s statement were “not enough to show
that the committee intended to depart from the purpose to
ascertain whether additional legislation might be advisable,”
explained the Court, because “[i]t [was] plain that investigation
of the matters involved in” pending or future “suits . . . might
directly aid in respect of legislative action.” Id.
So too here. Like the committees in Hutcheson and
Sinclair, the Oversight Committee has expressed an interest in
determining whether and how illegal conduct has occurred. But
also like the committees in Hutcheson and Sinclair—indeed,
even more so—the Oversight Committee has repeatedly
professed that it seeks to investigate remedial legislation. In
fact, the House has even put its legislation where its mouth is:
it has passed one bill pertaining to the information sought in
the subpoenas and is considering several others. See supra at

A30

Page 30 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

31
26–27. The Committee’s interest in alleged misconduct,
therefore, is in direct furtherance of its legislative purpose.
Third, the Trump Plaintiffs argue that the subpoena’s
“laser-focus[] on the businesses and finances of one person”
evinces “a particularity that is the hallmark of executive and
judicial power.” Appellants’ Br. 35. But again, Supreme Court
precedent forecloses this contention. In McGrain, for example,
the Senate authorized a select committee “to investigate . . . the
alleged failure of Harry M. Daugherty, Attorney General of the
United States, to prosecute properly violators of” anti-trust
laws and “further directed [the committee] to inquire into,
investigate and report . . . the activities of the said Harry M.
Daugherty, Attorney General, and any of his assistants . . .
which would in any manner tend to impair their efficiency or
influence as representatives of the government of the United
States.” 273 U.S. at 151–52 (internal quotation marks omitted).
Untroubled by the resolution’s “direct reference to the then
Attorney General by name,” the Court held that “the resolution
and proceedings” of the investigatory committee “g[a]ve no
warrant for thinking the Senate was attempting or intending to
try the Attorney General . . . before its committee for any crime
or wrongdoing.” Id. at 179.
The lesson of McGrain is that an investigation may
properly focus on one individual if that individual’s conduct
offers a valid point of departure for remedial legislation. Again,
such is the case here. It is not at all suspicious that the
Committee would focus an investigation into presidential
financial disclosures on the accuracy and sufficiency of the
sitting President’s filings. That the Committee began its inquiry
at a logical starting point betrays no hidden law-enforcement
purpose.
Finally, the Trump Plaintiffs detect something untoward in

A31

Page 31 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

32
the Committee’s interest in the President’s finances. “If this
subpoena is valid,” they argue, “then Congress is free to
investigate every detail of a President’s personal life, with
endless subpoenas to his accountants, bankers, lawyers,
doctors, family, friends, and anyone else with information that
a committee finds interesting.” Appellants’ Reply Br. 24.
But unlike a subpoena to, say, a doctor or an attorney, the
congressional request at issue in this case implicates no
material subject to a recognized legal privilege or an asserted
property interest. See supra at 20. Moreover, as the Court
explained in Sinclair, although Congress may not make
“unauthorized, arbitrary or unreasonable inquiries” into
individuals’ “personal and private affairs,” Congress most
assuredly does possess authority “to require pertinent
disclosures in aid of its . . . constitutional power” when those
affairs become a “matter of [public] concern” amenable to a
legislative solution. 279 U.S. at 292, 294–95; see also
Barenblatt, 360 U.S. at 127 (explaining that “Congress
may . . . constitutionally require an individual to disclose his
political relationships or other private affairs” if “in relation to”
“a valid legislative purpose”). The same rationale applies here.
Whether current financial disclosure laws are successfully
eliciting the right information from the sitting President,
occupant of the highest elected office in the land, is
undoubtedly “a matter of concern to the United States.”
Sinclair, 279 U.S. at 294; cf. Washington Post Co. v. U.S.
Department of Health & Human Services, 690 F.2d 252, 265
(D.C. Cir. 1982) (“[T]he [Ethics in Government] Act shows
Congress’ general belief that public disclosure of conflicts of
interest is desirable despite its cost in loss of personal
privacy.”).
In its amicus brief, the Justice Department argues that the
subpoena is invalid for still another reason, namely that the

A32

Page 32 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

33
House (or at least the Committee) failed to offer a “clear,
specific statement . . . of the legislative purpose that it believes
justifies its subpoena.” Department Br. 12 (emphasis added).
In the Department’s view, general indicia of legislative purpose
are not enough; the House must identify “with sufficient
particularity the subject matter of potential legislation.” Id. at
14. In support, the Department cites Watkins, where, it argues,
“the Supreme Court demanded just such a clear statement of
purpose.” Id. at 13. But the Watkins Court demanded no such
thing. That case concerned not the legitimacy of an
investigative subpoena, but rather an appeal of a criminal
conviction for contempt of Congress under 2 U.S.C. § 192,
which makes it a misdemeanor to refuse to answer any question
posed by a member of Congress “pertinent to the question
under inquiry.” Watkins, 354 U.S. at 207 (quoting 2 U.S.C.
§ 192). Because the committee’s “authorizing resolution, the
remarks of the chairman or members of the committee, [and]
even the nature of the proceedings themselves,” id. at 209,
failed to articulate “the ‘question under inquiry,’” id. at 214,
the Court reversed the conviction, holding that an individual
risking criminal contempt must “have knowledge of the subject
to which the interrogation is deemed pertinent . . . with the same
degree of explicitness and clarity that the Due Process Clause
requires in the expression of any element of a criminal
offense.” Id. at 208–09. The fact that the Watkins Court probed
the committee’s statements in an attempt to remedy “the vice
of vagueness”—present for criminal contempt of Congress, “as
in all other crimes,” id. at 209—provides no support for the
Department’s contention that Congress must identify its
legislative purpose “with sufficient particularity” in order to
justify an investigative subpoena. See Barenblatt, 360 U.S. at
123 (explaining that in Watkins, the Court “rest[ed] [its]
decision on [the] ground” that “a conviction for contempt
under 2 U.S.C. § 192 cannot stand unless the questions asked
are pertinent to the subject matter of the investigation”).

A33

Page 33 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

34
Far from finding support in Watkins, the Department’s
argument conflicts with binding Supreme Court precedent.
Over a century ago, the Court made clear in In re Chapman that
it is “certainly not necessary that the resolutions should declare
in advance what the [Congress] meditate[s] doing when the
investigation [i]s concluded.” 166 U.S. at 670. The Court has
twice reiterated this holding, stating in McGrain that “it was
not essential that the Senate declare in advance what it
meditated doing,” 273 U.S. at 172, and then in Eastland—
issued nearly two decades after Watkins—that “to be a valid
legislative inquiry there need be no predictable end result,” 421
U.S. at 509. After all, the purpose of an investigation, as the
Court explained in McGrain, is to gather “information
respecting the conditions which the legislation is intended to
affect or change,” 273 U.S. at 174–75; it is, as the Court added
in Eastland, “research” that informs future Congressional
action, 421 U.S. at 509. Congress’s decision whether, and if so
how, to legislate in a particular area will necessarily depend on
what information it discovers in the course of an investigation,
and its preferred path forward may shift as members educate
themselves on the relevant facts and circumstances. Requiring
Congress to state “with sufficient particularity” the legislation
it is considering before it issues an investigative subpoena
would turn the legislative process on its head.
Moreover, it is not at all clear what such a statement would
accomplish. The Department suggests that a clear statement
rule is “mandate[d]” by the “particular separation-of-powers
issues that arise when Congress attempts to compel the
President to produce information.” Department Br. 9. Setting
aside the fact that this subpoena, which is addressed to Mazars,
“compel[s] the President to produce” nothing, we still see no
justification in the Department’s brief for why specificity is
required in this scenario as opposed to any other. To be sure,

A34

Page 34 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

35
“[t]he President occupies a unique position in the constitutional
scheme.” Nixon v. Fitzgerald, 457 U.S. 731, 749 (1982). But
that unique position has little bearing on our ability to
determine whether Congress has strayed from the realm of
legitimate legislation into improper law enforcement—an
inquiry that, as we have just demonstrated, we can
meaningfully conduct without the specific articulation the
Department seeks. Nor does the Department explain how
specificity would meaningfully protect the President beyond
simply burdening Congress’s exercise of its own Article I
power.
The Department’s argument also ignores how much
Congress has already revealed about its legislative objectives.
In his February 15 letter and April 12 memorandum, Chairman
Cummings explained that the Committee was reviewing
“multiple laws and legislative proposals under [its]
jurisdiction,” Cummings Memo 4, including whether “changes
. . . are necessary” to “laws relating to financial disclosures
required of the President,” Cummings Feb. 15 Letter 9. The
House has already passed H.R. 1, which would require
Presidents to disclose businesses in which they or their
immediate families have significant interests, and is
considering legislation which would require Presidential
candidates and Presidents to submit their income tax returns to
the Federal Election Commission and make the Director of the
Office of Government Ethics removable only for cause. See
supra at 26–27. To be sure, as the Department points out, the
House passed H.R. 1 without the information the subpoena
seeks. But House passage is far from the end of the legislative
process. Information revealed by the subpoena could inform
the Senate as it considers the bill, as well as any subsequent
conference committee or the House itself, should it reconsider
the bill post-conference

A35

Page 35 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

36
Based on all the foregoing, we conclude that in issuing the
challenged subpoena, the Committee was engaged in a
“legitimate legislative investigation,” Hutcheson, 369 U.S. at
618, rather than an impermissible law-enforcement inquiry.
We next assess whether that legislative investigation concerned
a subject “on which legislation could be had.” McGrain, 273
U.S. at 177.
B.
Because “Congress may only investigate into those areas
in which it may potentially legislate or appropriate,”
Barenblatt, 360 U.S. at 111, a congressional committee may
issue only those subpoenas that are “intended to gather
information about a subject on which legislation may be had,”
Eastland, 421 U.S. at 508; see also McGrain, 273 U.S. at 177
(stating that “the subject” of investigation “was one on which
legislation could be had”). The Trump Plaintiffs argue that the
challenged subpoena fails this test because, in their view, “[t]he
subpoena could not result in valid legislation regarding the
President.” Appellants’ Reply Br. 17.
In addressing this argument, we emphasize that the
relevant inquiry is whether legislation “may be had,” Eastland,
421 U.S. at 508 (emphasis added), not whether constitutional
legislation will be had. Accordingly, we first define the
universe of possible legislation that the subpoena provides
“information about,” id., and then consider whether Congress
could constitutionally enact any of those potential statutes.
We must, however, tread carefully. As the Committee
points out, our limited judicial role gives us no authority to
reach out and “[s]trik[e] down a statute before it is even
enacted.” Appellee’s Br. 41; see also Nashville, Chattanooga
& St. Louis Railway v. Wallace, 288 U.S. 249, 262 (1933)
(explaining that courts may not make “abstract

A36

Page 36 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

37
determination[s] . . . of the validity of a statute” or issue
“decision[s] advising what the law would be on an uncertain or
hypothetical state of facts”). That said, as the Trump Plaintiffs
observe, see Appellants’ Br. 21 (“[b]ecause valid legislation
could not ‘be had’ if it would be unconstitutional, the court
ha[s] to decide whether this subpoena is designed to advance
unconstitutional legislation”), the only way to determine
whether the Committee’s investigation informs “a subject on
which legislation may be had” is to ask, abstract as the inquiry
may be, whether “legislation may be had” on that “subject,”
Eastland, 421 U.S. at 508 (emphasis added). Although we must
avoid passing on the constitutionality of hypothetical statutes,
we must also fulfill our responsibility to decide the case in front
of us, even if the road to resolution passes through an issue of
constitutional law. See Cohens v. Virginia, 19 U.S. 264, 404
(1821) (“The judiciary cannot, as the legislature may, avoid a
measure because it approaches the confines of the
[C]onstitution. . . . [W]e must decide [a case] if it be brought
before us.”). Accordingly, in order to resolve this case, we need
to identify a statutory litmus test. The Committee and the
Trump Plaintiffs each offer one, but neither quite fits our needs.
The Committee urges us to consider whether any law
“concerning government ethics and conflicts of interest
affecting Executive Branch officials” could pass constitutional
muster. Appellee’s Br. 30. But this test is too broad. The
challenged subpoena—or, more specifically, the portion of the
subpoena that seeks a sitting President’s financial
information—would produce no relevant “information about,”
id., laws that apply to ordinary Executive Branch employees.
Because “[t]he President occupies a unique position in the
constitutional scheme,” Fitzgerald, 457 U.S. at 749,
Congress’s constitutional authority to regulate the President’s
conduct is significantly more circumscribed than its power to
regulate that of other federal employees, see supra at 35–36.

A37

Page 37 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

38
Just as a congressional committee could not subpoena the
President’s high school transcripts in service of an
investigation into K-12 education, nor subpoena his medical
records as part of an investigation into public health, it may not
subpoena his financial information except to facilitate an
investigation into presidential finances. Thus, to determine
whether the records of pre-Candidate, Candidate, and President
Trump provide “information about a subject on which
legislation may be had,” Eastland, 421 U.S. at 508, we must
train our attention on laws that apply to Presidents (and
presidential hopefuls).
In that vein, the Trump Plaintiffs urge us to focus on the
constitutionality of laws that “impose conflict-of-interest
restrictions on the President.” Appellants’ Br. 37. As the Trump
Plaintiffs point out, such restrictions raise difficult
constitutional questions. Statutes mandating divestment from
financial interests or recusal from conflicted matters might
impermissibly “disempower [Presidents] from performing
some of the functions prescribed [by] the Constitution or . . .
establish a qualification for . . . serving as President . . . beyond
those contained in the Constitution.” Memorandum from
Laurence H. Silberman, Deputy Attorney General, to Richard
T. Burress, Office of the President, Re: Conflict of Interest
Problems Arising out of the President’s Nomination of Nelson
A. Rockefeller to be Vice President Under the Twenty-Fifth
Amendment to the Constitution 5 (Aug. 28, 1974) (“Silberman
Memo”). But we need not grapple with those constitutional
issues because the Mazars subpoena seeks information related
to a class of statutes that impose far fewer burdens than laws
requiring Presidents to change their behavior based on their
financial holdings. This less burdensome species of law would
require the President to do nothing more than disclose financial
information. Such statutes might amend the Ethics in
Government Act, for example, to require Presidents and

A38

Page 38 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

39
presidential candidates to file reports more frequently, to
include information covering a longer period of time, or to
provide new kinds of information such as past financial
dealings with foreign businesses or current liabilities of closely
held companies. We take this category of statutes as the
appropriate object of our litmus test in this case.
The Trump Plaintiffs argue that the Constitution prohibits
even these. Relying on Chief Justice Burger’s concurrence in
Nixon v. Fitzgerald, they contend that financial disclosure laws
unconstitutionally “‘impinge[] on and hence interfere[] with
the independence that is imperative to the functioning of the
office of a President.’” Appellants’ Br. 44 (quoting Fitzgerald,
457 U.S. at 761 (Burger, C.J., concurring)).
But that is not the rule—at least not quite. As the Court
explained in Nixon v. Administrator of General Services (Nixon
II), the mere act of “regulat[ing] . . . Presidential materials,”
“without more,” does not “constitute[] . . . a violation of the
principle of separation of powers.” 433 U.S. 425, 441 (1977).
Instead, rejecting “the argument that the Constitution
contemplates a complete division of authority between the
three branches,” the Court reaffirmed its reliance on “the more
pragmatic, flexible approach of Madison in the Federalist[]
Papers.” Id. at 442–43. “In . . . dividing and allocating the
sovereign power among three coequal branches,” the Court
explained, “the Framers of the Constitution” did not intend “the
separate powers . . . to operate with absolute independence.”
Id. at 443 (internal quotation marks and emphasis omitted). The
Court therefore announced the following test: “in determining
whether [a statute] disrupts the proper balance between the
coordinate branches, the proper inquiry focuses on the extent
to which it prevents the Executive Branch from accomplishing
its constitutionally assigned functions.” Id. Applying this rule,
we have no basis for concluding that complying with financial

A39

Page 39 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

40
disclosure laws would in any way “prevent[] the [President]
from accomplishing [his] constitutionally assigned functions.”
Id.
The most persuasive evidence on this score comes from
the Constitution itself. The very same document that “vest[s]”
“[t]he executive Power . . . in [the] President,” U.S. Const.
art. II, § 1, cl. 1, and directs him to “take Care that the Laws be
faithfully executed,” id. art. II, § 3, also imposes two separate
requirements pertaining to the President’s private finances. The
first, the so-called Domestic Emoluments Clause, prohibits the
President from receiving “any . . . Emolument” from the
federal or state governments other than a fixed
“Compensation” “for his Services.” Id. art. II, § 1, cl. 7. And
the second, the so-called Foreign Emoluments Clause,
prohibits any federal official “holding any Office of Profit or
Trust”—the President included—from “accept[ing] . . . any
present, Emolument, Office, or Title, of any kind whatever,
from any King, Prince, or foreign State” without “the Consent
of the Congress.” U.S. Const. art. I, § 9, cl. 8; see also
Applicability of the Emoluments Clause & the Foreign Gifts &
Decorations Act to the President’s Receipt of the Nobel Peace
Prize, O.L.C. slip op. at 4, 2009 WL 6365082, at *4 (Dec. 7,
2009) (“The President surely ‘hold[s] an[] Office of Profit or
Trust’ . . . .” (alterations in original) (quoting U.S. Const. art. I,
§ 9, cl. 8)). If the President may accept no domestic
emoluments and must seek Congress’s permission before
accepting any foreign emoluments, then surely a statute
facilitating the disclosure of such payments lies within
constitutional limits.
The United States Code, too, provides ample precedent for
laws that regulate Presidents’ finances and records. Cf. Nixon
II, 433 U.S. at 445 (noting the “abundant statutory precedent
for the regulation and mandatory disclosure of documents in

A40

Page 40 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

41
the possession of the Executive Branch”). The Foreign Gifts
and Decorations Act requires all federal employees, including
the President, to “file a statement” regarding any gift they
receive “of more than minimal value.” 5 U.S.C. § 7342(c). The
STOCK Act prohibits all “executive branch employees,”
including the President, from “us[ing] nonpublic information
derived from such person’s position . . . as a means for making
a private profit.” Pub. L. No. 112-105, §§ 2, 9, 126 Stat. 291,
291, 297. And the Presidential Records Act—whose
constitutionality the Trump Plaintiffs readily concede—
establishes a whole statutory scheme for “categoriz[ing],”
“fil[ing],” “dispos[ing]” of, and “manag[ing]” “Presidential
records.” 44 U.S.C. § 2203; see Appellants’ Br. 40 (“The
Presidential Records Act . . . did not cause a disruption of
executive functions significant enough to trigger separation of
powers analysis” (internal quotation marks omitted)). History
discloses no evidence that these statutes have disrupted
presidential functions.
The history of past Presidents’ financial disclosures offers
a particularly useful guide. As explained above, see supra at 3–
4, the Ethics in Government Act requires Presidents to file
periodic reports detailing, among other things, “[t]he source,
type, and [approximate] amount or value of income . . . from
any [non-federal] source,” “[t]he identity and [approximate]
value of . . . total liabilities owed,” and “the date . . . and
[approximate] value of any purchase, sale or exchange [of real
property and securities] during the preceding calendar year.”
5 U.S.C. app. 4 § 102(a). Every President to have served since
the Ethics in Government Act became law in 1978—Presidents
Carter, Reagan, H.W. Bush, Clinton, W. Bush, Obama, and
now Trump—has complied with these disclosure requirements.
See, e.g., Philip Taubman, Carter Drops ‘Blind Trust’ Secrecy
and Divulges Finances for 1978-9, N.Y. Times, May 31, 1979,
at A1; Edward T. Pound, Reagan’s Worth Put at $4 Million,

A41

Page 41 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

42
N.Y. Times, Feb. 23, 1981, at A1; Associated Press,
President’s Trust Grows in Value, N.Y. Times, May 15, 1992,
at A17; Stephen Labaton, Most of Clintons’ Wealth Held by
Mrs. Clinton, Disclosure Form Shows, N.Y. Times, May 18,
1994, at A20; Richard W. Stevenson, Bushes’ Assets Put at
$8.8 Million in Filing, N.Y. Times, May 16, 2003, at A22; U.S.
Office of Government Ethics, Presidential and Vice
Presidential
Financial
Disclosure
Reports,
https://extapps2.oge.gov/201/Presiden.nsf/President%20and%
20Vice%20President%20Index (financial disclosure reports of
Presidents Obama and Trump); see also Appellants’ Br. 44
(acknowledging that “President [Trump] has voluntarily
complied with those statutory requirements”). In fact,
Presidents Carter, Reagan, H.W. Bush, Clinton, W. Bush, and
Obama exceeded statutory disclosure requirements by
releasing their personal federal income tax returns to the public.
See
Presidential
Tax
Returns,
TaxNotes,
taxnotes.com/presidential-tax-returns (collecting presidential
tax records).
Of course, as the Trump Plaintiffs point out, “compliance
is not the measure of constitutionality.” Appellants’ Br. 44. But
when asked to decide whether an act of Congress “disrupts the
proper balance between the coordinate branches,” Nixon II, 433
U.S. at 443, a court would be foolish to ignore those branches’
prior pattern of conflict—or, as here, cooperation. See id. at 441
(finding it significant that “[n]either President Ford nor
President Carter support[ed] [former-President Nixon’s]
claim” that the challenged statute’s “regulation of the
disposition of Presidential materials . . . constitutes, without
more, a violation of the principle of separation of powers”); cf.
Zivotofsky v. Kerry, 135 S. Ct. 2076, 2091 (2015) (“In
separation-of-powers cases this Court has often ‘put significant
weight upon historical practice.’” (quoting NLRB v. Noel
Canning, 573 U.S. 513, 524 (2014))). Though not dispositive,

A42

Page 42 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

43
the fact that every President during the last four decades has
filed financial disclosures offers persuasive evidence that such
disclosures neither “prevent[]” nor “disrupt[],” Nixon II, 433
U.S. at 443, the President’s efforts to “take Care that the Laws
be faithfully executed,” U.S. Const. art. II, § 3.
To be sure, it is possible that some hypothetical statute
could go too far. One could certainly imagine disclosure
mandates so onerous that they begin to “prevent[] the
Executive Branch from accomplishing its constitutionally
assigned functions.” Nixon II, 433 U.S. at 443; see, e.g., Oral
Arg. Tr. 17 (positing “a statute [requiring] the President . . . to
submit 100,000 pages of financial disclosures and [to] meet
with Congress once a month to discuss them”). But to accept
the Trump Plaintiffs’ suggestion that Congress may impose no
disclosure requirements whatsoever on the President, see Oral
Arg. Tr. 51–52 (stating it is “very difficult to think of” a
constitutional law Congress “could pass” with respect to the
President)—or, put another way, that the challenged subpoena
could result in no valid legislation—would be to return to an
“archaic view of the separation of powers” that “requir[es]
three airtight departments of government,” Nixon II, 433 U.S.
at 443 (internal quotation marks omitted). That is not the law.
Instead, “our constitutional system imposes upon the
Branches a degree of overlapping responsibility, a duty of
interdependence as well as independence[,] the absence of
which ‘would preclude the establishment of a Nation capable
of governing itself effectively.’” Mistretta v. United States, 488
U.S. 361, 381 (1989) (quoting Buckley v. Valeo, 424 U.S. 1,
121 (1976)). As the Supreme Court has observed, “separation
of powers does not mean that the branches ‘ought to have no
partial agency in, or no controul over, the acts of each other.’”
Clinton, 520 U.S. at 702–03 (quoting The Federalist No. 47, at
325–326 (J. Cooke ed.1961) (emphasis in original)); see also

A43

Page 43 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

44
Nixon II, 433 U.S. at 442-43 & n.5 (affirming “the more
pragmatic, flexible approach of Madison in the Federalist
Papers and later of Mr. Justice Story” to the separation of
powers); Nixon, 418 U.S. at 703 (“In designing the structure of
our Government and dividing and allocating the sovereign
power among three coequal branches, the Framers of the
Constitution sought to provide a comprehensive system, but the
separate powers were not intended to operate with absolute
independence.”). As the Nixon cases teach, the “proper inquiry
focuses on the extent to which [another branch’s actions]
prevent[] the Executive branch from accomplishing its
constitutionally assigned functions.” Nixon II, 433 U.S. at 443
(citing Nixon, 418 U.S. at 711-712). Congress can require the
President to make reasonable financial disclosures without
upsetting this balance.
The Trump Plaintiffs challenge the constitutionality of
legislation that “may be had” on another basis. Eastland, 421
U.S. at 508. Drawing on the principle announced in Powell v.
McCormack, 395 U.S. 486 (1969), and U.S. Term Limits,
Inc. v. Thornton, 514 U.S. 779 (1995), that “[n]either Congress
nor the states can add to the constitutional qualifications for
holding federal elective office,” Walker v. United States, 800
F.3d 720, 723–24 (6th Cir. 2015), they argue that imposing
conflict-of-interest laws on the President would impermissibly
“change or expand the qualifications for serving as President,”
Appellants’ Br. 38 (citing Powell and Thornton). But once
again, we need not reach this issue. Regardless of whether
Congress may require Presidents to “eliminat[e] [their]
financial conflicts” through divestment or recusal, the Trump
Plaintiffs offer no reason to suspect that a statute requiring
nothing more than disclosure of such conflicts might also
“‘establish a qualification for . . . serving as President.’”
Appellants’ Br. 38 (quoting Silberman Memo 5). Financial
disclosure laws would not, as in Powell, prevent a “duly

A44

Page 44 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

45
elected” official from assuming office, 395 U.S. at 550, nor, as
in U.S. Term Limits, add a term limit to “the exclusive
qualifications set forth in the text of the Constitution,” 514 U.S.
at 827; cf. Appellants’ Br. 39 (conceding that “[t]he
Presidential Records Act does not add or alter the qualifications
for office”). In the end, laws requiring disclosure exclude
precisely zero individuals from running for or serving as
President; regardless of their financial holdings, all
constitutionally eligible candidates may apply.
In sum, we detect no inherent constitutional flaw in laws
requiring Presidents to publicly disclose certain financial
information. And that is enough. Without treading onto any
other potentially fertile grounds from which constitutional
legislation could flower, we conclude that given the
constitutionally permissible options open to Congress in the
field of financial disclosure, the challenged subpoena seeks
“information about a subject on which legislation may be had.”
Eastland, 421 U.S. at 508.
To the dissent, however, this makes no difference.
Although acknowledging that the Committee is pursuing a
“valid legislative inquiry,” the dissent insists that the Mazars
subpoena is nonetheless invalid because it “seeks to investigate
individual suspicions of criminality against the President,” an
inquiry that “may be pursued only through impeachment.”
Dissenting Op. at 44. In support, the dissent claims to rely on
the “text and structure of the Constitution, its original meaning
and longstanding practice.” Id. at 3.
Of course, the Constitution always serves as our starting
point, and particularly in separation-of-powers disputes, we
“put significant weight upon historical practice.” Zivotofsky,
135 S. Ct. at 2091 (internal quotations omitted). Indeed, this is
a path the Supreme Court and this court have already

A45

Page 45 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

46
trod. Nearly a century of precedent has laid out an established
test that resolves this inter-branch dispute in a way that, unlike
the dissent, respects the co-equal status and roles of both the
legislative and executive branches. Settled Supreme Court
precedent teaches that—at least where, as here, no party argues
that compliance with the subpoena would impair the
President’s execution of the Article II power—the Constitution
protects both branches’ prerogatives by determining whether
the subpoena serves “a valid legislative purpose.” Barenblatt,
360 U.S. at 127. Both the Trump Plaintiffs and the Department
of Justice agree that this is the relevant inquiry. See Appellants’
Br. 16 (“When Congress issues subpoenas in aid of valid
legislation, it needs a legitimate legislative purpose”);
Department Br. 10. (“The court must first determine whether
the subpoena serves a ‘valid legislative purpose.’”).
To be sure, a Congress pursuing a legitimate legislative
objective may, as the many examples recounted in the dissent
demonstrate, choose to move from legislative investigation to
impeachment. But the dissent cites nothing in the Constitution
or case law—and there is nothing—that compels Congress to
abandon its legislative role at the first scent of potential
illegality and confine itself exclusively to the impeachment
process. Nor does anything in the dissent’s lengthy recitation
of historical examples dictate that result. All involved
investigations targeted at individual conduct; none involved a
Congressional effort to investigate the need to amend existing
laws or enact remedial legislation. Instead, those examples
merely demonstrate that Congress has, at various points
throughout our history, debated and decided when it wishes to
shift from legislating to impeaching. Where legislation may be
had—and especially here, where bills are pending and no
intrusion on the President’s execution of his official duties is
alleged—the Constitution assigns that decision to Congress.

A46

Page 46 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

47
Unable to prevail under the test the Supreme Court has
enforced for more than a century, the dissent moves the
goalposts. The dissent proposes a brand-new test for the
President (and other “impeachable officials,” Dissenting Op. at
44) that would enfeeble the legislative branch. According to the
dissent, once some Members—or perhaps just one Member—
raise “suspicions of criminality” by an impeachable official,
Congress must “end[]” all legislative investigation and either
do nothing at all or “move[] that part of the investigation into
impeachment.” Dissenting Op. at 19.
In other words, Congress must either initiate the grave and
weighty process of impeachment or forgo any investigation in
support of potential legislation. Under the dissent’s novel test,
“even a valid legislative purpose” cannot “justify” the
investigation. Id. at 19. The dissent identifies nothing in the
text, structure, or original meaning of Article I or Article II of
the Constitution to support such a sweeping rule of legislative
paralysis. As the Trump Plaintiffs and the Department of
Justice agree, the Supreme Court has said just the opposite: “a
congressional committee which is engaged in a legitimate
legislative investigation need not grind to a halt whenever . . .
crime or wrongdoing is disclosed.” Hutcheson, 369 U.S. at 618.
The dissent tries to house its theory in the Supreme Court’s
decision in McGrain. Quoting the Court’s observation that an
investigation would be invalid “if the Senate was ‘attempting
or intending to try the Attorney General at its bar or before its
committee for crime or wrongdoing,’” the dissent insists that
“[i]t was essential to the Court’s decision that the investigation
did not target the unlawful behavior of the Attorney General,”
Dissenting Op. at 49 (quoting McGrain, 273 U.S. at 179–80)
(emphasis added). But as the sentence quoted by the dissent
reveals, the Court said nothing about “targeting” specific
conduct. Instead, the Court made clear that the investigation

A47

Page 47 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

48
was not invalid because the authorizing “resolution, like the
charges which prompted its adoption . . . [made] reference to
[the Attorney General] by name,” nor was it “a valid objection
to the investigation that it might possibly disclose crime or
wrongdoing on his part.” McGrain, 273 U.S. at 179–80.
Indeed, the district court in McGrain had adopted the dissent’s
view, invalidating the subpoena because the authorizing
resolution alleged “specific instances of . . . neglect” and the
Senate was “proposing . . . to determine the guilt of the
Attorney General of the shortcomings and wrongdoings set
forth in th[ose] resolutions.” Id. at 177. The Senate was, as the
district court saw it, “exercising the judicial function,” a power
“impliedly negatived by th[e] Constitution, in its provision
conferring the sole power of impeachment on the House of
Representatives.” Ex parte Daugherty, 299 F. 620, 639 (S.D.
Ohio 1924). The Supreme Court labeled this reasoning
“wrong,” explaining “that the object of the investigation . . .
was to obtain information for legislative purposes.” McGrain,
273 U.S. at 177.
The dissent points to McGrain’s language that “[i]t [wa]s
not as if an inadmissible or unlawful object were affirmatively
and definitely avowed,” arguing that, here, the subpoena is
invalid because “[t]he Committee has ‘affirmatively and
definitely avowed’ its suspicions of criminality against the
President.’” Dissenting Op. at 50–51 (quoting McGrain, 273
U.S. at 180). The dissent misreads that sentence. According to
the Court, the Senate resolution in McGrain sought
“information necessary as a basis for such legislative and other
action as the Senate may deem necessary and proper.” 273
U.S. at 179 (emphasis added). But there was “no other action,”
the Court explained, “which would be within the power of the
Senate.” Id. It was the Senate’s “indefinite and untenable
suggestion” of non-legislative action—not an avowal of
suspicions of individual wrongdoing—that the Court held did

A48

Page 48 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

49
not “invalidate[] the entire proceeding.” Id. McGrain thus
squarely forecloses the dissent’s theory.
It is unsurprising that no case law supports the
dissent. Under its view, Congress’s power to investigate, when
it comes to the President and all other impeachable officials,
would no longer be “co-extensive with [its] power to legislate.”
Quinn, 349 U.S. at 160. The dissent would reorder the very
structure of the Constitution. Throughout history, the
Constitution has left to Congress the judgment whether to
commence the impeachment process. But the dissent’s
approach would not even allow Congress to make the
quintessentially legislative judgment that some concerns about
potential misconduct or illegality are better addressed through
oversight and legislation than impeachment. Worse still, the
dissent’s novel approach would now impose upon the courts
the job of ordering the cessation of the legislative function and
putting Congress to the Hobson’s Choice of impeachment or
nothing.
To be sure, the dissent would still allow Congress to “enact
legislation.” Dissenting Op. at 64. But it would have to do so
uninformed and with its oversight function informationally
crippled. This would mean that, at times when oversight and
legislation are most urgent, such as to prevent executive branch
overreach or to keep officials’ behavior within ethical
boundaries going forward, Congress would be legislatively
hamstrung unless it were to pull the impeachment trigger. And
if Congress chooses not to pursue impeachment, or if
impeachment is unavailable because Congress believes the
alleged misconduct falls short of a high crime or misdemeanor,
then there can be no investigation of—and thus no viable
legislative check on—the President at all. A proposition that so
strips Congress of its power to legislate would enforce only the
Executive’s arrogation of power, not the separation of powers.

A49

Page 49 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

50
At bottom, this subpoena is a valid exercise of the
legislative oversight authority because it seeks information
important to determining the fitness of legislation to address
potential problems within the Executive Branch and the
electoral system; it does not seek to determine the President’s
fitness for office.
C.
Thus far we have concluded that the Committee is
pursuing a legislative, non-law-enforcement purpose and that
at least one kind of constitutional legislation may be had on the
subject matter of the Committee’s investigation. What is left to
decide is whether the documents requested in this subpoena are
relevant to that investigation. The Trump Plaintiffs insist that
at least some are not.
As the Watkins Court described it, the requirement that a
subpoena request only those documents that are relevant to a
committee’s legitimate investigation “is a jurisdictional
concept of pertinency drawn from the nature of a congressional
committee’s source of authority.” 354 U.S. at 206. Though
complex sounding, the relevancy requirement functions merely
as a corollary to the other restraints on congressional
committees’ investigative powers: if a committee could
subpoena information irrelevant to its legislative purpose, then
the Constitution would in practice impose no real limit on
congressional investigations.
The Supreme Court has used various formulations to
describe the relevancy standard that applies to congressional
subpoenas. In McGrain, the Court held that Congress could
subpoena any information that would “materially aid[]” a
legitimate investigation. 273 U.S. at 177. In Watkins, it
explained that committees may subpoena information “to be
used . . . in coping with a problem that falls within [their]

A50

Page 50 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

51
legislative sphere.” 354 U.S. at 206. And in McPhaul v. United
States, the Court offered not one but two explanations,
validating a subpoena because, in the Court’s words, the
subcommittee had requested records that “were not plainly
incompetent or irrelevant to any lawful purpose . . . , but, on
the contrary, were reasonably relevant to the inquiry.” 364 U.S.
372, 381–82 (1960) (alterations, citations, and internal
quotation marks omitted). We read all these statements, varied
as they are, as conveying essentially the same straightforward
proposition: Congress may subpoena only that information
which is “reasonably relevant” to its legitimate investigation.
Id.; accord Appellants’ Br. 19 (“If the congressional subpoena
is not ‘reasonably relevant to the inquiry,’ then it lacks a
legitimate purpose.” (quoting McPhaul, 364 U.S. at 381–82)).
With this standard in mind, we turn to the challenged
subpoena. Recall that it seeks four categories of documents: for
“calendar years 2011 through 2018,” (1) “statements of
financial condition, annual statements, periodic financial
reports, and independent auditors’ reports,” (2) “underlying,
supporting, or source documents and records,” and (3) related
“memoranda, notes, and communications;” and, (4) “[w]ithout
regard to time,” all related “engagement agreements or
contracts.” Subpoena. For clarity, we label these four
categories Accounting Records, Source Documents, Related
Communications, and Engagement Agreements, respectively.
In our view, all are reasonably relevant to remedial legislation
addressing at least two of the topics listed in Chairman
Cummings’s Memo: the President’s potential “undisclosed
conflicts of interest” and the President’s “report[s] . . . to the
Office of Government Ethics and other federal entities.”
Cummings Memo 4.
We begin with Accounting Records and Source
Documents for calendar years 2014 through 2018. Because

A51

Page 51 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

52
then-Candidate and now-President Trump filed financial
disclosure reports covering these years, financial records from
this period are highly relevant to the Committee’s inquiry into
whether Candidate and President Trump “accurately reported
his finances to . . . federal entities,” id., and, by extension,
“whether reforms are necessary to address deficiencies with
current laws, rules, and regulations,” Cummings Feb. 15 Letter
9. A clear line connects the Office of Government Ethics’s May
2018 determination that President Trump’s financial disclosure
form failed to list “a reportable liability” to Michael Cohen,
Apol Letter 1; to Chairman Cummings’s January 2019 requests
to the White House and the Office of Government Ethics for
further information on President Trump’s payments to Cohen;
to Cohen’s February 2019 production of Mazars accounting
documents revealing financial information different from and
additional to Candidate and President Trump’s financial
disclosures; and finally to the Committee’s March 2019 request
and April 2019 subpoena to Mazars. From this logical
progression we discern “no indication” that the subpoena
“follow[ed] from indiscriminate dragnet procedures, lacking in
probable cause for belief that” Mazars “possesse[s]
information which might be helpful to the” Committee.
Barenblatt, 360 U.S. at 134. Tellingly, the Trump Plaintiffs
raise no relevance objection to this subset of subpoenaed
documents.
We next consider the same two categories of records—
Accounting Records and Source Documents—for years 2011
through 2013. According to the Trump Plaintiffs, these
documents are irrelevant to the Committee’s investigation
because they “reach[] back many years before the President
was even a candidate for public office.” Appellants’ Reply Br.
16–17. This is true, but beside the point. The fact that the Ethics
in Government Act currently requires candidates and
Presidents to disclose information for “the preceding calendar

A52

Page 52 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

53
year,” e.g., 5 U.S.C. app. 4 § 102(b)(1)(A), hardly forecloses
Congress from amending the Act to require filers to go back a
reasonable amount of additional time to provide a more
accurate financial picture. That is especially true here because
the sitting President possesses financial holdings that are
arguably more complex than past Presidents held, has elected
while in office to handle his finances differently than past
Presidents did, and has declined to voluntarily release the sorts
of tax-return information that past Presidents disclosed. See,
e.g., H.R. 1: Strengthening Ethics: Hearing Before the House
Committee on Oversight and Reform, 116th Cong. 125 (Feb. 6,
2019) (statement of Walter M. Shaub, Jr.) (describing the
President’s decision not “to divest his conflicting financial
interests” as a “radical departure” from previous Presidents).
Congress might therefore reasonably wonder whether the
Ethics in Government Act needs an update, and even precandidacy documents from the President would shed light on
that inquiry. Requiring presidential candidates and Presidents
to disclose earlier years’ information might, for example,
reveal forgiven debts, financial partnerships, or favorable deals
that Congress determines should be disclosed to the public—
that is, “undisclosed conflicts of interest.” Cummings Memo 4.
In fact, at least one bill now pending before the House would
require presidential candidates to “submit to the Federal
Election Commission a copy of [their] income tax returns for
the 10 most recent taxable years.” H.R. 706, 116th Cong.
§ 222(b)(1)(A) (2019).
Of course, the Committee may discover nothing notable in
Mazars’s 2011 through 2013 records. But that is not the test for
relevancy. As the Supreme Court has explained, “[t]he very
nature of the investigative function—like any research—is that
it takes the searchers up some ‘blind alleys’ and into
nonproductive enterprises.” Eastland, 421 U.S. at 509; see also

A53

Page 53 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

54
Appellants’ Br. 32 (conceding that “Congress cannot be
penalized if an otherwise valid investigation turns out to be a
dead end”). To be sure, information from the past may at some
point become so stale as to be irrelevant to present inquiries,
but the eight-year mark falls comfortably on the relevant side
of the line.
We last turn to the Committee’s request for Related
Communications and Engagement Agreements. According to
the Trump Plaintiffs, these documents “have nothing to do with
the financial statements the Committee says it needs.”
Appellants’ Reply Br. 17. But again, we think the records’
relevancy is quite clear. As the Committee explains, the import
of the Mazars accounting documents hinges on the conditions
under which they were prepared—for example, whether
Mazars accepted documents “as a given,” whether Mazars
prepared its reports intending third parties to rely upon them,
and whether Mazars had the “power[] or responsibilit[y]” to
conduct independent audits. Oral Arg. Tr. 108. Obviously not
every “agreement[]” or “note[]” will provide this information.
Subpoena. But absent foreknowledge of the documents’
contents, congressional investigators have no way to reliably
determine before issuing a subpoena which specific
communications might reveal relevant information. It is
enough that the categories of information sought are
“reasonably relevant” to the Committee’s legitimate legislative
inquiry.
IV.
Having found no constitutional defect in the Committee’s
subpoena to Mazars, we at last arrive at the question of
authority: “whether the committee [is] authorized” by the full
House “to exact the information” it seeks. Rumely, 345 U.S. at
42–43; see also Exxon Corp. v. FTC, 589 F.2d 582, 592 (D.C.
Cir. 1978) (“To issue a valid subpoena, . . . a committee or

A54

Page 54 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

55
subcommittee must conform strictly to the resolution
establishing its investigatory powers.”). The Trump Plaintiffs
urge us to interpret the House Rules narrowly to deny the
Committee the authority it claims. But we have no need—and
most important, no authority—to do so.
A.
We start with the proposition, undisputed by the Trump
Plaintiffs, that under the most natural reading of the House
Rules, the full chamber has authorized the Committee to issue
the challenged subpoena. See Oral Arg. Tr. 38–39 (Trump
Plaintiffs conceding that the Rules, under a “normal reading,”
authorize the subpoena). A brief tour through the Rules
confirms as much.
To begin with, the Rules vest the Oversight Committee
with standing authority to institute investigations and issue
subpoenas without first “obtain[ing] such authority . . . by a
separate resolution.” House Rules and Manual, 115th Cong.,
§ 788 note (2017); see also Morton Rosenberg, When Congress
Comes Calling: A Study on the Principles, Practices, and
Pragmatics of Legislative Inquiry 33–34 & 34 n.5 (2017)
(explaining that although “[t]he required authorization from the
full House . . . may take the form of a statute, a resolution, or a
standing rule of the House,” “[t]his [last] mode is the most
common today” (footnotes omitted)). Clause 1(b)(1) of House
Rule XI permits “[e]ach committee [to] conduct at any time
such investigations and studies as it considers necessary.” And
Clause 2(m) of the same Rule authorizes committees—or,
when the committees so choose, their chairs—“to require, by
subpoena or otherwise, . . . the production of such books,
records, correspondence, memoranda, papers, and documents
as [they] consider[] necessary” “[f]or the purpose of carrying
out any of [their] functions and duties under . . . rule X.” House
Rule XI, cl. 2(m)(1); see also id. cl. 2(m)(3)(A)(i) (permitting

A55

Page 55 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

56
committees to “delegate[] to the[ir] chair” “[t]he power to
authorize and issue subpoenas”); Rules of the House
Committee on Oversight and Reform, 116th Cong., Rule 12(g)
(2019) (authorizing the Oversight Committee Chair to “issue
subpoenas as provided in House Rule XI, clause 2(m), in the
conduct of any investigation or activity or series of
investigations or activities within the jurisdiction of the
Committee”).
Rule X, in turn, establishes the Oversight Committee’s
jurisdiction, which unquestionably includes financialdisclosure and other ethics-in-government laws. Rule X, clause
1(n) assigns the Committee jurisdiction over the “[f]ederal civil
service . . . and the status of officers and employees of the
United States,” “[g]overnment management and accounting
measures generally,” and “[p]ublic information and records.”
Pursuant to this clause, the Oversight Committee has for
decades exercised jurisdiction over the Ethics in Government
Act and served as the authorizing committee for the Office of
Government Ethics. See, e.g., 165 Cong. Rec. H1209 (daily ed.
Jan. 24, 2019) (referring H.R. 745, a “bill to amend the Ethics
in Government Act of 1978 to provide for reform in the
operations of the Office of Government Ethics, . . . to the
Committee on Oversight and Reform”); Letter from Jason
Chaffetz, Chairman, House Committee on Oversight and
Government Reform, to Walter M. Shaub, Jr., Director, Office
of Government Ethics 2 (Jan. 12, 2017) (stating that the
Oversight Committee “has jurisdiction in the House of
Representatives for reauthorizing the [O]ffice” of Government
Ethics); see also H.R. Rep. No. 95-642, pt. 1 (1977) (report of
the Committee on Post Office and Civil Service, predecessor
to the Oversight Committee, on H.R. 6954, predecessor to the
Ethics in Government Act of 1978). Furthermore, Rule X,
clause 3(i) directs the Oversight Committee to “review and
study on a continuing basis the operation of Government

A56

Page 56 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

57
activities at all levels, including the Executive Office of the
President.” And lest any confusion remain regarding the
Oversight Committee’s authority to oversee, Rule X,
clause 4(c)(2) states that the Committee “may at any time
conduct investigations of any matter without regard to [any
other] clause conferring jurisdiction over the matter to another
standing committee.”
Having placed “any matter” within the Oversight
Committee’s wide purview, the Rules nowhere disclose an
intent to carve out the President. It would be quite strange for
the Rules to permit the Oversight Committee to “review and
study,” House Rule X, cl. 3(i), financial disclosure laws in all
their applications save for one—their application to the
President. See 5 U.S.C. app. 4 §§ 101(a), (f)(1), 102 (requiring
the President to file financial reports). So, too, would it be
strange to direct the Committee to oversee “the operation of
Government activities at all levels,” House Rule X, cl. 3(i), if
the Rules really meant “at all levels except the President.” And
although we do not read the second half of clause 3(i), which
specifies that “Government . . . at all levels . . . includ[es] the
Executive Office of the President,” to refer to the President
himself, cf. Kissinger v. Reporters Committee for Freedom of
the Press, 445 U.S. 136, 156 (1980) (holding that in the
Freedom of Information Act, the term “‘Executive Office’ does
not include the Office of the President”), neither do we take the
“including” phrase to imply that “Government activities at all
levels” means something less than “all,” see Federal Land
Bank of St. Paul v. Bismarck Lumber Co., 314 U.S. 95, 100
(1941) (“[T]he term ‘including’ is not one of all-embracing
definition, but connotes simply an illustrative application of the
general principle.”). Indeed, the Trump Plaintiffs urge us to
draw no such negative inference. See Appellants’ Reply Br. 6
(“Plaintiffs do not claim that [adding the] new language

A57

Page 57 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

58
[‘Executive Office of the
Committee’s authority.”).

President’]

narrowed

the

B.
Acknowledging that literally read, the Rules permit the
Committee to issue the challenged subpoena, see supra at 49,
the Trump Plaintiffs insist that a literal reading is not enough.
In their view, the Mazars subpoena alters the separation of
powers and raises serious constitutional questions, so nothing
less than an “unequivocal[] grant” by the House of “jurisdiction
to subpoena the President’s accountant for his private financial
records” could authorize the Committee to issue it. Appellants’
Reply Br. 2; see also Dissenting Op. at 52–58. In support, they
raise three related arguments.
First, the Trump Plaintiffs contend that because “a ‘clear
statement rule’ applies ‘to statutes that significantly alter the
balance between Congress and the President,’” Appellants’ Br.
16 (quoting Armstrong v. Bush, 924 F.2d 282, 289 (D.C. Cir.
1991)), the House could have “authorized the Committee to
embark on [the instant] investigation” only through “an express
statement,” Appellants’ Reply Br. 3 (internal quotation marks
omitted); see also Dissenting Op. at 54–55. For this
proposition, they rely primarily on two decisions, both of
which held that the President is not an “agency” subject to
judicial review under the Administrative Procedure Act (APA).
In the first case, Armstrong v. Bush, our court held that “[w]hen
Congress decides purposefully to enact legislation restricting
or regulating presidential action, it must make its intent clear.”
924 F.2d at 289. “Although the ‘clear statement’ rule was
originally articulated to guide interpretation of statutes that
significantly alter the federal-state balance,” we explained,
“there are similar compelling reasons to apply the rule to
statutes that significantly alter the balance between Congress
and the President.” Id. And in the second case, Franklin v.

A58

Page 58 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

59
Massachusetts, the Supreme Court confirmed that “[o]ut of
respect for the separation of powers and the unique
constitutional position of the President,” the Court “would
require an express statement by Congress before assuming it
intended the President’s performance of his statutory duties to
be reviewed for abuse of discretion” under the APA. 505 U.S.
788, 800–01 (1992).
This case is nothing like Armstrong and Franklin for a
simple reason: the House Rules have no effect whatsoever on
“the balance between Congress and the President.” Armstrong,
924 F.2d at 289 (emphasis added). What Rules X and XI have
done is delegate from the House to the Oversight Committee
the authority to exercise Congress’s subpoena power without
first “obtain[ing] such authority . . . by a separate resolution”
of the full House. House Rules and Manual, 115th Cong., § 788
note (2017). The Trump Plaintiffs nowhere dispute that,
assuming a legitimate legislative purpose exists, the House
could have either issued the challenged subpoena by a vote of
the full chamber or, via express statement, authorized the
Committee to issue the subpoena on its behalf. See Oral Arg.
Tr. 5 (conceding that the House has the power to issue the
subpoena itself and arguing that the question is “whether [it]
gave [that authority] to [the] Committee”); id. at 6 (stating that
it is “a question of clarity and not a question of power”); id. at
130–31 (stating that, although it would be “better” for the
subpoena to come from “the full House,” the full House could
pass a rule that “says . . . the committee could do it”). The
Rules, which establish a mechanism for exercising the House’s
subpoena power, thus deal exclusively with the allocation of
authority within the legislative branch, leaving unaltered the
House’s subpoena power vis-à-vis the President. Because
Congress already possesses—in fact, has previously exercised,
see supra at 16–17—the authority to subpoena Presidents and
their information, nothing in the House Rules could in any way

A59

Page 59 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

60
“alter the balance between” the two political branches of
government. Armstrong, 924 F.2d at 289.
The Trump Plaintiffs’ second argument, containing many
ingredients of their first, is similarly unavailing. Observing that
“[t]he parties seriously dispute whether the subpoena has a
legitimate legislative purpose,” Appellants’ Reply Br. 3—and,
consequently, whether the subpoena exceeds constitutional
limits on Congress’s subpoena power—the Trump Plaintiffs
urge us to “resolve[] this case in a way that avoid[s] deciding”
constitutional questions “by quashing the subpoena as beyond
the Committee’s . . . jurisdiction,” Appellants’ Br. 23; see also
Department Br. 14; Dissenting Op. at 52–58. They call our
attention to two cases in particular: the Supreme Court’s
decision in United States v. Rumely and ours in Tobin v. United
States, 306 F.2d 270 (D.C. Cir. 1962). In Rumely, the Court
“g[a]ve” the authorizing resolution at issue “a more restricted
scope” because the government’s favored interpretation, which
would have permitted it “to inquire into all efforts of private
individuals to influence public opinion through books and
periodicals,” raised “doubts of constitutionality in view of the
prohibition of the First Amendment” and thus presented a
“[g]rave constitutional question[].” Rumely, 345 U.S. at 46–48.
And in the latter, we “constru[ed] [a] resolution[] of authority
narrowly . . . in order to obviate the necessity of passing on”
the “serious and difficult constitutional question[]” presented
by that case, Tobin, 306 F.2d at 274–75—namely, whether
Congress has “the power, under the compact clause of the
Constitution, to ‘alter, amend or repeal’ its consent to an
interstate compact,” id. at 272. Concerned that “the suspicion
of even potential impermanency would be damaging to the
very concept of interstate compacts,” id. at 273, we observed
that the argument against recognizing such an implied power
to alter or repeal “is not unpersuasive,” id. at 274.

A60

Page 60 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

61
In contrast to Rumely and Tobin, the constitutional
questions raised here are neither “[g]rave,” Rumely, 345 U.S.
at 48, nor “serious and difficult,” Tobin, 306 F.2d at 275. We
harbor no doubts that the subpoena to Mazars comports with
constitutional limits, as it seeks documents reasonably relevant
to a legitimate legislative inquiry into “a subject on which
legislation may be had.” Eastland, 421 U.S. at 508; see supra
Parts III.A–C. We therefore have no cause to invoke the canon
of constitutional avoidance. See Empresa Cubana Exportadora
de Alimentos y Productos Varios v. U.S. Department of
Treasury, 638 F.3d 794, 801 (D.C. Cir. 2011) (“A clear statute
and a weak constitutional claim are not a recipe for successful
invocation of the constitutional avoidance canon.”).
That is not to say the issues presented here are
unimportant—far from it. But the canon of constitutional
avoidance “is not a license for the judiciary to rewrite language
enacted by the legislature.” United States v. Albertini, 472 U.S.
675, 680 (1985). To adopt a restrictive interpretation of the
Rules when uncompelled by constitutional concerns, “while
purporting to be an exercise in judicial restraint,” would in fact
be to “trench upon the legislative powers vested in Congress by
[Article I] of the Constitution.” Id. We have no authority to
avoid questions—even important ones—simply because we
might prefer not to answer them. Cf. United States v. American
Telephone & Telegraph Co., 567 F.2d 121, 126 (D.C. Cir.
1977) (“The simple fact of a conflict between the legislative
and executive branches over a congressional subpoena does not
preclude judicial resolution.”).
Finally, the Trump Plaintiffs argue that even if no
separation-of-powers concerns demand application of the clear
statement rule, and even if no constitutional questions rise to
the level of serious, it would, given the “sensitive” nature of the
Committee’s request, Appellants’ Reply Br. 2 (internal

A61

Page 61 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

62
quotation marks omitted), still be “better,” Oral Arg. Tr. 130,
for the full House to grant the Committee “express authority to
subpoena the President for his personal financial records,”
Appellants’ Reply Br. 5. We, however, have no authority to
impose such a requirement on the House. The Constitution
gives “[e]ach House” of Congress authority to “determine the
Rules of its Proceedings,” U.S. Const. art. I, § 5, cl. 2, meaning
that courts lack the power to invalidate a duly authorized
congressional subpoena merely because it might have been
“better [if] . . . the full House” had specifically authorized or
issued it, Oral Arg. Tr. 130. See Eastland, 421 U.S. at 509
(“The wisdom of congressional approach or methodology is
not open to judicial veto.”). To be sure, “the courts will
intervene to protect constitutional rights from infringement by
Congress, including its committees and members.” Exxon
Corp., 589 F.2d at 590. But unless and until Congress adopts a
rule that offends the Constitution, the courts get no vote in how
each chamber chooses to run its internal affairs. See id.
(“[W]here constitutional rights are not violated, there is no
warrant for the judiciary to interfere with the internal
procedures of Congress.”).
The trouble with clear statement rules, then, is that they
both “involve[] an unwillingness to give full effect to
[Congress’s] unambiguous text” as it exists now, OwnerOperator Independent Drivers Ass’n v. U.S. Department of
Transportation, 724 F.3d 230, 237 (D.C. Cir. 2013), and offer
a not-so-subtle encouragement to Congress to alter its rules in
the future. Without some constitutionally compelled reason, we
may do neither. As our court recently explained, “interpreting
a congressional rule ‘differently than would the Congress
itself,’ is tantamount to ‘making the Rules—a power that the
Rulemaking Clause reserves to each House alone.’” Barker v.
Conroy, 921 F.3d 1118, 1130 (D.C. Cir. 2019) (quoting United
States v. Rostenkowski, 59 F.3d 1291, 1306–07 (D.C. Cir.

A62

Page 62 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

63
1995)). Accordingly, absent a substantial constitutional
question pertaining to the House’s legislative power, we have
no more authority to give a cramped interpretation to a House
Rule via a clear statement requirement or the constitutional
avoidance canon than we do to take out our red pens and edit
the Rules ourselves.
But the House may. And indeed it has. On July 24, several
weeks after oral argument in this case and several months after
the Oversight Committee issued the challenged subpoena to
Mazars, the full House adopted a resolution that in no uncertain
terms “ratifie[d] and affirm[ed]” the Oversight Committee’s
authority under House Rules X and XI to issue subpoenas
“concerning . . . the President in his personal or official
capacity [and] his immediate family, business entities, or
organizations.” H.R. Res. 507, 116th Cong. (2019). Resolution
507—a resolution “[a]ffirming the validity of subpoenas duly
issued and investigations undertaken by . . . committee[s] of
the House . . . pursuant to authorities delegated by . . . the
[House] Rules,” id.—purports neither to enlarge the
Committee’s jurisdiction nor to amend the House Rules.
Instead, the Resolution clarifies the authority that the
Committee had on the day it issued the subpoena. It is “plainly
incorrect,” the Resolution states, to assert that previously
issued subpoenas “seeking personal, financial, banking, and tax
information related to the President” “were not authorized by
the full House.” Id.
Because the Trump Plaintiffs concede, as they must, that
“[t]he Resolution does not expand the Committee’s
jurisdiction,” Appellants’ July 31 Letter 1; see also Dissenting
Op. at 55 n.18, we need not address their argument that “the
‘scope’ of a committee’s jurisdiction must ‘be ascertained as of
th[e] time’ of the request,” id. (alteration in original) (quoting
Rumely, 345 U.S. at 48). The Trump Plaintiffs may very well

A63

Page 63 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

64
be right that the authority of a congressional committee to issue
subpoenas “‘cannot be enlarged by subsequent action of
Congress.’” Id. (quoting Rumely, 345 U.S. at 48); but cf.
Dombrowski v. Burbank, 358 F.2d 821, 825 (D.C. Cir. 1966),
aff’d in part, rev’d in part on other grounds sub nom.
Dombrowski v. Eastland, 387 U.S. 82 (1967) (holding that for
purposes of establishing immunity from suit, a subcommittee
could ratify a subpoena previously issued “without prior
authorization from the [s]ubcommittee”). Resolution 507,
however, “enlarges” nothing. It merely confirms what the
Trump Plaintiffs admit—that the plain text of the House Rules
authorizes the subpoena, see supra at 46, and merely provides
what the Trump Plaintiffs request—that the House “‘spell[] out
[its] intention’” by “‘adopt[ing] a resolution which in express
terms authorizes’” the challenged subpoena. Appellants’ Reply
Br. 8–9 (quoting Tobin, 306 F.2d at 275–76). Because the
House has “clearly manifest[ed] its intention of putting such a
decisional burden upon us,” we have no choice but to “meet
and decide” the issues presented by this case. Tobin, 306 F.2d
at 276.
The Justice Department adds one final objection. Although
conceding that the Resolution “clearly authorizes the
Committee’s subpoena[,]” Department Br. 16, the Department
warns that because Resolution 507 also authorizes future
subpoenas, there is a “serious risk” that “[C]ongressional
committees may issue successive subpoenas in waves, making
far-reaching demands that harry the President and distract his
attention.” Department Br. 6. Time will tell whether the
Department’s prediction is accurate. At present, however, we
have no need to consider that hypothetical scenario because the
only subpoena currently before us is the one directed at Mazars.
And to be clear, neither the Trump Plaintiffs nor the
Department has argued that compliance with that subpoena
risks unconstitutionally burdening the President’s core duties.

A64

Page 64 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

65
Nor could they. It is Mazars, a third-party, that will retrieve
and organize the relevant information; the subpoena seeks nonconfidential records in which the President has asserted no
proprietary or evidentiary protections; and Mazars, not the
President, risks contempt through non-compliance. To be sure,
monitoring Mazars’s compliance with the subpoena might
require some presidential time and attention. But as the
Supreme Court made clear in Clinton v. Jones, a “burden [on]
the time and attention of the Chief Executive,” standing alone,
“is not sufficient to establish a violation of the Constitution.”
520 U.S. at 703.
V.
Though our journey has been long, we find ourselves at
the end of a familiar tale. A congressional committee, as
committees have done repeatedly over the past two centuries,
issued an investigative subpoena, and the target of that
subpoena, questioning the committee’s legislative purpose, has
asked a court to invalidate it. The fact that the subpoena in this
case seeks information that concerns the President of the
United States adds a twist, but not a surprising one: disputes
between Congress and the President are a recurring plot in our
national story. And that is precisely what the Framers intended.
As Justice Brandeis wrote, “[t]he doctrine of the separation of
powers was adopted . . . not to promote efficiency but to
preclude the exercise of arbitrary power.” Myers v. United
States, 272 U.S. 52, 293 (1926) (Brandeis, J., dissenting). “The
purpose,” he explained, “was not to avoid friction, but, by
means of the inevitable friction incident to the distribution of
the governmental powers among three departments, to save the
people from autocracy.” Id.
Having considered the weighty interests at stake in this
case, we conclude that the subpoena issued by the Committee

A65

Page 65 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

66
to Mazars is valid and enforceable. We affirm the district
court’s judgment in favor of the Oversight Committee and
against the Trump Plaintiffs.
So ordered.

A66

Page 66 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

RAO, Circuit Judge, dissenting: The majority breaks new
ground when it determines Congress is investigating
allegations of illegal conduct against the President, yet
nonetheless upholds the subpoena as part of the legislative
power. The Committee on Oversight and Reform has
consistently maintained that it seeks to determine whether the
President broke the law, but it has not invoked Congress’s
impeachment power to support this subpoena. When Congress
seeks information about the President’s wrongdoing, it does
not matter whether the investigation also has a legislative
purpose. Investigations of impeachable offenses simply are
not, and never have been, within Congress’s legislative power.
Throughout our history, Congress, the President, and the courts
have insisted upon maintaining the separation between the
legislative and impeachment powers of the House and
recognized the gravity and accountability that follow
impeachment. Allowing the Committee to issue this subpoena
for legislative purposes would turn Congress into a roving
inquisition over a co-equal branch of government. I
respectfully dissent.
I.
We are asked to determine whether the Committee’s
subpoena is within the legislative power, a question that raises
serious separation of powers concerns about how a House
committee may investigate a sitting president. The
constitutional questions only hinted at by the majority become
clearer when the proper framework is applied. First, the
Committee’s subpoena and investigation explicitly state a
purpose of investigating illegal conduct of the President,
including specific violations of ethics laws and the
Constitution. Second, Congress’s power to investigate for
legislative purposes, although broad, is not unlimited and
cannot circumvent the distinct power to investigate for
purposes of impeachment. Allegations that an impeachable
official acted unlawfully must be pursued through
impeachment. Finally, the subpoena targets the President and

A67

Page 67 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

2
raises implications for the separation of powers that the
majority cannot brush aside simply because the subpoena is
addressed to the President’s accountants, Mazars USA, LLP.
These preliminary matters place this novel investigation in
context and frame the analysis of the substantial constitutional
questions presented in this case.
The Committee, the Trump plaintiffs, and the majority all
agree that the most relevant document for assessing the
Committee’s reasons for issuing the subpoena is Chairman
Elijah E. Cummings’s April 12 Memorandum. See
Memorandum from Chairman Elijah E. Cummings to
Members of the Committee on Oversight and Reform (Apr. 12,
2019) (“Cummings Memorandum”); Appellant Br. 32–33;
Maj. Op. 25; cf. Wilkinson v. United States, 365 U.S. 399, 410
(1961) (looking to the “Chairman’s statement at the opening of
the hearings” for signs of legislative purpose); Shelton v.
United States, 404 F.2d 1292, 1297 (D.C. Cir. 1968). The
Cummings Memorandum states the Committee is investigating
“whether the President may have engaged in illegal conduct”
and notes that this information will “inform[] its review of
multiple laws and legislative proposals under our jurisdiction.”
Cummings Memorandum at 4. The Committee also makes an
“express avowal” to investigate alleged violations of ethics
laws and the Constitution by the President. See McGrain v.
Daugherty, 273 U.S. 135, 178 (1927) (noting that “[a]n express
avowal of the object” of an investigation would aid the courts
in reviewing the Senate’s purpose); see also infra Part III.A
(discussing Committee’s purposes in detail).
The Committee announces two distinct investigations: one
to explore allegations of illegal conduct by the President; and
another to review multiple laws and legislative proposals
within the Committee’s jurisdiction. The Committee justifies
both inquiries under the legislative power, and the majority
accepts this framework when it examines the legislative power

A68

Page 68 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

3
in isolation to determine whether this investigation falls within
its scope. Maj. Op. 20–54. Yet the Constitution vests the House
of Representatives with more than one investigative power.
Most frequently, the House investigates and issues subpoenas
ancillary to its legislative powers. That investigative power is
“co-extensive with the power to legislate.” Quinn v. United
States, 349 U.S. 155, 160 (1955); see also Watkins v. United
States, 354 U.S. 178, 187 (1957) (“The power of the Congress
to conduct investigations is inherent in the legislative process.
That power is broad.”).
The House, however, has a separate power to investigate
pursuant to impeachment, which has always been understood
as a limited judicial power to hold certain impeachable officials
accountable for wrongdoing. 1 See Kilbourn v. Thompson, 103
U.S. 168, 191 (1880) (“The Senate also exercises the judicial
power of trying impeachments, and the House of preferring
articles of impeachment.”). The text and structure of the
Constitution, its original meaning, and longstanding practice
demonstrate that Congress’s legislative and judicial powers are
distinct and exercised through separate processes, for different
purposes, and with entirely different protections for individuals
targeted for investigation. See infra Part II.

In addition to the legislative and impeachment powers, the House
and the Senate have other investigative powers, not relevant here, to
maintain the integrity of their proceedings and members against
bribery, nuisance, and violence. See Anderson v. Dunn, 19 U.S. (6
Wheat.) 204, 228–30 (1821); Barry v. United States ex rel.
Cunningham, 279 U.S. 597, 613 (1929) (the Senate has “certain
powers, which are not legislative, but judicial, in character. Among
these is the power to judge of the elections, returns, and
qualifications of its own members.” (citing U.S. CONST. art. I, § 5,
cl. 1)).
1

A69

Page 69 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

4
The Committee’s investigation into alleged illegal actions
of the President naturally raises the specter of impeachment.
Although the Trump plaintiffs maintain that “[t]he one thing
the parties agree on is that this case is not about impeachment,”
Appellants Br. 14, the impeachment power unmistakably sits
in the background of the legal arguments. 2 The Trump
plaintiffs and the Department of Justice have suggested that the
impeachment power might provide a different source of
authority for this subpoena, even though it was not invoked
here. See Appellants Br. 45 (noting with regard to
impeachment that “[w]hile Congress could presumably use
subpoenas to advance these non-legislative powers, the
Committee has not invoked them”); DOJ Br. 15 n.1 (“The
House’s impeachment power is an express authority whose
exercise does not require a connection to valid legislation. But
the Committee has asserted neither jurisdiction over, nor an
objective of pursuing, impeachment.”). Furthermore, one of the
primary legal arguments raised by the Trump plaintiffs is that
the Committee’s investigation is an impermissible form of “law
enforcement.” Appellants Br. 33–37. While law enforcement is
normally the province of the executive branch, the House has a
narrowly circumscribed power to serve as the “NATIONAL
INQUEST” when it acts pursuant to the impeachment power.
The Federalist No. 65, at 338 (Alexander Hamilton) (George
W. Carey & James McClellan eds., 2001). The Committee is
Notably, the district court concluded that the impeachment and
removal powers of the House and the Senate somehow bolster
Congress’s ability to investigate the President through the legislative
power. See Trump v. Comm. on Oversight & Reform, 380 F. Supp.
3d 76, 95 (D.D.C. 2019) (“It is simply not fathomable that a
Constitution that grants Congress the power to remove a President
for reasons including criminal behavior would deny Congress the
power to investigate him for unlawful conduct—past or present—
even without formally opening an impeachment inquiry.”).
2

A70

Page 70 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

5
“not here relying on impeachment power.” Oral Arg. at
1:34:19–22. Nevertheless, understanding the impeachment
power is essential to identifying the limits of the legislative
power when Congress seeks to investigate allegations of
specific unlawful actions by the President.
Constitutional powers do not stand in isolation, but rather
are part of a complex structure in which each power acquires
specific content and meaning in relation to the others. The
Supreme Court often locates the limits of one constitutional
power by identifying what is at the core of another. See, e.g.,
Zivotofsky ex rel. Zivotofsky v. Kerry, 135 S. Ct. 2076, 2096
(2015) (“Congress has substantial authority over passports . . . .
[But] [t]o allow Congress to control the President’s
communication in the context of a formal recognition
determination is to allow Congress to exercise that exclusive
power itself.”); Bowsher v. Synar, 478 U.S. 714, 722 (1986)
(“The Constitution does not contemplate an active role for
Congress in the supervision of officers charged with the
execution of the laws it enacts.”); Youngstown Sheet & Tube
Co. v. Sawyer, 343 U.S. 579, 587 (1952) (“In the framework of
our Constitution, the President’s power to see that the laws are
faithfully executed refutes the idea that he is to be a
lawmaker.”); Myers v. United States, 272 U.S. 52, 164 (1926)
(“[A]rticle 2 excludes the exercise of legislative power by
Congress to provide for appointments and removals, except
only as granted therein to Congress in the matter of inferior
offices.”); Kilbourn, 103 U.S. at 192 (the House “not only
exceeded the limit of its own authority, but assumed a power
which could only be properly exercised by another branch of
the government, because it was in its nature clearly judicial”).
This method helps illuminate the scope of the legislative power
to investigate. Comparing Congress’s legislative power with its
wholly distinct judicial power of impeachment demonstrates
the essential difference between these powers when Congress
seeks to investigate the wrongdoing of the President.

A71

Page 71 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

6
As explained below, allegations of illegal conduct against
the President cannot be investigated by Congress except
through impeachment. The House may impeach for “Treason,
Bribery, or other high Crimes and Misdemeanors,” U.S.
CONST. art. II, § 4, and has substantial discretion to define and
pursue charges of impeachment. See The Federalist No. 65, at
338 (impeachable offenses “are of a nature which may with
peculiar propriety be denominated POLITICAL, as they relate
chiefly to injuries done immediately to the society itself”).
While it is unnecessary here to determine the scope of
impeachable offenses, Congress has frequently treated
violations of statutes or the Constitution as meeting this
threshold. 3 Impeachment provides the exclusive method for
Congress to investigate accusations of illegal conduct by
impeachable officials, particularly with the aid of compulsory
process. 4 Thus, the key determination is whether this
This discussion of the impeachment power proceeds only in relation
to understanding the scope of the legislative power. As the
Committee has not raised the impeachment power as a basis for this
subpoena, questions regarding whether such a subpoena could issue
under the impeachment power are outside the scope of this opinion,
as are other questions regarding the justiciability of the impeachment
power or the specific scope of impeachable offenses. Recognizing
the political nature of impeachable offenses, I refer to them
throughout the opinion by various terms to reflect that such offenses
may include wrongdoing or illegal conduct deemed by the House to
be a high crime or misdemeanor.

3

Voluntary compliance with congressional investigations is
commonplace. Different concerns arise, however, when one branch
invokes power over the other through compulsory process. See, e.g.,
Watkins, 354 U.S. at 215 (“It is only those investigations that are
conducted by use of compulsory process that give rise to a need to
protect the rights of individuals against illegal encroachment. That
protection can be readily achieved through procedures which prevent

4

A72

Page 72 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

7
investigation targets allegations Congress might treat as “high
Crimes” or “Misdemeanors.” To make this determination
requires no search for hidden motives, but simply crediting the
Committee’s consistently stated purpose to investigate “illegal
conduct” of the President. Cummings Memorandum at 4; cf.
Eastland v. United States Servicemen’s Fund, 421 U.S. 491,
508 (1975) (“[I]n determining the legitimacy of a congressional
act we do not look to the motives alleged to have prompted
it.”).
The Committee’s stated interest in remedial legislation
may support any number of investigations, including into the
conduct of agencies and how officials administer the laws. Yet
a legislative purpose cannot whitewash this subpoena, which—
by the Committee’s own description—targets allegations of
illegal conduct by the President. The most important question
is not whether Congress has put forth some legitimate
legislative purpose, but rather whether Congress is
investigating suspicions of criminality or allegations that the
President violated a law. Such investigations may be pursued
exclusively through impeachment. The House may not use the
legislative power to circumvent the protections and
accountability that accompany the impeachment power.
The majority recognizes this subpoena concerns the
Committee’s “interest in determining whether and how illegal
conduct has occurred,” Maj. Op. 30, but nonetheless concludes
that it is a valid exercise of the legislative power. This marks a
sharp break with the few judicial precedents in this area. The
Supreme Court has consistently maintained that Congress
cannot undertake a legislative investigation of an impeachable
official if the “gravamen” of the investigation rests on
“suspicions of criminality.” Kilbourn, 103 U.S. at 193, 195. In
the separation of power from responsibility and which provide the
constitutional requisites of fairness for witnesses.”).

A73

Page 73 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

8
Senate Select Committee on Presidential Campaign Activities
v. Nixon, our court refused to enforce a legislative subpoena to
President Richard Nixon by the Senate Select Committee
tasked with investigating the Watergate break-in. 498 F.2d 725
(D.C. Cir. 1974) (en banc). The tapes sought by the subpoena
were too “tangential” to the Committee’s asserted legislative
purposes, especially because the House had commenced
impeachment proceedings to ascertain the President’s role in
these events. Id. at 733.
The majority’s holding also breaks with the longstanding
historical practice of Congress and the Executive. Without
analyzing the Constitution or responding to the consistent
historical understanding presented below, the majority simply
asserts that Congress must be able “to make the
quintessentially legislative judgment that some concerns about
potential misconduct or illegality are better addressed through
. . . legislation than impeachment.” Maj. Op. 49. The majority’s
novel holding, however, fails to explain how specific
accusations of wrongdoing by impeachable officials can be
pursued through legislation. The Constitution, historical
practice, and our cases prohibit rolling this investigation of
illegal conduct of the President into a legislative investigation.
Allowing Congress to use the legislative power to circumvent
the impeachment process disrupts the separation of powers. By
simply invoking a need for remedial legislation, Congress may
now expand its control over the other branches and avoid the
accountability and responsibility inherent in the impeachment
power.
Finally, the inter-branch conflict in this case does not
dissipate simply because the subpoena for the President’s
papers is strategically directed to Mazars rather than the
President. In an attempt to sidestep thorny separation of powers
questions, the majority reduces the conflict to a merely
personal one involving the President’s accountants: “[T]o

A74

Page 74 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

9
resolve this case, we need not decide whether the Constitution
permits Congress, in the conduct of a legislative—that is, nonimpeachment—investigation, to issue subpoenas to a sitting
President.” Id. at 20. By the majority’s account, the subpoena
does not transgress any constitutionally prescribed boundaries
between co-equal branches in part because “quite simply, the
Oversight Committee has not subpoenaed President Trump.”
Id. The majority thus concludes that concerns about the relative
powers of the President and Congress do not come into play.
Yet this claim belies both precedent and common sense.
Indeed, by the end of its opinion, the majority abandons even
this reservation and simply asserts, “Congress already
possesses . . . the authority to subpoena Presidents and their
information.” Id. at 59.
The official actions of the Chief Executive are essentially
bound up in the Mazars subpoena. A subpoena’s force extends
beyond its recipient, which the majority has implicitly
acknowledged by declining to question President Trump’s
standing to challenge the subpoena’s validity. As we have
previously explained: “[T]he fortuity that documents sought by
a congressional subpoena are not in the hands of a party
claiming injury from the subpoena should not immunize that
subpoena from challenge by that party . . . . The fact that the
Executive is not in a position to assert its claim of constitutional
right by refusing to comply with a subpoena does not bar the
challenge.” United States v. AT&T, 567 F.2d 121, 129 (D.C.
Cir. 1977) (citing Eastland, 421 U.S. at 513 (Marshall, J.,
concurring)). Moreover, we have recognized that
congressional subpoenas may create a “portentous clash
between the executive and legislative branches”
notwithstanding the fact that the subpoena was issued against a
private party. United States v. AT&T, 551 F.2d 384, 385 (D.C.
Cir. 1976); accord Eastland, 421 U.S. at 498, 501 n.14
(reviewing challenge to third-party subpoena because

A75

Page 75 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

10
otherwise “compliance by the third person could frustrate any
judicial inquiry”).
The Committee’s subpoena is directed to Mazars but
targets the President’s papers. The form of the subpoena cannot
mask the inter-branch conflict between Congress and the
President. Cf. Judicial Watch, Inc. v. U.S. Secret Serv., 726
F.3d 208, 225–26 (D.C. Cir. 2013) (refusing to allow “end
runs” around “separation-of-powers concerns” by subpoenaing
the Secret Service instead of the President for presidential
calendars). Despite the majority’s skepticism, President Trump
necessarily “carries the mantle of the Office of the President in
this case.” Maj. Op. 24; cf. In re Lindsey, 158 F.3d 1263, 1286
(D.C. Cir. 1998) (Tatel, J., concurring in part and dissenting in
part) (“Because the Presidency is tied so tightly to the persona
of its occupant . . . the line between official and personal can
be both elusive and difficult to discern.”). 5
The basic contours of the problem are straightforward—
the Committee’s subpoena seeks information regarding alleged
unlawful actions of the President. The direct conflict between
Congress and the President cannot be evaded by treating this as
an ordinary legislative inquiry involving a subpoena to an
accounting firm. In pursuit of remedial legislation, the
Committee may investigate broadly, but this subpoena goes too
As the Department of Justice points out, it is also possible that
judicial resolution would not be necessary if the Committee had
issued the subpoena to the President directly. DOJ Br. 7–8. Instead,
the President and the House would negotiate in the “hurly-burly, the
give and take of the political process between the legislative and the
executive,” likely raising a mix of legal and political arguments and
appealing to the public for support. Executive Privilege - Secrecy in
Government: Hearings Before the Subcomm. on Intergovernmental
Relations of the S. Comm. on Government Operations, 94th Cong.
87 (1975) (statement of Antonin Scalia, Assistant Att’y Gen., Office
of Legal Counsel).
5

A76

Page 76 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

11
far because the legislative power cannot target whether the
President violated the law.
II.
The question of whether the House may issue this
subpoena for a legislative purpose presents a serious conflict
between Congress and the President. While the question has
never been squarely addressed by the Supreme Court, Congress
and the executive branch have regularly confronted similar
problems. Accordingly, I start at the beginning. The text and
structure of the Constitution are best read to provide for
impeachment as the exclusive mechanism for reaching the
wrongdoing of the President and other impeachable officials.
The original understanding of Congress’s separate legislative
and impeachment powers, as well as consistent historical
practice since the Founding, confirms that congressional
investigations of the alleged unlawful actions of the President
cannot be pursued through the legislative power. Cf. NLRB v.
Noel Canning, 573 U.S. 513, 524–26 (2014) (“‘[L]ong settled
and established practice is a consideration of great weight in a
proper interpretation of constitutional provisions’ regulating
the relationship between Congress and the President.” (quoting
The Pocket Veto Case, 279 U.S. 655, 689 (1929))).
Targeting an individual officer for suspicions of
criminality requires proceeding through the impeachment
power, with its attendant procedural protections and
accountability. The majority claims to recount a “familiar tale”
of congressional subpoenas and investigations, Maj. Op. 65;
however, its story covers only legislative investigations that
involve no allegations of wrongdoing against an impeachable
official. The majority’s cursory and selective use of history
glosses over important distinctions carefully maintained by all
three branches between Congress’s legislative and judicial
powers of investigation.

A77

Page 77 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

12
A.
The text and structure of the Constitution set out with
precision the process for Congress to investigate the unlawful
actions of the President—namely, impeachment by the House
followed by a trial in the Senate. The distinctions between the
legislative and judicial powers of Congress are firmly rooted in
the Constitution and reflect the fundamental differences
between these powers in our system of government. The
original meaning confirms that Congress acts in an exceptional
judicial capacity when exercising impeachment powers.
Investigating unlawful actions by impeachable officials is
outside the legislative power because impeachment provides
the exclusive mechanism for Congress to investigate such
conduct.
Congress is vested with limited and enumerated legislative
powers, and while the power to investigate is not in the text of
the Constitution, it has long been recognized that Congress may
investigate and issue subpoenas necessary and proper to the
exercise of the legislative power. U.S. CONST. art. I, § 8, cl. 18.
As the Court has explained, “the power of inquiry—with
process to enforce it—is an essential and appropriate auxiliary
to the legislative function.” McGrain, 273 U.S. at 174. Such
investigations are part of the legislative power and may extend
no farther than that power permits. See Quinn, 349 U.S. at 161.
In the United States, however, the legislative power does
not include the exercise of judicial power to determine the guilt
or innocence of individuals. 6 The Constitution prohibits bills
By contrast, at the time of the Founding, the British House of
Commons possessed broad powers to “impeach” not only officials
but individual citizens, who could be tried by the House of Lords in
a judicial capacity for any criminal offense. 4 William Blackstone,
Commentaries *259–61. As such, Parliament could not only remove

6

A78

Page 78 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

13
of attainder. U.S. CONST. art. I, § 9, cl. 3; art. I, § 10, cl. 1; see
also United States v. Brown, 381 U.S. 437, 442 (1965) (“[T]he
Bill of Attainder Clause was intended not as a narrow, technical
. . . prohibition, but rather as an implementation of the
separation of powers, a general safeguard against legislative
exercise of the judicial function, or more simply—trial by
legislature.”). The Framers understood the importance of
prohibiting Congress from turning its substantial powers
against an individual and possessed a “sense of a sharp
necessity to separate the legislative from the judicial power.”
Plaut v. Spendthrift Farm, Inc., 514 U.S. 211, 219 (1995); see
also Calder v. Bull, 3 U.S. (3 Dall.) 386, 389 (1798) (reviewing
parliamentary abuses of bills of attainder and noting “the
Federal and State Legislatures, were prohibited from passing
any bill of attainder; or any ex post facto law” to prevent “acts
of violence and injustice” against individuals). As
Montesquieu warned, if the judicial powers were “joined with
the legislative, the life and liberty of the subject would be
exposed to arbitrary control; for the judge would then be the
legislator.” Montesquieu, The Spirit of the Laws 157 (A.
Cohler et al. eds., 1989).
Vested with the power to make the laws, Congress cannot
also execute and adjudicate them. See Fletcher v. Peck, 10 U.S.
(6 Cranch) 87, 136 (1810) (“It is the peculiar province of the
legislature to prescribe general rules for the government of
society; the application of those rules to individuals in society
an official but also assess a broad range of punishments at the
discretion of “the wisdom of the peers.” Id. at *121–22. Against the
abuses of this practice, the Founders limited the scope of
impeachable offenses and punishments for conviction. See Peter
Hoffer & N.E.H. Hull, Impeachment in America, 1635-1805, at 96–
98 (1984); see also Akhil R. Amar, America’s Constitution: A
Biography 199–203 (2005) (describing how the “system of federal
impeachment broke decisively with English impeachment practice”).

A79

Page 79 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

14
would seem to be the duty of other departments.”). Exercising
the legislative power, Congress may enact general, prospective
rules for the whole of society. Yet Congress cannot prosecute
and decide specific cases against individuals. Such powers
properly belong to the executive branch and the independent
judiciary—a division essential to maintaining fundamental
aspects of our separation of powers and protecting the rights of
individuals accused of illegal actions.
As an exception to this separation, the Constitution confers
upon the House and Senate limited judicial powers over
impeachable officials. The Constitution vests the House of
Representatives with the “sole Power of Impeachment,” U.S.
CONST. art. I, § 2, cl. 5, and the Senate with the “sole Power to
try all Impeachments,” U.S. CONST. art. I, § 3, cl. 6. The
Constitution creates a two-tier system, dividing limited judicial
power between the House and the Senate to target individual
cases of wrongdoing by impeachable officials. These judicial
powers were understood as exceptions to the legislative power
vested in Congress. See Kilbourn, 103 U.S. at 190–91 (noting
impeachment and removal as exceptions to the separation of
powers because they place judicial power in Congress);
Hayburn’s Case, 2 U.S. (2 Dall.) 408, 410 (1792) (“[N]o
judicial power of any kind appears to be vested [in the
legislature], but the important one relative to impeachments.”).
In the context of an impeachment inquiry, the House
serves as a kind of grand jury, investigating public officials for
misconduct. As Hamilton noted, the “delicacy and magnitude
of [this] trust” transforms the House into a “NATIONAL
INQUEST.” The Federalist No. 65, at 338. The Senate acts as
a “court for the trial of impeachments,” exercising the “awful
discretion which a court of impeachments must necessarily
have, to doom to honour or to infamy the most confidential and
the most distinguished characters of the community.” Id. at
339. Trial by the Senate in cases of impeachment is part of the

A80

Page 80 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

15
“judicial character of the Senate.” Id. at 337; see also
Jefferson’s Manual of Parliamentary Practice § 619 (“The trial,
though it varies in external ceremony, yet differs not in
essentials from criminal prosecutions before inferior courts.”).
The Constitution requires senators trying an impeachment to
be on “Oath or Affirmation” and for the Chief Justice to preside
when the President is tried; conviction requires “two thirds of
the Members present.” U.S. CONST. art. I, § 3, cl. 6. The
Constitution refers to “Judgment in Cases of Impeachment.”
U.S. CONST. art. I, § 3, cl. 7.
As an exercise of judicial power, the impeachment process
targets the individual. The Constitution’s text confirms this
understanding: “no Person shall be convicted,” and “the Party
convicted” shall be liable according to the law. U.S. CONST. art.
I, § 3, cls. 6–7. “The President, Vice President, and all civil
Officers of the United States” are subject to impeachment. U.S.
CONST. art. II, § 4. Article I makes clear that in this role, the
Senate acts as a court trying impeachable offenses and renders
judgment that could result in removal from office and
disqualification from holding any “Office of honor, Trust, or
Profit under the United States.” U.S. CONST. art. I, § 3, cl. 6.
The impeachable offenses enumerated in the Constitution
specifically target individual wrongdoing, namely “Treason,
Bribery, or other high Crimes and Misdemeanors.” U.S.
CONST. art. II, § 4; see also The Federalist No. 65, at 339
(observing the Senate was the only body with “confidence
enough in its own situation, to preserve, unawed and
uninfluenced, the necessary impartiality between an individual
accused, and the representatives of the people, his accusers”).
The Founders treated impeachable offenses as wholly
distinct from the subjects of investigation for legislative
purposes, such as maladministration. The exact phrasing of an
impeachable offense was debated at the Philadelphia
Convention. After the Convention settled on “Treason, or

A81

Page 81 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

16
bribery,” George Mason moved to include “maladministration”
as an additional ground for impeachment. 2 Records of the
Federal Convention 550 (Max Farrand ed., 1937). James
Madison objected, arguing that “[s]o vague a term will be
equivalent to a tenure during pleasure of the Senate,” and
Gouverneur Morris argued that “[a]n election of every four
years will prevent maladministration.” Id. Conceding the point,
Mason withdrew “maladministration” and submitted the text
eventually enacted: “other high crimes & misdemeanors.” Id.
Thus, impeachment addresses a public official’s wrongdoing—
treason, bribery, and high crimes or misdemeanors—while
problems of general maladministration are left to the political
process.
In addition, impeachment by the House and trial by the
Senate were understood to include constitutional rights
normally afforded to the accused in a criminal trial. After
examining English, colonial, and early constitutional practice,
Justice Story concluded that the common law rights of criminal
defendants apply in the exercise of the impeachment power.
See 3 Joseph Story, Commentaries on the Constitution of the
United States § 796 (1833) (“[I]n trials by impeachment the law
differs not in essentials from criminal prosecutions before
inferior courts. The same rules of evidence, the same legal
notions of crimes and punishments prevail.”); see also 3 Asher
C. Hinds, Hinds’ Precedents of the House of Representatives
§ 2486 (“Hinds”) (“In the prosecution of an impeachment, such
rules must be observed as are essential to justice; and, if not
exactly the same as those which are practiced in ordinary
courts, they must be analogous, and as nearly similar to them
as forms will permit.” (quoting Op. Att’y Gen. of May 9,
1796)).
The Supreme Court has long recognized the enhanced
protections required by impeachment’s judicial function, even
if such matters are generally not justiciable. See Nixon v.

A82

Page 82 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

17
United States, 506 U.S. 224, 238 (1993) (concluding that
judicial review of impeachment procedures would be
inconsistent with the text and structure of the Constitution);
Marshall v. Gordon, 243 U.S. 521, 547 (1917) (noting that
when the congressional contempt power is “transformed into
judicial authority” as when a “committee contemplate[es]
impeachment,” the authority becomes “subject to all the
restrictions and limitations imposed by the Constitution”);
Kilbourn, 103 U.S. at 190 (impeachment proceedings assume
“the same manner” and employ the “same means that courts of
justice can in like cases”).
Moreover,
impeachment
and
removal
ensure
accountability to Congress but are not designed to give
Congress direct control over the executive branch. The
President is the head of a co-equal and independent branch of
government. The impeachment power raised concerns for
Gouverneur Morris and other Framers who feared “the
prospect of impeachment would make the chief executive
dependent upon the legislature.” Peter Hoffer & N.E.H. Hull,
Impeachment in America, 1635-1805, at 100 (1984); see also
The Federalist No. 65, at 341 (noting the risk of “persecution
of an intemperate or designing majority in the House of
Representatives”).
Because of the weighty responsibility of investigating and
trying public officers, “the Constitution structured
impeachment as a system of national accountability.” Akhil R.
Amar, America’s Constitution: A Biography 201 (2005). The
Framers established a mechanism for Congress to hold even the
highest officials accountable, but also required the House to
take responsibility for invoking this power. See 3 Annals of
Cong. 903 (1793) (statement of Rep. Smith) (describing the
“solemnities and guards” the impeachment process offers to
public officers “accused of a breach of duty”); H.R. Rep. No.
93-1305, at 182 (1974) (describing the House’s “responsibility

A83

Page 83 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

18
as representatives of the people” in the Nixon impeachment
process). By vesting this visible and solemn power in one
institution, the Constitution forces the House to take
accountability for its actions when investigating the President’s
misconduct. See Michael J. Gerhardt, The Federal
Impeachment Process: A Constitutional and Historical
Analysis 110 (1996) (“[M]embers of Congress seeking
reelection have a political incentive to avoid any abuse of the
impeachment power. . . . [T]he cumbersome nature of the
impeachment process makes it difficult for a faction guided by
base personal or partisan motives to impeach and remove
someone from office.”); Julie R. O’Sullivan, The Interaction
Between Impeachment and the Independent Counsel Statute,
86 GEO. L.J. 2193, 2229–30 (1998) (“[E]lectoral accountability
is the ultimate check by which Congress’s abuse of its
otherwise externally unchecked power of impeachment may be
constrained.”).
In light of the text, structure, and original meaning, the
Constitution is best read to provide for impeachment as the
exclusive mechanism for Congress to investigate the
wrongdoing of the President and other impeachable officials.
See Kendall v. United States ex rel. Stokes, 37 U.S. (12 Pet.)
524, 610 (1838) (“The executive power is vested in a President;
and as far as his powers are derived from the constitution, he is
beyond the reach of any other department, except in the mode
prescribed by the constitution through the impeaching
power.”). It would be wholly inconsistent with this exacting
structure and its explicit safeguards if Congress could target
unlawful actions by impeachable officials simply through its
legislative power, thereby encroaching on the Executive
without the processes, protections, and accountability of
impeachment.
B.

A84

Page 84 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

19
Because “the interpretive questions before us concern the
allocation of power between two elected branches of
Government,” Noel Canning, 573 U.S. at 524, I proceed to
consider the historical practice regarding congressional
investigations of the executive branch and executive officials.
Cf. Zivotofsky, 135 S. Ct. at 2084 (“To determine whether the
President possesses the exclusive power of recognition the
Court examines the Constitution’s text and structure, as well as
precedent and history bearing on the question.”). While
historical practice is relevant, it does not alter the original
meaning of the Constitution. See McIntyre v. Ohio Elections
Comm’n, 514 U.S. 334, 370 (1995) (Thomas, J., concurring in
the judgment) (recognizing the concern with overturning
longstanding state practice, but concluding that “the historical
evidence from the framing outweighs recent tradition”).
With respect to Congress’s investigative powers, the
original meaning and historical practice align—all three
branches
have
consistently
distinguished
between
investigations for legislative purposes and investigations
targeting wrongdoing by an impeachable official. Moreover,
the historical evidence demonstrates that Congress often begins
an investigation into the executive branch with general
questions properly pertaining to legislation; however, if an
inquiry turns to suspicions of criminality, Congress moves that
part of the investigation into impeachment or ends the inquiry
into the impeachable official. Thus, even a valid legislative
purpose has never been thought to justify probing specific
accusations of wrongdoing by impeachable officials.
Exercising their independent duty to interpret the Constitution,
the political branches have maintained that impeachment is the
exclusive mechanism for investigating impeachable offenses.
This historical practice reflects and reinforces the
Constitution’s text, structure, and original meaning, and is
consistent with the Supreme Court’s precedents.

A85

Page 85 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

20
1.
Founding Era practice confirms the Constitution’s original
meaning—investigations of unlawful actions by an
impeachable official cannot proceed through the legislative
power. For instance, in 1793 the House passed a broad
resolution to investigate the administration of the Department
of the Treasury. See 3 Annals of Cong. 835–40 (1793).
Representative William Giles subsequently introduced a string
of resolutions alleging wrongdoing and lawbreaking by
Secretary Alexander Hamilton. Id. at 900 (alleging, inter alia,
“[t]hat the Secretary of the Treasury has violated the law”).
Responding
to
Representative
Giles’s
resolution,
Representative William Smith argued that an investigation of
whether “the Secretary violated a law” could not proceed under
the guise of “an investigation of theoretic principles of
Government.” Id. at 901. Instead, the Constitution “directs”
that Congress must confront “great public functionaries . . .
accused of a breach of duty” through the impeachment process,
with its attendant “solemnities and guards.” Id. at 903; see also
id. at 903–04 (statement of Rep. Murray); id. at 947–48
(statement of Rep. Boudinot) (“[The Committee] were no
longer acting in a Legislative capacity, but were now exercising
the important office of the grand inquest of the Nation . . . . The
honor and reputation of the officer thus charged . . . required a
steady, uniform, and disinterested examination of every
question from us.”). Representative Giles’s resolutions were
decisively defeated. See id. at 955–63.
Similarly, in 1796 the House requested from President
George
Washington
documents
and
diplomatic
correspondence related to the Jay Treaty and its ratification in
order to determine whether to appropriate the funds necessary
to implement the Treaty. President Washington argued that
because the House could not compel him to disclose the
documents through an exercise of its legislative powers, it

A86

Page 86 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

21
could demand the documents only through an exercise of its
impeachment power: “It does not occur that the inspection of
the papers asked for can be relative to any purpose under the
cognizance of the House of Representatives, except that of an
impeachment; which the resolution has not expressed.” See 5
Annals of Cong. 760–62 (1796). The House passed a resolution
disapproving of President Washington’s message, but
eventually appropriated the funds necessary to implement the
Treaty without receiving the papers it demanded from the
President. See id. at 1291.
Moreover, during the early years of the Republic, when the
House sought to target individual, official misconduct, it
proceeded through the impeachment power, not the legislative
power. In the high profile 1805 impeachment of Associate
Justice Samuel Chase, the investigation into his misconduct
proceeded unambiguously under the impeachment power. See
3 Hinds §§ 2342–46. The House specifically defined its role as
that of a grand jury and voted to authorize an impeachment
investigation by a committee vested with subpoena powers. See
id. § 2342. 7
One early impeachment illustrates the line between
general investigation and impeachment particularly well.
During an investigation of the “disposition of the funds of the
district court,” “the conduct of the judge of the district had been
somewhat implicated.” 32 Annals of Cong. 1715–16 (1818)
(discussing Judge William P. Van Ness of the Southern District
of New York). The Judiciary Committee thought it improper to
Congress conducted such investigations exclusively through the
impeachment power throughout the Founding Era. See 3 Hinds
§§ 2294–2302 (impeachment of Senator William Blount, 1797);
§§ 2319–23 (impeachment of Judge John Pickering, 1803); §§ 2364–
67 (impeachment of Judge James Peck, 1830, highlighting the
importance of protections for the accused before the Senate trial).

7

A87

Page 87 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

22
proceed under the existing resolution and sought specific
authority from the House to transfer from a legislative
investigation to an investigation of the judge’s “official
conduct.” Id. After such authority was granted, the Committee
conducted an impeachment inquiry and found no “ground for
the constitutional interposition of the House.” 3 Hinds § 2489.
Ignoring these Founding Era precedents, the majority
touches briefly on investigations for legislative purposes that
concerned only general maladministration. None of the
majority’s examples involve an allegation of individual
wrongdoing or unlawful activity by an impeachable officer.
Indeed, the majority’s examples help to demonstrate the
original understanding that such investigations proceed
exclusively through the impeachment power.
The majority begins with the House’s 1792 investigation
into the failure of the expedition under General Arthur St. Clair
in the Northwestern Territory. Maj. Op. 11. This investigation
did not single out any particular officer for misconduct; instead,
it was a general investigation into “the causes of the late defeat
of the army under the command of Major-General St. Clair”
and associated problems of logistics and supply. 3 Hinds
§ 1725. The investigation did not focus on General St. Clair,
who was in any event not an impeachable officer because the
impeachment power extends only to “civil Officers.” U.S.
CONST. art. II, § 4. Rather, the House sought to study the
problems of execution in the expedition as a whole.
Furthermore, at the Washington Administration’s urging,
Congress amended its resolution of inquiry to disclaim any
intention of seeking private papers. See Thomas Jefferson,
Memoranda of Consultations with the President (11 Mar. to 9
Apr. 1792); 3 Hinds § 1726 (calling for papers only “of a public
nature”). Contrast this general investigation with the
investigation of Secretary Hamilton: when the inquiry began to
focus on whether Hamilton had violated the law, the House

A88

Page 88 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

23
insisted such inquiries could not proceed through the ongoing
legislative investigation. The investigation of the St. Clair
expedition never turned toward an impeachable official, and
therefore remained within Congress’s legislative powers. See 3
Annals of Cong. 490–94 (1792).
Similarly, the majority’s reference to Congress’s
investigation of the burning of Washington in 1814 offers a
useful example of the line maintained throughout the Founding
Era between general investigation and impeachment. Maj. Op.
12. This legislative investigation focused on the general causes
of the military disaster without targeting any individual officer.
See Herman J. Viola, “The Burning of Washington, 1814,” in
Congress Investigates: A Critical and Documentary History
41–45 (Roger A. Bruns et al. eds., 2011). The majority’s
Founding Era precedents thus buttress the rule that
investigations into the causes of maladministration may
proceed under the legislative power; however, the legislative
power cannot support an investigation into whether an
impeachable official has violated the laws. Such congressional
inquiry must proceed, if at all, through the impeachment
process.
2.
The Founding Era practice continued into the Jacksonian
Era. For example, in 1832, Representative John Quincy Adams
defeated a resolution seeking to conduct a legislative
investigation into charges of public misconduct against a
federal land commissioner. The matter was referred to the
House Judiciary Committee after Adams argued that “[t]he
resolution contained a matter of charge against a public officer.
Prima facie it would lead to an expectation of an impeachment.
It was alike due to the character of the officer in question, and
to the reputation of the House, to investigate the matter
solemnly and effectually.” 8 Reg. Deb. 2198–99 (1832).

A89

Page 89 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

24
In 1836, the House appointed a select committee to
conduct a broad investigation of all departments of the Jackson
Administration, empowering the committee to call for persons
and papers. 3 Hinds § 1737. When the Committee’s
investigation focused on particular officials, President Andrew
Jackson intervened in protest of the Committee’s “illegal and
unconstitutional calls for information.” Id. The President
argued that he would fully cooperate with an investigation
conducted “in the accustomed mode,” impeachment, but would
not subject himself to “the establishment of a Spanish
inquisition.” Letter from President Andrew Jackson to Rep.
Henry A. Wise, Chairman, H. Select Comm. (Jan. 26, 1837).
Chairman Wise resisted and submitted a resolution disagreeing
with the doctrine expounded by the President, providing a rare
contrary understanding of the scope of the legislative power to
investigate. But the Chairman’s position was soundly defeated
by his committee, which issued a report endorsing President
Jackson’s position and noting that the investigation amounted
to charges “against the individual officers for ‘corrupt
violation’ of existing laws.” 3 Hinds § 1740. The Committee
further concluded that “the only constitutional power under
which the House of Representatives, as a coordinate branch of
the Government, could constitute a committee to inquire into
alleged ‘corrupt violations of duty’ by another coordinate
branch of the Government (the Executive) is the ‘power of
impeachment.’” Id.
Indeed, Congress reaffirmed that it could not censure
President Jackson outside the context of impeachment. After
initially voting to censure, the Senate later expunged the
censure from the record on the grounds that “President Jackson
was adjudged and pronounced to be guilty of an impeachable
offence, and a stigma placed upon him, as a violator of his oath
of office, and of the laws and constitution which he was sworn
to preserve, protect, and defend, without going through the
forms of an impeachment, and without allowing him the

A90

Page 90 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

25
benefits of a trial, or the means of defence.” 12 Reg. Deb. 878
(1836). 8
Presidents James Polk, Ulysses Grant, and Grover
Cleveland continued to vigorously defend the line between
legislative and impeachment investigations, maintaining the
latter included legal protections for the officer accused. In
1846, the House formed a select committee to investigate the
possibility of impeaching Daniel Webster, the former Secretary
of State (and then-Senator), with the power to send for papers.
Cong. Globe, 29th Cong., 1st Sess. 945 (1846). While the
Select Committee conducted its investigation, the House
debated a resolution calling for the State Department to
produce documents tending to incriminate Webster. Id. at 636.
Some members argued that only the duly authorized Select
Committee could make such a request. Id. at 636–43.
Representative Adams maintained that an impeachable official
“may not be reached by side-blows.” Id. at 641. The resolution
passed, but President Polk refused to turn over the requested
documents because the resolution did not clearly spell out
The majority asserts that “Presidents, too, have often been the
subject of Congress’s legislative investigations.” Maj. Op. 15. Its one
example from the Jacksonian Era, however, fails to support its
conclusion. The majority refers to the select committee appointed to
investigate former Representative Samuel Houston and whether he
received money from the Secretary of War with the President’s
knowledge. Id. at 15–16. Far from an investigation of the President’s
wrongdoing, this inquiry was part of a broader investigation of
Houston’s assault on a member of Congress for statements made on
the floor. The Committee Report never mentions the President, nor
does it indicate the Committee took any steps to investigate the
President. See 2 Hinds §§ 1616–19; 8 Reg. Deb. 2591–92 (1832)
(context of inquiry); id. at 2595 (then-Rep. Polk proposing inquiry);
id. at 2853 (need for resolution was to determine veracity of
statement made on floor that provoked Houston’s attack); id. at
3022–33 (resolution forming select committee).
8

A91

Page 91 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

26
Congress’s intent to obtain the documents pursuant to its
impeachment power.
President Polk emphasized, however, that he would fully
cooperate with a duly authorized impeachment investigation.
See 2 Hinds § 1561 (“[T]he power of impeachment belongs to
the House of Representatives, and that with a view to the
exercise of this power, that House has the right to investigate
the conduct of all public officers under the government.”
(quoting President James K. Polk, Message to the House of
Representatives, April 20, 1846)). The Select Committee
“entirely concur[red] with the President of the United States”
and his decision not to “communicate or make public, except
with a view to an impeachment” the document sought. Cong.
Globe, 29th Cong. 1st Sess. 946–48, 988 (1846); see also H.R.
Rep. No. 29-684, at 4 (1846). The House approved the Select
Committee’s proposal and took no further action on the matter.
See 2 George Ticknor Curtis, The Life of Daniel Webster 283
(1870). President Polk and the House agreed that the House
may call for documents seeking evidence of a public officer’s
wrongdoing only pursuant to an impeachment investigation. 9
This issue was raised again by the 1860 House Select
Committee to Investigate Alleged Corruptions in Government
(“Covode Committee”) when it investigated “whether the
President of the United States, or any other officer of the
Government, has, by money, patronage, or other improper
means, sought to influence the action of Congress.”
Presidents adhered to this position throughout the Nineteenth
Century without pushback from Congress. See, e.g., 17 Cong. Rec.
1903 (1886) (statement of President Cleveland) (“I am also led
unequivocally to dispute the right of the Senate, by the aid of any
documents whatever, or in any way save through the judicial process
of trial on impeachment, to review or reverse the acts of the
Executive in the suspension . . . of Federal officials.”).
9

A92

Page 92 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

27
2 Hinds § 1596. President Buchanan protested the attempt to
circumvent the impeachment process, noting that while the
House has the “wholesome prerogative” of examining
administration of the departments of the government:
Should [the House] find reason to believe in the
course of their examinations that any grave
offense had been committed by the
President . . . rendering it proper, in their
judgment, to resort to impeachment, their
course would be plain. They would then transfer
the question from their legislative to their
accusatory jurisdiction, and take care that . . .
the accused should enjoy the benefit of crossexamining the witnesses and all the other
safeguards with which the Constitution
surrounds every American citizen.
President James Buchanan, Addendum to March 28 Message
to Congress (June 22, 1860). The House asserted its power to
investigate generally, but issued no subpoena seeking evidence
of unlawful conduct by the President. See 2 Hinds § 1596; 3
Hinds § 1683.
Even the Civil War and Reconstruction Congresses, which
strongly asserted congressional power, adhered to the
distinction between investigations for legislative purposes and
investigations of illegal conduct by an impeachable official.
For example, the Joint Committee on the Conduct of the War
harangued non-impeachable military officers and articulated
broad theories of congressional power, but never issued
compulsory process to the President or sought to determine if
particular civil officers violated the law. See generally
Elizabeth Joan Doyle, “The Conduct of the Civil War, 1861–
65” in Congress Investigates at 160–89. The majority’s
reference to the Harpers Ferry investigation, Maj. Op. 12,
similarly misses the mark because that investigation never

A93

Page 93 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

28
focused on the unlawful conduct of an impeachable official, but
instead sought facts about the raid generally in order to
determine whether legislation was necessary. See Roger A.
Bruns, “John Brown’s Raid on Harpers Ferry, 1859–60” in
Congress Investigates at 127–28.
The impeachment of President Andrew Johnson
demonstrates the strength of the rule against using legislative
inquiries to circumvent the impeachment process. The House
rebuffed early attempts to initiate an inquiry into President
Johnson’s wrongdoing under the auspices of an investigation
into the executive branch’s administration. See Michael Les
Benedict, “The Impeachment of President Andrew Johnson,
1867–68” in Congress Investigates at 263–64. While a
minority of representatives would have favored using the
legislative power to address President Johnson’s abuses, “the
tedious job of taking testimony and searching through
documents” did not begin until after a formal impeachment
process was initiated. Id.; see also 3 Hinds §§ 2399–2400.
President Grant maintained the line against aggressive
congressional requests in the midst of Reconstruction. The
House requested detailed information regarding President
Grant’s whereabouts while performing executive functions to
determine whether the President was in violation of the Act of
16 July 1790, which established the District of Columbia as the
seat of government. See 3 Hinds § 1889. President Grant
refused to comply with the request on separation of powers
grounds. See 4 Cong. Rec. 2999–3000 (1876). As he explained,
the investigation did not “belong to the province of legislation,”
nor did it bear on any impeachment proceeding. Id. He
therefore felt obliged under the Constitution to refuse the
request in order to prevent “encroachments upon the proper
powers of the office which the people of the United States have
confided to me.” Id.; see also 3 Hinds § 1889 (“What the House
of Representatives may require as a right in its demand upon

A94

Page 94 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

29
the Executive for information is limited to what is necessary
for the proper discharge of its powers of legislation or of
impeachment.”). The House took no further action. See 3
Hinds § 1889.
In the 1879 investigation of United States Consul George
Seward, the House again reaffirmed the separation between
legislative and impeachment investigations. Acting under its
legislative authority, the House Committee on Expenditures in
the State Department attempted to hold Seward in contempt for
failing to comply with a subpoena seeking certain official
papers. Id. § 1699. Seward argued that the Committee was not
authorized to conduct an impeachment inquiry and could not
investigate his alleged misconduct pursuant to the legislative
power. Agreeing with Seward, the House referred the matter to
the Judiciary Committee. Id. The Judiciary Committee’s report
“distinguished[ed] this case from the case of an ordinary
investigation for legislative purposes,” and held that the
Committee on Expenditures had acted beyond its legislative
powers by attempting to circumvent the protections of the
impeachment process:
The Executive is as independent of either House
of Congress as either House of Congress is
independent of him, and they cannot call for the
records of his action or the action of his officers
against his consent, any more than he can call
for any of the journals or records of the House
or Senate.
Id. §§ 1700, 2514. The Judiciary Committee maintained that
the House had no right to issue compulsory process against the
executive branch outside the impeachment process. 10
The Judiciary Committee recognized that Seward could not be
compelled to produce either private or public papers. His private
10

A95

Page 95 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

30
3.
Continuing into the Twentieth Century, presidents have
been vigilant against congressional attempts to circumvent the
impeachment process. In 1909, the Senate attempted to
subpoena documents from the Attorney General regarding the
Department of Justice’s failure to act against U.S. Steel
Corporation. President Theodore Roosevelt refused to comply,
so the Senate subpoenaed the Commissioner of Corporations,
an officer within the Department of Commerce and Labor, for
the same documents. See Commissioner of Corporations—
Right of Senate Committee to Ask for Information, 27 Op. Att’y
Gen. 150 (1909). After ordering the Commissioner to withhold
the documents, the President informed the Senate that he would
turn over the documents only if the Senate was acting in its
capacity as an impeachment court. See History of Refusals by
Executive Branch Officials to Provide Information Demanded
by Congress, 6 Op. O.L.C. 751, 769 (1982) (citing Edward S.
Corwin, The President: Office and Powers 429–30 (1957)).
The Senate took no further action. 11
Investigations of Secretary of the Treasury Andrew
Mellon similarly demonstrate the executive branch’s resistance
papers were protected by the right against self-incrimination and his
title to his private property, which could not be collaterally stripped
by Congress. As for public papers, the Committee recognized them
as within the province of executive privilege. 3 Hinds §§ 1700, 2514.
President Roosevelt’s handling of the matter was recorded by his
personal aide: “I told [Senator Clark] that the Senate should not have
those papers and that [the Commissioner] turned them over to me.
The only way the Senate or the committee can get those papers now
is through my impeachment.” Archibald Willingham Butt &
Lawrence F. Abbott, The Letters of Archie Butt, Personal Aide to
President Roosevelt 305–06 (1924).

11

A96

Page 96 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

31
to releasing documents demanded for legislative purposes in
relation to an impeachable official’s wrongdoing. In 1925,
President Calvin Coolidge refused to hand over Mellon’s tax
returns to a Senate committee tasked with a legislative
investigation of the Bureau of Internal Revenue, noting that
“the attack which is being made on the Treasury Department
goes beyond any . . . legitimate requirements.” 65 Cong. Rec.
6087–88 (1924). 12 In 1929, the Senate Judiciary Committee
investigated Mellon’s alleged violations of financial conflicts
of interest laws. The Committee determined it did not have the
power to issue compulsory process because “it would be a
judicial inquiry and [] not in aid of any legislative function of
the Senate” and could be reached only through “duly instated
criminal proceedings or impeachment proceedings originating
in the House of Representatives.” S. Rep. No. 71-7, at 3 (1929).
In 1932, the House Judiciary Committee was authorized to
conduct a formal impeachment investigation, with subpoena
power, into the same allegations of Mellon’s alleged
lawbreaking. 3 Deschler’s Precedents, Ch. 14, § 14.1
(“Deschler”). 13
Congress did not attempt to enforce the subpoena in court but
instead engaged in negotiations with the executive branch, which
resulted in a compromise and Congress passing legislation regarding
the disclosure of tax returns. See George K. Yin, James Couzens,
Andrew Mellon, the ‘Greatest Tax Suit in the History of the World,’
and Creation of the Joint Committee on Taxation and Its Staff, 66
TAX L. REV. 787, 857 (2013).
12

The majority’s citation to the Pearl Harbor investigation, Maj. Op.
16, is of limited value, as President Franklin Roosevelt passed away
on April 12, 1945, nearly five months before Congress authorized
the investigation on September 6, 1945, placing the former President
beyond the reach of Congress’s subpoena power. See Wayne
Thompson, “The Pearl Harbor Committee, 1945–46” in Congress
Investigates at 670.

13

A97

Page 97 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

32
4.
In the modern era, Congress has investigated allegations
of illegal conduct by Presidents Richard Nixon, Ronald
Reagan, and Bill Clinton. The majority cites these as examples
of presidents being “the subject of Congress’s legislative
investigations.” Maj. Op. 16–18. Contrary to the majority’s
characterization, these investigations reinforce that Congress
may launch legislative investigations into administration
generally, including the President’s involvement in
discretionary decisionmaking and purported scandals, but
when wrongdoing by the President is targeted or uncovered the
House transfers allegations of such conduct to an impeachment
inquiry.
For example, the congressional inquiry into the break-in at
the Democratic National Committee’s headquarters in the
Watergate Hotel began with the creation of a Senate Select
Committee to investigate the incident and determine whether
new legislation on electoral safeguards might be needed. See
S. Res. 60, 93d Cong. § 1(a) (1973). The inquiry centered on
whether any actions—“illegal, improper, or unethical”—took
place, but the inquiry did not target any specific persons. Id.
President Nixon initially rebuffed the Select Committee’s
informal requests for information. See Letter from President
Richard M. Nixon to Sen. Sam J. Ervin Jr., Chairman, Sen.
Select Comm. on Presidential Campaign Activities (July 6,
1973). The Committee, acting pursuant to its legislative power,
later issued two subpoenas to the President. Those subpoenas
were eventually quashed by this court. See Senate Select, 498
F.2d at 733. 14
When the Supreme Court upheld the grand jury request for
President Nixon’s tapes, it specifically confined its decision to the
context of criminal investigations and noted it was not concerned

14

A98

Page 98 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

33
While litigation was pending, the House Judiciary
Committee determined that the evidence gathered through both
the Senate and special counsel investigations had shifted the
focus so heavily toward allegations of wrongdoing by President
Nixon that a formal impeachment investigation was necessary
to proceed any further:
We have reached the point when it is important
that the House explicitly confirm our
responsibility under the Constitution.
We are asking the House of Representatives, by
this resolution, to authorize and direct the
Committee on the Judiciary to investigate the
conduct of the President of the United States, to
determine whether or not evidence exists that
the President is responsible for any acts that in
the contemplation of the Constitution are
grounds for impeachment . . . .
[W]e are asking the House to give the Judiciary
Committee the power of subpoena in its
investigations. Such a resolution has always
been passed by the House. . . . It is a necessary
step if we are to meet our obligations.
3 Deschler Ch. 14, § 6.2. Only after the House passed a
resolution explicitly invoking its authority under the
impeachment power did the Judiciary Committee subpoena the
President. See H.R. Res. 803, 93d Cong. (1974); H.R. Rep. No.
93-1305, at 6 (1974).
The House Judiciary Committee took responsibility for
commencing an impeachment investigation and thereafter
with how these issues might be resolved in the context of
“congressional demands for information.” United States v. Nixon,
418 U.S. 683, 712 n.19 (1974).

A99

Page 99 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

34
accorded robust procedural protections to ensure that
documents obtained in the course of that process remained
confidential. H.R. Rep. No. 93-1305, at 8–9. The Committee
also determined that the President must comply only with
subpoenas issued “relative to the impeachment inquiry.” 3
Deschler Ch. 14, § 6.12. Notably, one of the grounds in the
resulting articles of impeachment was President Nixon’s
failure to comply with subpoenas, but only those issued after
formal authorization of the impeachment investigation. Id.
§ 15.13. The majority neglects this institutional history and
focuses only on the Select Committee’s unsuccessful attempt
to subpoena the President for legislative purposes. Maj. Op.
17–18. In the 1970s, as in the 1790s, the House recognized the
importance of invoking the impeachment power when an
investigation shifts from a legislative inquiry to an
investigation of the illegal action of an impeachable official.
Regarding the Iran-Contra Affair in 1987, the majority
asserts that the House committee established to inquire into
illegal arms sales to Iran to finance Nicaraguan rebels sought
to “investigate . . . the role of the President” in those events. Id.
at 16. This misrepresents the broad scope of the investigation,
which inquired into whether and how the National Security
Council staff and other agency officials were involved. The
House resolution forming the Select Committee to Investigate
Covert Arms Transactions with Iran refers to the President only
in relation to assessing the need for legislation regarding
“authorization and supervision or lack thereof of the matters in
this section by the President and other White House personnel.”
H.R. Res. 12, 100th Cong. § 1(e) (1987). The corresponding
Senate resolution does not mention the President at all. See S.
Res. 23, 100th Cong. (1987). Reflecting the general focus on
the process of national security decisionmaking, the joint report
issued by the House and Senate select committees sought to
“explain what happened in the Iran-Contra Affair” rather than
target the actions of any individual official. H.R. Rep. No. 100-

A100

Page 100 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

35
433, at xv–xvi (1987). The Committees obtained over one
million pages of documents, in part through subpoenas, but
only accessed the President’s personal papers through his
voluntary cooperation.
Similarly, the majority mischaracterizes the lessons of
Congress’s investigation of the Whitewater Development
Corporation and the eventual impeachment trial of President
Clinton. Congressional involvement began several years after
a United States Attorney forwarded a criminal investigation of
the failure of Madison Guaranty Savings and Loan Association
to the Department of Justice and, ultimately, an independent
counsel. From 1994 to 1998, various House and Senate
committees gathered facts on Madison Guaranty’s failure and
whether agencies and administration officials cooperated with
the independent counsel. See S. Res. 120, 104th Cong. (1995).
The committees investigated with a wide lens, but stopped well
short of targeting offenses by particular officers. See, e.g., S.
Rep. No. 104-191, at 1–3 (1995). Then-Governor Clinton’s
involvement in Whitewater was parsed in relation to public
ethics, good governance, and the regulation of financial
institutions. See The Failure of Madison Guaranty Savings and
Loan Association and Related Matters: Hearing Before the H.
Comm. on Banking and Fin. Servs., 104th Cong. 1–5 (1995)
(opening statement of Rep. James A. Leach, Chairman)
(purpose of Whitewater hearings was to “shed light on the
character of modern political leadership rather than simply
spotlight flaws in a particular leader; . . . [and] to draw lessons
for oversight of our banking laws rather than simply critique
what went wrong with one institution”). While the President
received subpoenas from the independent counsel, other
federal investigators, and a federal grand jury, the majority
points to no examples of either house of Congress issuing a
subpoena to the President prior to impeachment.

A101

Page 101 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

36
Once President Clinton’s alleged misconduct became the
target, the House, citing much of the history discussed above,
formally invoked the impeachment power. See H.R. Rep. No.
105-795, at 24 (1998) (“Because impeachment is delegated
solely to the House of Representatives by the Constitution, the
full House of Representatives should be involved in critical
decision making regarding various stages of impeachment.”).
The House proceeded to a full floor vote to authorize an
impeachment inquiry. See H.R. Res. 581, 105th Cong. (1998)
(authorizing the Judiciary Committee to subpoena persons and
things).
The House also declined to issue a censure resolution
because it would circumvent the Impeachment and Bill of
Attainder Clauses. See H.R. Rep. No. 105-830, at 137 (1998)
(“[F]or the President or any other civil officer, censure as a
shaming punishment by the legislature is precluded by the
Constitution, since the impeachment provisions permit
Congress only to remove an officer . . . and disqualify him from
office. Not only would [censure] undermine the separation of
powers by punishing the President . . . in a manner other than
expressly provided for in the Constitution, but it would violate
the Constitution’s prohibition on Bills of Attainder.”).
***
The text, structure, and original meaning of the
Constitution are best understood to provide for impeachment
as the exclusive mechanism for Congress to investigate the
illegal conduct of the President and other impeachable
officials. The majority presents no evidence from the
Constitution, our cases, or the consistent interpretation of the
political branches to refute these conclusions. From the
Founding to the present, interactions between the political
branches demonstrate a consistent practice that confirms the
original meaning regarding the separation of the legislative and
judicial powers of the House. The Constitution and our history

A102

Page 102 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

37
reinforce several principles. First, the House cannot investigate
the illegal conduct of an impeachable officer pursuant to the
legislative power. Second, the investigation of the illegal
conduct of an impeachable officer can be pursued only under
the impeachment power, which transforms the House from a
legislative body into the grand inquest of the nation and affords
procedural and constitutional protections to the accused. Third,
the House may not circumvent the weighty accountability of
the impeachment process simply by proceeding through a
legislative investigation.
III.
With these constitutional and historical principles as
guideposts, I reach the question at hand: whether the
Committee’s subpoena is a valid exercise of the legislative
power. I examine the subpoena and conclude that it seeks to
investigate illegal conduct of the President by reconstructing
past actions in connection with alleged violations of ethics laws
and the Emoluments Clauses. Such an inquiry exceeds
Congress’s legislative power. The remedial legislative
purposes offered by the Committee might authorize any
number of other investigations, but cannot authorize this
subpoena, which seeks to determine whether the President
violated the law. Moreover, this subpoena represents an
unprecedented assertion of legislative power and is readily
distinguished from our previous cases. Neither the
Constitution, nor longstanding interpretation by all three
branches, supports the majority’s conclusion, which upholds—
for the first time—a targeted investigation of the President’s
alleged unlawful conduct under the legislative power.
A.
As the above history makes clear, the House’s legislative
and judicial powers are wholly distinct and the House cannot
target conduct that could constitute a high crime or

A103

Page 103 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

38
misdemeanor through the legislative power. Discerning the line
between the legislative and impeachment powers does not
require a search for the Committee’s motives because the
Committee has emphasized repeatedly and candidly its interest
in investigating allegations of illegal conduct by the President.
In general, courts properly refrain from questioning legislative
motive when assessing the legitimacy of congressional
investigations, accord Maj. Op. 22, but this does not excuse us
from the judicial duty to assure Congress is acting “in
pursuance of its constitutional power.” Barenblatt v. United
States, 360 U.S. 109, 132 (1959); see also Eastland, 421 U.S.
at 508–09 (upholding subpoenas “about a subject on which
legislation may be had”); Watkins, 354 U.S. at 200 (“[M]otives
alone would not vitiate an investigation . . . if that assembly’s
legislative purpose is being served.”). An inquiry into motive
involves looking behind the stated reasons for a Committee’s
actions. In the Committee’s investigation, however, the
“suspicions of criminality” are quite clearly articulated in the
subpoena, the Cummings Memorandum, and other documents:
the Committee seeks evidence of alleged unlawful actions by
the President. See Shelton, 404 F.2d at 1297 (noting that
sources for determining “[t]he object of the particular inquiry”
include “the resolution of the Congress authorizing the
inquiry,” “the opening statement of the Chairman,” and
“statements of the members of the committee” (citing Watkins,
354 U.S. at 209)); see also Barenblatt, 360 U.S. at 117 (“[T]he
nature of the proceedings themselves, might sometimes make
the topic (under inquiry) clear.” (quoting Watkins, 354 U.S. at
209)).
First, and most overtly, the subpoena seeks to uncover
“whether the President may have engaged in illegal conduct
before and during his tenure in office.” Cummings
Memorandum at 4. This inquiry relates in part to unofficial
wrongdoing—i.e., events that occurred before President
Trump’s tenure in office—but also to actions during his tenure

A104

Page 104 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

39
in office. The investigation specifically targets the President. It
is not about administration of the laws generally or the
President’s incidental involvement in or knowledge of any
alleged unlawful activity within the executive branch. Instead
the topics of investigation exclusively focus on the President’s
possible engagement in “illegal conduct.”
Second, the subpoena seeks to help the Committee
understand “whether [the President] has undisclosed conflicts
of interest that may impair his ability to make impartial policy
decisions.” Id.; see also Appellee Br. 32 (“These documents
may illuminate whether and to what extent [President] Trump
misrepresented his liabilities on federal disclosure forms and
has undisclosed conflicts of interest.”). Again, this inquiry
seeks to uncover alleged wrongdoing—undisclosed conflicts
of interest may violate the statutory reporting requirements
applicable to the President. See Appellee Br. 33 (“[E]xposing
conflicts of interest is one of the core objectives of the Ethics
in Government Act.” (quoting Trump v. Comm. on Oversight
& Reform, 380 F. Supp. 3d 76, 95 (D.D.C. 2019))).
Third, the subpoena seeks to investigate “whether [the
President] is complying with the Emoluments Clauses of the
Constitution.” Cummings Memorandum at 4; see also
Appellee Br. 34–35 (discussing “[t]he Oversight Committee’s
related investigations into [President] Trump’s potential
violations of the Emoluments Clauses”). On the Committee’s
own terms, it is investigating whether the President is in
violation of the constitutional bar on public officials
“accept[ing] . . . any present, Emolument, Office, or Title.”
U.S. CONST. art. I, § 9, cl. 8 (Foreign Emoluments Clause); see
also U.S. CONST. art. II, § 1, cl. 7 (Domestic Emoluments
Clause). Quite simply the Committee seeks information about
whether the President is violating the Constitution.
Fourth, the Committee seeks to inquire about “whether
[the President] has accurately reported his finances to the

A105

Page 105 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

40
Office of Government Ethics and other federal entities.”
Cummings Memorandum at 4; see also Appellee Br. 31 (“[The
Committee’s] investigations include . . . whether [President]
Trump . . . submitted inaccurate financial disclosure forms to
the Ethics Office.”). Again, the Committee seeks to uncover
whether the President has violated the law in his official
capacity—namely, the Ethics in Government Act of 1978, 5
U.S.C. app. 4 § 101 et seq., which imposes financial disclosure
requirements on the President. The Committee’s jurisdiction
includes the authority to conduct oversight of the Office of
Government Ethics and how it implements various ethics
requirements for federal officials. See Letter from Appellee
Regarding Oral Argument Matter at 3–4 (July 16, 2019)
(asserting that the Oversight Committee has jurisdiction over
the Ethics in Government Act under House Rule X, cl. 1(n)(1)).
Yet this particular inquiry is not about the administration of the
Office of Government Ethics or of the laws it administers, but
rather about reconstructing suspected violations of ethics laws
by the Chief Executive. The Committee seeks information
about past transactions related to the President’s financial
reporting—which, if found inaccurate or incomplete, may
carry civil and criminal penalties. See 5 U.S.C. app. 4 § 104(a).
The four inquiries stated in the Cummings Memorandum
are more than political flourish—they unambiguously set out
the nature of this investigation. These inquiries are repeated
throughout statements and letters of the Chairman on behalf of
the Committee. See, e.g., Letter from Rep. Elijah E.
Cummings, Chairman, H. Comm. on Oversight and Reform, to
Pat Cipollone, Counsel to the President (Jan. 8, 2019) (request
for “documents related to President Trump’s reporting of debts
and payments to his personal attorney, Michael Cohen”); Letter
from Rep. Elijah E. Cummings, Chairman, H. Comm. on
Oversight and Reform, to Emory A. Rounds III, Director of
Office of Gov’t Ethics (Jan. 22, 2019) (request for “documents
relating to President Donald Trump’s reporting of debts and

A106

Page 106 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

41
payments to his personal attorney, Michael Cohen, to silence
women alleging extramarital affairs”); Letter from Rep. Elijah
E. Cummings, Chairman, H. Comm. on Oversight and Reform,
to Pat Cipollone, Counsel to the President (Feb. 15, 2019)
(demanding answers to “significant questions about why some
of the President’s closest advisors made [] false claims [about
alleged payments] and the extent to which they too were acting
at the direction of, or in coordination with, the President”);
Letter from Rep. Elijah E. Cummings, Chairman, H. Comm.
on Oversight and Reform, to Victor Wahba, Chairman and
Chief Executive Officer, Mazars USA, LLP (Mar. 20, 2019)
(request for documents citing accusation by Cohen that
“President Trump changed the estimated value of his assets and
liabilities on financial statements . . . including inflating or
deflating the value of assets depending on the purpose for
which he intended to use the statements”). The Cummings
Memorandum also relies on the February 27, 2019, hearing
testimony of Michael Cohen, Cummings Memorandum at 1–2,
during which the Chairman and Oversight Committee
members repeatedly invoked allegations of criminality by the
President. See Appellant Br. 7–8 (collecting statements from
Cohen hearing). In this subpoena, the Committee has made
clear that it seeks to investigate illegal conduct of the President.
Indeed, the majority acknowledges that the Committee has an
“interest in determining whether and how illegal conduct has
occurred.” Maj. Op. 30.
The subpoena itself focuses on information that closely
tracks the Committee’s stated object of investigating illegal
conduct. It seeks, “with respect to Donald J. Trump” and his
organizations, “[a]ll memoranda, notes, and communications”
and “[a]ll underlying, supporting, or source documents and
records” relating to multiple categories of financial statements
going back to 2011, as well as “all engagement agreements or
contracts” “without regard to time.” In addition, the subpoena
specifically demands “all communications” between President

A107

Page 107 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

42
Trump and his accountants and “all communications related to”
any “potential concerns” that President Trump’s records “were
incomplete, inaccurate, or otherwise unsatisfactory.”
The subpoena thus seeks to recreate, in exhaustive detail,
the exact processes, discussions, and agreements that went into
preparing the President’s financial records over a multi-year
period in order to determine whether there is anything
misleading or problematic in those records. Such requests are
akin to a criminal grand jury subpoena, designed to “inquire
into all information that might possibly bear on [the]
investigation until it has identified an offense or has satisfied
itself that none has occurred.” United States v. R. Enters., Inc.,
498 U.S. 292, 297 (1991). By contrast, “legislative judgments
normally depend more on the predicted consequences of
proposed legislative actions . . . than on precise reconstruction
of past events.” Senate Select, 498 F.2d at 732.
Moreover, the Committee’s litigating position in this case
continues to emphasize the importance of the four inquiries,
each of which target the President’s alleged wrongdoing and
potential violations of statutes and the Constitution: “The
Oversight Committee is investigating whether [President]
Trump inaccurately represented liabilities on his statutorily
mandated financial disclosures, impermissibly benefited from
a lease with a government agency, and violated the
Constitution.” Appellee Br. 44; see also id. at 8–17, 21, 22–23,
31–35, 42, 44–45. Thus, we need not peer behind the curtain to
find the Committee’s suspicions of wrongdoing—the
Committee has explicitly and consistently avowed the purpose
of investigating alleged illegal activities of the President.
The Committee also offers a legislative purpose. The
Cummings Memorandum concludes with the statement that
“[t]he Committee’s interest in these matters informs [the
Committee’s] review of multiple laws and legislative proposals
under [its] jurisdiction.” Cummings Memorandum at 4; see

A108

Page 108 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

43
also Letter from Rep. Elijah E. Cummings, Chairman, H.
Comm. on Oversight and Reform, to Pat Cipollone, Counsel to
the President (Feb. 15, 2019) (“Congress has investigated how
existing laws are being implemented and whether changes to
the laws are necessary.”). Thus, even though the legislative
purpose appears in a single sentence, the Committee states a
double purpose—to investigate “criminal conduct by
[President] Trump” and also to pursue remedial legislation
relating to government ethics. Appellee Br. 44.
Given the broad power to investigate in aid of legislation,
remedial legislative purposes will often be sufficient to uphold
an investigation and accompanying subpoena. See Quinn, 349
U.S. at 160–61 (investigative power co-extensive with
legislative power). The majority finds the Committee’s
assertion of a legislative purpose sufficient because “[s]uch an
‘express avowal of the [Committee’s] object’ offers strong
evidence of the Committee’s legislative purpose.” Maj. Op. 26
(quoting McGrain, 273 U.S. at 178). “The Committee’s interest
in alleged misconduct, therefore, is in direct furtherance of its
legislative purpose.” Id. at 31. In other words, the majority
acknowledges that the Committee seeks to investigate illegal
conduct of the President, but then states it is “even more
important” that the Committee is seeking to “review multiple
laws and legislative proposals under [its] jurisdiction.” Id. at 26
(quoting Cummings Memorandum at 4). Because the
Constitution provides only one way for Congress to investigate
illegal conduct by the President, the mere statement of a
legislative purpose is not “more important” when a committee
also plainly states its intent to investigate such conduct. The
legislative power cannot support this subpoena.
The majority ignores the essential constitutional
distinction between the different investigative powers of
Congress and turns longstanding practice on its head by
concluding dismissively that “we can easily reject the

A109

Page 109 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

44
suggestion that this rationale [of investigating whether the
‘President may have engaged in illegal conduct’] spoils the
Committee’s otherwise valid legislative inquiry.” Id. at 29. The
valid legislative inquiry is not entirely spoiled—the
Committee’s inquiry into legislative proposals may continue in
any number of legitimate directions. Yet the Committee’s
specific investigation targeting the President, if it is to
continue, may be pursued only through impeachment. Since the
Republic’s beginning, the President, Congress, and the courts
have recognized that when Congress seeks to investigate
individual suspicions of criminality against the President (or
other impeachable officials), it cannot rely on its legislative
powers. The legislative power being more general and
expansive, it cannot trump, so to speak, the more specific
impeachment power, which is necessary for an investigation of
the illegal conduct of the President.
B.
This is the first time a court has recognized that a
congressional investigation pertains to “whether and how
illegal conduct has occurred,” Maj. Op. 30, but then upholds
that investigation under the legislative power. The majority
attempts to rely on our precedents to justify this subpoena by
focusing on whether it is an impermissible exercise of “law
enforcement” power. Id. at 21–22 (responding to appellants).
The majority relies on cases that deal with private citizens and
problems of administration—but a subpoena against the
President that investigates allegations of illegal conduct cannot
be shoehorned into this framework. A review of the cases
demonstrates the novelty of the majority’s holding.
The majority maintains that “an interest in past illegality
can be wholly consistent with an intent to enact remedial
legislation.” Id. at 29. To the extent the precedents support this
general principle, however, it has been applied only in the
context of private individuals. It is well established that

A110

Page 110 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

45
Congress cannot exercise the executive or judicial powers,
which are vested in the other departments of the government.
“[T]he power to investigate must not be confused with any of
the powers of law enforcement; those powers are assigned
under our Constitution to the Executive and the Judiciary.”
Quinn, 349 U.S. at 161. The Court made this general
observation with respect to private individuals, not
impeachable public officials. As far as private individuals are
concerned, Congress emphatically has no law enforcement
powers—no power to indict, to try, or to convict—and cannot
enact a bill of attainder that would single out a person for
punishment through legislation. U.S. CONST. art. I, § 9, cl. 3;
art. I, § 10, cl. 1; see also Brown, 381 U.S. at 445–46 (“[T]he
Legislative Branch is not so well suited as politically
independent judges and juries to the task of ruling upon the
blameworthiness of, and levying appropriate punishment upon,
specific persons. . . . By banning bills of attainder, the Framers
of the Constitution sought to guard against such dangers by
limiting legislatures to the task of rule-making.”).
The cases cited by the majority demonstrate that during an
investigation of private activity, the incidental revelation of
criminal activity is tolerated when Congress has a legitimate
legislative purpose, 15 precisely because Congress cannot take
Even when a valid legislative purpose exists, the Court has been
vigilant in guarding the constitutional rights of private citizens. See
Watkins, 354 U.S. at 198–99 (courts cannot “abdicate the
responsibility placed by the Constitution upon the judiciary to insure
that the Congress does not unjustifiably encroach upon an
individual’s right to privacy nor abridge his liberty of speech, press,
religion or assembly”); Quinn, 349 U.S. at 161; United States v.
Rumely, 345 U.S. 41, 44 (1953) (“[W]e would have to be that ‘blind’
Court . . . not to know that there is wide concern, both in and out of
Congress, over some aspects of the exercise of the congressional
15

A111

Page 111 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

46
any action against a private person for lawbreaking. In
Hutcheson v. United States, the Supreme Court permitted a
Senate committee to investigate the unlawful activity of a
union president despite the fact that, if any wrongdoing was
uncovered, the evidence might have “warranted a separate state
prosecution.” 369 U.S. 599, 617 (1962) (emphasis added). The
union president was, of course, not amenable to prosecution by
Congress. Similarly, in Sinclair v. United States, the Court
allowed a committee to question an oil executive, including on
matters pertaining to pending criminal proceedings involving
that executive. 279 U.S. 263, 290–91, 294–95 (1929). The
proceedings determining the oil executive’s liability or
innocence, however, were being conducted by an entirely
separate branch: the Article III judiciary.
The Court has upheld some congressional investigations
that incidentally uncover unlawful action by private citizens in
part because private individuals cannot be punished by
Congress, but may be prosecuted by the executive branch and
then face trial before an independent judiciary. Cf. Kilbourn,
103 U.S. at 182 (the Constitution requires that prosecutions of
private individuals proceed by “a trial in which the rights of the
party shall be decided by a tribunal appointed by law, which
tribunal is to be governed by rules of law previously
established”). The majority does not explain why precedents
about union presidents and oil executives would apply to the
President when the Constitution provides a wholly separate
mechanism for Congress to impeach, to try, and, if convicted,
to remove the President from office.
Importantly, the majority does not cite a single case in
which the Court has upheld a congressional committee’s
investigation into the past illegality of an impeachable official
power of investigation.” (quoting Bailey v. Drexel Furniture Co.,
259 U.S. 20, 37 (1922))).

A112

Page 112 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

47
for a legislative purpose. In sharp contrast to private
individuals, Congress possesses not only legislative but also
judicial powers over officials amenable to impeachment. This
is a notable and important exception to the separation of
powers—vesting non-legislative powers in the House and
Senate for the limited purpose of checking the actions of certain
high officials. When a legislative investigation turns toward the
wrongdoing of the President or any impeachable official, it has
never been treated as merely incidental to a legislative purpose.
Such investigations require the House to exercise the solemn
powers of the “NATIONAL INQUEST,” The Federalist No.
65, at 338, with all of the procedural protections and
accountability that accompany the decision to target a high
official.
Indeed, in the one case dealing with a subpoena to the
President for legislative purposes, our court did not ask whether
the Senate Select Committee had a valid legislative purpose in
investigating the events surrounding the Watergate break-in.
See Senate Select, 498 F.2d at 732 (“[T]he need for the tapes
premised solely on [Congress’s] asserted power to investigate
and inform cannot justify enforcement of the [Select]
Committee’s subpoena.”). We concluded instead that a
legislative purpose could not justify demanding the President’s
materials “in the peculiar circumstances of this case, including
the subsequent and on-going investigation of the House
Judiciary Committee.” Id. at 733. As our court explained:
[T]he House Committee on the Judiciary has
begun an inquiry into presidential
impeachment . . . .
The sufficiency of the [Select] Committee’s
showing of need has come to depend,
therefore, entirely on whether the
subpoenaed materials are critical to the

A113

Page 113 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

48
performance of its legislative functions.
There is a clear difference between
Congress’s legislative tasks and the
responsibility of a grand jury, or any
institution engaged in like functions. While
fact-finding by a legislative committee is
undeniably a part of its task, legislative
judgments normally depend more on the
predicted consequences of proposed
legislative actions and their political
acceptability, than on precise reconstruction
of past events.
Id. at 732. Thus, we carefully distinguished legislative tasks
from grand jury or similar functions. When the House had
already authorized and was pursuing impeachment
proceedings, we found that the Senate Select Committee’s
legislative need was “too attenuated and too tangential to its
functions to permit a judicial judgment that the President is
required to comply with the Committee’s subpoena.” Id. at 733.
Similarly here, the questions of illegal conduct and interest
in reconstructing specific financial transactions of the President
are “too attenuated and too tangential” to the Oversight
Committee’s legislative purposes. Id. The parallels between
our case and Senate Select continue to unfold, as some type of
“impeachment inquiry” against the President has been invoked
in the House. See, e.g., Letter from Rep. Adam B. Schiff,
Chairman, H. Perm. Select Comm. on Intelligence et al., to
Rudolph Giuliani (Sept. 30, 2019) (transmitting subpoena for
the President’s papers “[p]ursuant to the House of
Representatives’ impeachment inquiry”).
Other cases involving congressional investigations of
public officials confirm the distinction between impeachment
and legislative purposes and demonstrate the caution with
which the Court has ensured Congress is not pursuing

A114

Page 114 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

49
impeachable offenses in a legislative inquiry. For example, in
McGrain, the Supreme Court upheld an investigation of the
Department of Justice only after determining that there was no
targeted inquiry into unlawful action or allegations of
impeachable offenses. The Senate resolution sought
information about “the administration of the Department of
Justice—whether its functions were being properly discharged
or were being neglected or misdirected, and particularly
whether the Attorney General and his assistants were
performing or neglecting their duties.” McGrain, 273 U.S. at
177. While the resolution mentioned Attorney General
Daugherty, the Court emphasized that the Senate was not
“attempting or intending to try the Attorney General at its bar
or before its committee for any crime or wrongdoing.” Id. at
179–80. It was essential to the Court’s decision that the
investigation did not target the unlawful behavior of the
Attorney General. See id. at 178–80.
The majority draws a different “lesson” from McGrain:
“that an investigation may properly focus on one individual if
that individual’s conduct offers a valid point of departure for
remedial legislation.” Maj. Op. 31. The majority places
emphasis on the Court’s statement, “[n]or do we think it a valid
objection to the investigation that it might possibly disclose
crime or wrongdoing on [the Attorney General’s] part.”
McGrain, 273 U.S. at 179–80. Yet the Court also stressed that
Congress was not targeting the unlawful behavior of an
impeachable official and that “[i]t is not as if an inadmissible
or unlawful object were affirmatively and definitely avowed.”
Id. at 180. In McGrain, the Court determined that the inquiry
at issue was a legislative one, and specifically did not target
“crime or wrongdoing.” 16 Id. Thus, the majority cannot rely on
The Supreme Court in McGrain did not question the legal principle
articulated by the district court that to investigate the illegal conduct

16

A115

Page 115 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

50
McGrain for its novel holding that Congress can investigate
illegal conduct of an impeachable official pursuant to the
legislative power.
Similarly, in Kilbourn, the Court invalidated a subpoena
against the Secretary of the Navy because it lacked a legitimate
legislative purpose, while noting that “the whole aspect of the
case would have been changed” if the investigation related to
impeachment. 103 U.S. at 193. No purpose of impeachment
could be found, however, from the preamble characterizing the
Secretary of the Navy’s conduct as “improvident.” Id. The
Court concluded that “the absence of any words implying
suspicion of criminality repel the idea of such [impeachment]
purpose, for the secretary could only be impeached for ‘high
crimes and misdemeanors.’” Id. In McGrain and Kilbourn, the
Court allows Congress some leeway in its legislative
investigations so long as it is not seeking to use the legislative
power to circumvent the impeachment process.
By contrast, the gravamen of the Oversight Committee’s
investigation in this case is the President’s wrongdoing. The
Committee has “affirmatively and definitely avowed,”
McGrain, 273 U.S. at 180, its suspicions of criminality against
the President. As we recognized in Senate Select, such inquiries
are outside the legislative power in part because they pertain to
subjects proper to an impeachment proceeding in the House,
which like a grand jury must assess whether “certain named
of the Attorney General would be an exercise of the judicial power.
But see Maj. Op. 48 (contending the Supreme Court rejected the
district court’s reasoning in McGrain). Instead, the Supreme Court
simply disagreed with the district court’s characterization of the
proceedings, which were not about the wrongdoing of the Attorney
General but the administration of the Department of Justice as a
whole. “[W]hen the proceedings are rightly interpreted, [ ] the object
of the investigation . . . was to obtain information for legislative
purposes.” McGrain, 273 U.S. at 177.

A116

Page 116 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

51
individuals did or did not commit specific crimes.” 498 F.2d at
732. The majority’s conclusion is inconsistent with our
precedents, which confirm that investigations of the illegal
conduct of an impeachable official cannot be pursued through
the legislative power.
***
This subpoena goes beyond the legislative power precisely
because it seeks to reconstruct whether the President broke the
law. The Constitution creates a wholly separate impeachment
power for such inquiries. The majority implicitly collapses
these distinct powers when it concludes that the Committee’s
“interest in determining whether and how illegal conduct has
occurred . . . is in direct furtherance of its legislative purpose.”
Maj. Op. 31. Yet the legislative and impeachment powers are
not interchangeable. Congress, the President, and the courts
have consistently maintained a careful line between these
distinct powers. Thus, I would find that this subpoena exceeds
the legislative power of Congress because it seeks to uncover
wrongdoing by the President.
IV.
By collapsing the distinction between Congress’s
legislative and impeachment powers, the majority’s decision
has serious consequences for the separation of powers. The
decision today expands the legislative power beyond
constitutional boundaries, calling into question our precedents
for reviewing the scope of congressional investigations;
interpreting the legislative power of Congress to subsume the
impeachment power; and permitting serious encroachments on
the executive branch. For the majority, the fact that Congress
seeks the President’s papers is just a “twist” on the history of
congressional investigations. Maj. Op. 65. In our government
of three separate and co-equal departments, the targeting of the

A117

Page 117 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

52
President in a congressional subpoena seeking evidence of
illegal conduct is no mere “twist,” but the whole plot.
A.
At bottom, the majority and I disagree about the meaning
of the legislative power and whether Congress can use this
power to conduct investigations of illegal conduct by the
President. Yet the framework employed by the majority both
decides too little and too much. To begin with, even though the
majority determines that the House has the power to issue this
subpoena, our precedents require making a separate inquiry
regarding the scope of the Committee’s delegated authority. 17
The majority begins by recognizing as much: “it matters not
whether the Constitution would give Congress authority to
issue a subpoena if Congress has given the issuing committee
no such authority.” Maj. Op. 18. The majority, however,
collapses this two-part inquiry by concluding that “[b]ecause
Congress already possesses—in fact, has previously exercised,
see supra at 16–17—the authority to subpoena Presidents and
their information, nothing in the House Rules could in any way
‘alter the balance between’ the two political branches of
government.” Id. at 59–60 (quoting Armstrong v. Bush, 924
F.2d 282, 289 (D.C. Cir. 1991)). The only evidence presented
to support the conclusion that Congress possesses this authority
is a citation to the majority’s analysis—which, as discussed
above, fails to provide a single historical example of a
Because I conclude that Congress lacks the authority to issue this
subpoena pursuant to the legislative power, it follows that the House
could not delegate such authority to the Oversight Committee. See,
e.g., Rumely, 345 U.S. at 42–43 (in assessing validity of
congressional investigation, court must determine “whether
Congress had the power to confer upon the committee the authority
which it claimed”); Kilbourn, 103 U.S. at 196 (committee has “no
lawful authority” to investigate if authorizing resolution is “in excess
of the power conferred on [the House] by the Constitution”).

17

A118

Page 118 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

53
successful subpoena to investigate a president for legislative
purposes. Instead, the majority stitches together a few
examples of subpoenas that issued to other officials,
investigations of agency administration, presidents voluntarily
sharing information with Congress, and one case from our
court invalidating the only similar subpoena, which was issued
to President Nixon during the Watergate investigations. Id. at
16–17; see also Senate Select, 498 F.2d at 733. On this flimsy
foundation, the majority concludes that it cannot scrutinize the
House Rules “absent a substantial constitutional question
pertaining to the House’s legislative power.” Maj. Op. 63.
This conclusion is unsupported by the Supreme Court’s
decisions in this area, which have required courts not only to
consider the scope of legislative power possessed by the House
or Senate as a whole, but to inquire specifically whether that
power has been delegated to a particular Committee. See
United States v. Rumely, 345 U.S. 41, 42–43 (1953) (“This
issue—whether the committee was authorized to exact the
information which the witness withheld—must first be settled
before we may consider whether Congress had the power to
confer upon the committee the authority which it claimed.”);
Watkins, 354 U.S. at 201 (“An essential premise . . . is that the
House or Senate shall have instructed the committee members
on what they are to do with the power delegated to them.”).
This delegation of authority has separate importance because,
as the Court has admonished, Congress should not separate
power from responsibility. Watkins, 354 U.S. at 215.
The scope of delegation particularly matters when
Congress seeks to investigate a co-equal branch of government.
Requiring a clear statement creates an important form of
accountability by giving notice to the executive branch.
Accordingly, “[w]henever constitutional limits upon the
investigative power of Congress have to be drawn by this
Court, it ought only to be done after Congress has demonstrated

A119

Page 119 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

54
its full awareness of what is at stake by unequivocally
authorizing an inquiry of dubious limits.” Rumely, 345 U.S. at
46. We have applied this rule with special force in oversight
investigations: “[T]he courts have adopted the policy of
construing such resolutions of authority narrowly, in order to
obviate the necessity of passing on serious constitutional
questions.” Tobin v. United States, 306 F.2d 270, 274–75 (D.C.
Cir. 1962).
Moreover, “[o]ut of respect for the separation of powers
and the unique constitutional position of the President,” the
Court requires “an express statement by Congress” before
subjecting the President to legislative restrictions and
oversight. Franklin v. Massachusetts, 505 U.S. 788, 800–01
(1992); see also Armstrong, 924 F.2d at 289. These
longstanding interpretive principles recognize that
congressional encroachments upon the President raise serious
constitutional questions, and courts should not reach out to
decide such questions unless Congress squarely raises the
issue. 18 One might say Congress does not hide presidents in
The ordinary analysis of congressional authorization is somewhat
complicated in this case because, after oral argument, the House
enacted a resolution ratifying “all current and future investigations,
as well as all subpoenas previously issued or to be issued . . . to [inter
alia] the President in his personal or official capacity.” H.R. Res.
507, 116th Cong. (July 24, 2019). The majority, however, does not
rely on this Resolution to provide a clear statement, but merely to
“confirm” the plain meaning of the House Rules, because all the
parties agree that the Resolution does not expand the Committee’s
jurisdiction. Importantly, the majority properly expresses skepticism
and leaves open the question of whether such a resolution can indeed
provide a post hoc expansion of a committee’s subpoena authority.
Maj. Op. 63–64. I similarly decline to speculate about the validity of
a resolution that reaches both forwards and backwards in time to
authorize investigations of the President. See Dombrowski v.

18

A120

Page 120 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

55
mouseholes. Cf. Whitman v. Am. Trucking Ass’ns, Inc., 531
U.S. 457, 468 (2001).
Thus, even on the majority’s assertion that the House
possesses the legislative power to issue this subpoena, the
Committee might not. The House Rules may upset the balance
of power by failing to provide notice to the President. 19 While
courts should properly refrain from micromanaging the House
Rules, our precedents require reviewing whether Congress has
taken responsibility for pushing up against constitutional
limitations. See Watkins, 354 U.S. at 205–06. In the novel
circumstances of this case, the majority has eviscerated this
longstanding principle and essentially collapsed the broader
question of constitutional power and the question of a
committee’s delegated authority.
Burbank, 358 F.2d 821, 825 (D.C. Cir. 1966) (“Whether this
apparently approving action by the full Subcommittee would serve
as a nunc pro tunc ratification and consequent validation of the
subpoena for all purposes, we need not decide.”), rev’d in part on
other grounds sub nom. Dombrowski v. Eastland, 387 U.S. 82
(1967).
Even without applying the clear statement rule, the majority’s
“natural reading” of the House Rules to include this subpoena is
hardly natural, given that for over 200 years the House has declined
to investigate the wrongdoing of the President without clearly
designating a special committee or resolution for that purpose. That
historical backdrop casts significant doubt on the majority’s
interpretation that a rule making no reference to the President should
be read to encompass the President. See Tobin, 306 F.2d at 275 (“[I]f
Congress had intended the Judiciary Committee to conduct such a
novel investigation it would have spelled out this intention in words
more explicit than the general terms found in the authorizing
resolutions under consideration.”); Barenblatt, 360 U.S. at 117–18
(noting that a vague House rule may acquire content through its
“long history” and the “course of congressional actions”).
19

A121

Page 121 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

56
Another difficulty with the majority’s approach is that it
focuses on the legislative power in isolation, and therefore
proceeds to determine the contours of what legislation could be
had in an area rife with constitutional concerns. See, e.g., Letter
From Laurence H. Silberman, Acting Att’y Gen., to Rep.
Howard W. Cannon, Chairman, H. Comm. on Rules and
Administration 4–5 (Sept. 20, 1974) (construing conflicts of
interest legislation governing the “executive branch” to apply
to the President raises “serious questions of constitutionality”
as such legislation could “disable him from performing some
of the functions required by the Constitution or [] establish a
qualification for his serving as President (to wit, elimination of
financial conflicts) beyond those contained in the
Constitution”). Responding in part to arguments from the
appellants, the majority marches through a very detailed and,
in my view, unnecessary analysis of what specific forms of
legislation might be possible in this area. Maj. Op. 36–45.
The majority concludes that amendments to “the Ethics in
Government Act . . . to require Presidents and presidential
candidates to file reports more frequently, to include
information covering a longer period of time, or to provide new
kinds of information such as past financial dealings with
foreign businesses or current liabilities of closely held
companies” would pass constitutional muster. Id. at 38–39. The
majority also affirms that some category of theoretical laws
requiring presidents to disclose evidence of potential conflicts
of interest and other financial matters constitute a “less
burdensome species of laws” than similarly hypothetical laws
requiring presidents to divest assets or recuse from conflicted
matters. Id. at 38. Based on this analysis of the relative
constitutionality of as-yet-unenacted laws, the majority
informs us that we can comfortably conclude such financial
disclosure laws of the future would not “prevent[] the
[President] from accomplishing [his] constitutionally assigned
functions.” Id. at 39–40 (alterations in original) (quoting Nixon

A122

Page 122 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

57
v. Adm’r of Gen. Servs., 433 U.S. 425, 443 (1977)). More
troubling still, the majority declares that a statute “facilitating
the disclosure of” any payment of “foreign emoluments” to the
President would “surely . . . lie[] within constitutional limits,”
id. at 40, notwithstanding the fact that the scope of the Foreign
Emoluments Clause is an unresolved question that is currently
pending before this court. See Blumenthal v. Trump, No. 195237, filed Sept. 4. 2019 (D.C. Cir.). The majority passes on
the constitutionality of a range of different legislative
possibilities without a single enacted statute before us.
In the absence of any statute that has run the Article I,
section 7, gauntlet, such determinations are advisory at best.
The Article III judicial power extends to deciding cases, not
applying “statutory litmus test[s],” Maj. Op. 37. From the
Founding Era to the present, our courts have refrained from
opining on the constitutionality of legal issues outside of a live
case or controversy. See Chamber of Commerce v. EPA, 642
F.3d 192, 208 (D.C. Cir. 2011) (“To seek judicial review of . . .
a contemplated-but-not-yet-enacted [statute] is to ask the court
for an advisory opinion in connection with an event that may
never come to pass.”); Letter from Chief Justice John Jay and
the Associate Justices of the Supreme Court to President
George Washington (Aug. 8, 1793) (declining the President’s
request to issue an advisory opinion). I would avoid passing on
such questions and simply recognize that an investigation into
the illegal conduct of the President is outside the legislative
power altogether because it belongs to the House’s power of
impeachment for high crimes and misdemeanors.
B.
By allowing the Oversight Committee to use the
legislative power to circumvent the impeachment power, the
majority substantially disrupts the careful balance between
Congress and the other departments. The text and structure of
the Constitution, along with unbroken historical practice, make

A123

Page 123 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

58
plain the importance of maintaining a line between these
distinct investigative powers—one ancillary to the legislative
power, and the other an exercise of the House’s judicial power
of impeachment. The concerns underlying the distinction are
fundamental and no mere anachronism.
To begin with, permitting this subpoena allows Congress
to use its substantial legislative power to gather information
that may be used for impeachment without the protections
inherent in an impeachment investigation or proceeding.
Impeachable officials are protected from ill-considered
exercises of this power through careful constitutional design.
The Constitution divides the impeachment and removal powers
between the House and Senate, U.S. CONST. art. I, § 2, cl. 5;
art. I, § 3, cl. 6; limits the scope of impeachable offenses, U.S.
CONST. art. II, § 4; and provides for limited punishments upon
conviction by the Senate, U.S. CONST. art. I, § 3, cl. 7. Senate
trials of impeachment are an exercise of judicial power and
have always been understood to include constitutional and
common law protections similar to what might be available in
the judicial context. Marshall, 243 U.S. at 546–48; Kilbourn,
103 U.S. at 191; Jefferson’s Manual §§ 592, 619 (“The trial . . .
differs not in essentials from criminal prosecutions before
inferior courts.”); 3 Hinds § 2486 (“[S]uch rules must be
observed as are essential to justice.” (quoting Op. Att’y Gen.
of May 9, 1796)); 2 Story § 796 (“[T]he same rules of evidence,
the same legal notions of crimes and punishments prevail.”).
Allowing the use of legislative power to reach illegal
conduct undermines the protections afforded to officials being
investigated for impeachable offenses. These protections are
essential given the obvious harms to the reputation and honor
of officials targeted through the very public process of
impeachment. See The Federalist No. 65, at 338 (“The delicacy
and magnitude of a trust which so deeply concerns the political

A124

Page 124 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

59
reputation and existence of every man engaged in the
administration of public affairs, speak for themselves.”).
Moreover, expanding the legislative power to include
investigations of illegal conduct eviscerates Congress’s
accountability for impeachment. Such accountability is an
essential protection for the People, who elect the President as
well as Members of Congress, and thus have an undeniable
stake in any congressional targeting of the Chief Executive and
his chosen officers. The majority allows Congress to evade
public accountability by permitting investigations of the
President for illegal conduct outside the “grave and weighty”
impeachment process. See Maj. Op. 47. With impeachment, the
Constitution unites power with responsibility. Impeachment
and removal are Congress’s “sword of Damocles,” but the
House and Senate must pay a political price for using these
powers. William H. Rehnquist, Grand Inquests 270 (1992); see
also Gerhardt, The Federal Impeachment Process 57 (“[T]he
framers deliberately made the impeachment process
cumbersome in order to make impeachment difficult to
achieve.”); O’Sullivan, Impeachment and the Independent
Counsel Statute, 86 GEO. L.J. at 2229–30 (“The Framers
intentionally designed the impeachment device to make its
successful invocation difficult in order to ensure that civil
officers would not be unduly dependent upon the legislative
branch.”).
The House and Senate have consistently maintained the
importance of this responsibility and explicitly invoked the
impeachment power when pursuing official wrongdoing. See,
e.g., 3 Hinds § 2400 (opening Johnson impeachment inquiry);
H.R. Res. 803, 93d Cong. (opening Nixon impeachment
inquiry); H.R. Res. 581, 105th Cong. (opening Clinton
impeachment inquiry). Presidents since George Washington
have declined demands to produce documents for legislative
purposes, while acknowledging that the same request pursuant

A125

Page 125 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

60
to the impeachment power might be treated differently. See
supra Part II; see also Position of the Executive Department
Regarding Investigative Reports, 40 Op. Att’y Gen. 45, 51
(1941) (Attorney General Robert Jackson declining to provide
information to Congress about pending FBI investigations, but
noting that “pertinent information would be supplied in
impeachment proceedings”). 20
Overlooking the special procedures and accountability
attendant to an impeachment proceeding, the district court
conflated the legislative and judicial powers of the House. With
no support in the text, structure, or history of the Constitution,
the district court cited the impeachment power to bootstrap a
more expansive legislative power to investigate individual
wrongdoing: “It is simply not fathomable that a Constitution
that grants Congress the power to remove a President for
reasons including criminal behavior would deny Congress the
power to investigate him for unlawful conduct—past or
present—even without formally opening an impeachment
inquiry.” Trump, 380 F. Supp. 3d at 95.
The district court suggests that the greater power of
impeachment and removal must include the lesser legislative
power to investigate illegal actions by the President. Yet the
Constitution is not designed this way. The greater power does
not include the lesser in a Constitution that explicitly vests
Congress with limited and enumerated legislative powers and
As the Committee has not relied on the impeachment power for
this subpoena, I do not consider whether or how this court would
assess such a demand for documents under the impeachment power.
I simply note that Congress, the Executive, and the courts have
maintained that requests under the legislative and impeachment
powers may be treated differently. See, e.g., Kilbourn, 103 U.S. at
193 (were the investigation related to impeachment, “the whole
aspect of the case would have been changed”).
20

A126

Page 126 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

61
then provides for a wholly separate impeachment power with
different objects, processes, and limits. It is not only
fathomable, but essential, that the impeachment and legislative
powers remain distinct. The power of impeachment does not
somehow expand the power to investigate for legislative
purposes.
The majority similarly recognizes no separation between
the House’s judicial and legislative powers. But once the
boundary between the legislative and judicial powers is
breached, it is hard to discern any limit to the reach of the
legislative power of investigation. Perhaps the functionalist
approach to reading the Constitution has obscured the essential
core of the constitutional powers vested in each of the three
branches. The legislative power focuses on prospective,
general rules for governing society. One thing it has never been
is the power to reconstruct and punish individual actions,
whether of private individuals or public officials. Private and
public individuals are protected by the Bill of Attainder
Clauses, U.S. CONST. art. I, § 9, cl. 3; art. I, § 10, cl. 1, and
Congress may pursue the high crimes and misdemeanors of
impeachable officials exclusively through the impeachment
power, U.S. CONST. art. I, § 2, cl. 5; art. I, § 3, cl. 6.
Thus, it should be startling when the majority asserts it is
a “quintessentially legislative judgment that some concerns
about potential misconduct are better addressed through . . .
legislation than impeachment.” Maj. Op. 49. The majority
argues in effect that Congress must be able to choose to target
the wrongdoing of the President through its legislative powers,
instead of impeachment. If this does not quite sanction a bill of
attainder, it comes awfully close. The majority’s assertions that
Congress can simply choose between legislation and
impeachment when the President’s wrongdoing is at issue are
unsupported by any constitutional provision and provide no
rebuttal to the remarkably consistent historical understanding,

A127

Page 127 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

62
which demonstrates that both the executive branch and
Congress, despite their conflicting interests, have steadfastly
maintained the necessity of pursuing wrongdoing of public
officials through impeachment.
The majority attempts to bolster its argument by
referencing a functional separation of powers and citing to
interpretations of Madison’s statement in Federalist 47 that the
separation of powers “do[es] not mean that these departments
ought to have no partial agency in, or no control over, the acts
of each other.” Id. at 43 (citing Clinton v. Jones, 520 U.S. 681,
702–03 (1997), and Nixon v. Adm’r of Gen. Servs., 433 U.S. at
442–43). Yet Madison’s words are being taken out of context.
In Federalist 47, Madison makes this statement when
interpreting Montesquieu’s theory of separation of powers. See
The Federalist No. 47, at 251 (James Madison). Madison’s
primary point is that “[n]o political truth is certainly of greater
intrinsic value, or is stamped with the authority of more
enlightened patrons of liberty,” than the maxim that “the
legislative, executive, and judiciary departments, ought to be
separate and distinct.” Id. at 249. The general rule of the
Constitution is separation of powers—but the Constitution
includes certain specific exceptions to the general rule, such as
requiring the advice and consent of the Senate in the
appointment of executive officers, or placing the judicial power
of impeachment in the House and Senate. These exceptions
reinforce the system of checks and balances and “provide some
practical security for each, against the invasion of the others.”
The Federalist No. 48, at 256–58 (James Madison). Madison
explains at length the deliberate structure of the Constitution,
which permits overlap or sharing of powers for limited
purposes without collapsing any one branch into dependence
on another.
The exceptions to the separation of powers, however, have
never been mistaken as a rule of flexible blending of powers

A128

Page 128 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

63
for the sake of convenience or expediency. To the contrary, the
Court has read the exceptions narrowly and interpreted them to
reinforce the constitutional limits that separate the three powers
of the federal government. See Myers, 272 U.S. at 116 (“[T]he
reasonable construction of the Constitution must be that the
branches should be kept separate in all cases in which they were
not expressly blended, and the Constitution should be
expounded to blend them no more than it affirmatively
requires.”). The majority alleges that this dissent “would
reorder the very structure of the Constitution,” Maj. Op. 49, but
provides no analysis of the Constitution to support its assertion.
Similarly, the majority offers no evidence from the original
meaning, historical practice, or our judicial precedents for its
contrived claim that Congress can simply choose to use either
the legislative or impeachment powers when investigating the
President for violations of the law.
Instead, the majority chooses to march out a parade of
horribles about what might happen if Congress were unable to
investigate illegal conduct under its legislative power. Id. at
46–47, 48–49. Contrary to the majority’s ahistorical alarm,
maintaining the separation of the legislative and impeachment
powers will in no way prevent the House from continuing to
pursue remedial legislation. I do not question the longstanding
recognition that Congress possesses the ability to investigate as
necessary and proper to effectuate the legislative power. Such
investigations can provide important and salutary oversight of
administration of the laws and study the basis for new
legislation. Yet targeting officials for impeachable offenses
must proceed, and always has proceeded, through the
impeachment power.
Thus, there is no “Hobson’s Choice” here between
impeachment or nothing, id. at 49, because whether the House
moves forward with impeachment or not, Congress retains all
of the legislative powers it has under the Constitution to

A129

Page 129 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

64
introduce and enact legislation. The fact that Congress cannot
reconstruct “whether and how” the President violated the law
as part of the legislative power does not “strip[] Congress of its
power to legislate.” Id. Indeed, frustration with lack of access
to documents might prompt Congress to attempt legislation that
requires such disclosure in the future, and similar legislation
has already been proposed. See, e.g., H.R. 1, 116th Cong.,
§§ 8012, 8013 (2019) (increasing stringency of presidential
corporate financial disclosure requirements). To treat an
inquisitorial power as essential to legislation is to
misunderstand the legislative power in the context of our
constitutional system of separated powers. The Committee
cannot use a legislative purpose to circumvent the House’s
power to serve as the grand inquest of the nation when
investigating the illegal conduct of the President.
C.
Allowing the legislative power to reach investigation of
impeachable offenses provides Congress with a new bludgeon
against the Executive, making it all too easy for Congress to
encroach on the executive branch by targeting the President
and his subordinates through legislative inquiries. See Nixon v.
Fitzgerald, 457 U.S. 731, 743 (1982) (a “special solicitude [is]
due to claims alleging a threatened breach of essential
Presidential prerogatives under the separation of powers”). The
majority incorrectly asserts “no party argues that compliance
with the subpoena would impair the President’s execution of
the Article II power.” Maj. Op. 46; see also id. at 64–65. To the
contrary, both the Trump plaintiffs and the Department of
Justice argue that this subpoena may “distract a President from
his public duties, to the detriment of not only the President and
his office but also the Nation that the Presidency was designed
to serve.” Appellants Reply Br. 3 (quoting Fitzgerald, 457 U.S.
at 753); see also DOJ Br. 6 (“[C]ongressional committees may
issue successive subpoenas in waves, making far-reaching

A130

Page 130 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

65
demands that harry the President and distract his attention.”
(citing Rumely, 345 U.S. at 46)). The majority repeatedly states
that the precedents allow Congress to choose between the
legislative and impeachment powers, but only where “no
intrusion on the President’s execution of his official duties is
alleged.” Maj. Op. 46; see also id. at 45. Yet contrary to the
majority’s assertions, both the Department of Justice and the
President have alleged that the subpoena encroaches on the
executive power, which substantially undermines the
majority’s premise.
By allowing any claim of a remedial legislative purpose to
justify an investigation into the “illegal conduct” of the
President, the majority effectively expands the already
expansive legislative power. Cf. Brewster v. United States, 255
F.2d 899, 901 (D.C. Cir. 1958) (rejecting an interpretation that
“for all practical purposes, would give the Committee on
Government Operations jurisdiction to investigate virtually
every activity engaged in by every person in the land”).
Pursuant to its legislative powers, Congress already has
substantial leeway to investigate how executive officers are
administering their duties. Yet allowing Congress to use the
legislative power to investigate individual officials for
unlawful conduct takes “oversight” to a whole new level. The
Constitution provides in effect that Congress cannot reach such
allegations by “side-blows,” Cong. Globe, 29th Cong., 1st
Sess. 641 (1846) (statement of Rep. Adams), but must instead
proceed through impeachment. Cf. Morrison v. Olson, 487 U.S.
654, 713 (1988) (Scalia, J., dissenting) (“How much easier it is
for Congress, instead of accepting the political damage
attendant to the commencement of impeachment proceedings
against the President on trivial grounds . . . simply to trigger a
debilitating criminal investigation of the Chief Executive.”).
Unhindered by the constitutional mechanisms of
accountability, Congress can expand its incursions against the

A131

Page 131 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

66
Executive. As Madison cautioned, Congress’s “constitutional
powers being at once more extensive, and less susceptible of
precise limits, it can, with the greater facility, mask under
complicated and indirect measures, the encroachments which
it makes on the co-ordinate departments.” The Federalist No.
48, at 257; see also Zivotofsky, 135 S. Ct. at 2096 (“It was an
improper act for Congress to ‘aggrandize its power at the
expense of another branch.’” (quoting Freytag v. Comm’r, 501
U.S. 868, 878 (1991))).
The majority takes a narrow view of potential harms to the
executive branch—suggesting that such harms result largely
from the inconvenience of the President having to produce
documents or make copies himself. Maj. Op. 34–35, 65. Yet
using the legislative power to target and uncover illegal
conduct by executive officials provides Congress with an
additional form of control over executive officials who
otherwise must be within the direction and control of the
President. See U.S. CONST. art. II, § 1, cls. 1, 8; art. II, § 3; Free
Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 493 (2010) (invalidating restrictions on the removal power
that would “impair[]” the President’s “ability to execute the
laws [] by holding his subordinates accountable for their
conduct”); Myers, 272 U.S. at 163–64 (“[A]rticle 2 grants to
the President the executive power of the government, i. e., the
general administrative control of those executing the laws.”).
The President cannot “take Care that the Laws be faithfully
executed,” U.S. CONST. art. II, § 3, if his subordinates are
exposed to inquisitorial jeopardy through the ordinary
legislative power.
Under the majority’s decision, Congress may choose to
launch investigations of illegal conduct under the legislative
power—a choice that under the current rules may be
implemented by a single committee chairman without the
accountability and deliberation that precede impeachment. And

A132

Page 132 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

67
while this case deals only with a single subpoena, the
recognition of a wholly unprecedented power to investigate
shifts the balance between the branches and may unleash
additional subpoenas against the President or his subordinates,
which “may, like a flicking left jab, confound the Executive
Branch in dealing with Congress.” In re Sealed Case, 838 F.2d
476, 508 (D.C. Cir. 1988) (Silberman, J.), rev’d sub nom.
Morrison v. Olson, 487 U.S. 654 (1988).
While congressional oversight investigations may probe a
wide range of matters and often are no picnic for executive
officials, such investigations may proceed ancillary to the
legislative power. Allegations and reconstructions of illegal
conduct, however, are an entirely different matter. If a
congressional committee can invoke a legislative purpose to
subpoena information targeting unlawful actions by the
President, imagine the peril for other officers who lack the
ability to fend off such requests and cannot depend on the
visibility and public mandate that follow the President. Cf.
Morrison, 487 U.S. at 713 (Scalia, J., dissenting) (“[A]s for the
President’s high-level assistants, who typically have no
political base of support, it is [] utterly unrealistic to think that
they will not be intimidated by this prospect [of an independent
counsel], and that their advice to him and their advocacy of his
interests before a hostile Congress will not be affected . . . . It
deeply wounds the President, by substantially reducing the
President’s ability to protect himself and his staff.”). The
prospect of a Congress that can use the legislative power, rather
than impeachment, to reach illegal conduct of executive
officers could very well “weaken the Presidency by reducing
the zeal of his staff.” Id.
***
Allowing Congress to investigate impeachable officials
for suspicions of criminality pursuant to the legislative power
has serious consequences for the separation of powers because

A133

Page 133 of 134

USCA Case #19-5142

Document #1810450

Filed: 10/11/2019

68
it allows Congress to escape the responsibility and
accountability inherent in impeachment proceedings.
Congressional aggrandizement in this case comes at the
expense of the Executive, which no longer can rely on
procedural protections when Congress, or a single committee
chairman, determines to investigate unlawful activity of the
President. The House’s overreaching also comes at the expense
of the People, who established a Constitution with specific
processes for electing both Members of Congress and the
President and which provides only one way for Congress to
punish and remove the President.
V.
The familiar tale recounted by the majority describes a
general arc of expanding legislative powers and the
accompanying recognition of Congress’s power to investigate
ancillary to those powers. Yet the more specific story here
pertains to the fundamental separation between the legislative
and judicial powers of Congress. When the House chooses to
investigate the President for alleged violations of the laws and
the Constitution, it must proceed through impeachment, an
exceptional and solemn exercise of judicial power established
as a separate check on public officials. This constitutional
principle was articulated by George Washington in 1796 and
by the House in 1998: “The Constitution contains a single
procedure for Congress to address the fitness for office of the
President of the United States—impeachment by the House,
and subsequent trial by the Senate.” H.R. Rep. No. 105-830, at
137 (report of the House Judiciary Committee recommending
articles of impeachment).
The Constitution and our historical practice draw a
consistent line between the legislative and judicial powers of
Congress. The majority crosses this boundary for the first time
by upholding this subpoena investigating the illegal conduct of
the President under the legislative power. I respectfully dissent.

A134

Page 134 of 134

USCA Case #19-5142

Document #1810446

Filed: 10/11/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5142

September Term, 2019
FILED ON: OCTOBER 11, 2019

DONALD J. TRUMP, ET AL.,
APPELLANTS
v.
MAZARS USA, LLP AND COMMITTEE ON OVERSIGHT AND REFORM OF THE U.S. HOUSE OF
REPRESENTATIVES,
APPELLEES
Appeal from the United States District Court
for the District of Columbia
(No. 1:19-cv-01136)
Before: TATEL, MILLETT and RAO, Circuit Judges
JUDGMENT
This cause came on to be heard on the record on appeal from the United States District
Court for the District of Columbia and was argued by counsel. On consideration thereof, it is
ORDERED and ADJUDGED that the judgment of the District Court appealed from in this
cause be affirmed, in accordance with the opinion of the court filed herein this date.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

Date: October 11, 2019
Opinion for the court filed by Circuit Judge Tatel.
Dissenting opinion filed by Circuit Judge Rao.

A135

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Filed On: November 13, 2019
No. 19-5142
DONALD J. TRUMP, ET AL.,
APPELLANTS
v.
MAZARS USA, LLP AND COMMITTEE ON OVERSIGHT AND
REFORM OF THE U.S. HOUSE OF REPRESENTATIVES,
APPELLEES

Appeal from the United States District Court
for the District of Columbia
(No. 1:19-cv-01136)

On Petition for Rehearing En Banc

Before: GARLAND, Chief Judge; HENDERSON*,
ROGERS, TATEL, GRIFFITH, SRINIVASAN, MILLETT, PILLARD,
WILKINS, KATSAS*, and RAO*, Circuit Judges.
ORDER
Appellants’ petition for rehearing en banc and the
response thereto were circulated to the full court, and a vote
was requested. Thereafter, a majority of the judges eligible to
participate did not vote in favor of the petition. Upon
consideration of the foregoing, it is

A136

2
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk

* Circuit Judges Henderson, Katsas, and Rao would grant
the petition.
A statement by Circuit Judge Katsas, with whom Circuit
Judge Henderson joins, dissenting from the denial of
rehearing en banc, is attached.
A statement by Circuit Judge Rao, with whom Circuit
Judge Henderson joins, dissenting from the denial of
rehearing en banc, is attached.

A137

KATSAS, Circuit Judge, with whom Circuit Judge
HENDERSON joins, dissenting from the denial of rehearing en
banc:
If the competing opinions here demonstrate anything, it is
that this case presents exceptionally important questions
regarding the separation of powers among Congress, the
Executive Branch, and the Judiciary. For the second time in
American history, an Article III court has undertaken to enforce
a congressional subpoena for the records of a sitting President.
The first time that was attempted, we took the case en banc,
refused to enforce the subpoena, and stressed that the
availability of impeachment foreclosed any conclusion that the
records at issue were “demonstrably critical to the responsible
fulfillment” of Congress’s legislative prerogatives, even when
Congress was investigating significant allegations of
presidential misconduct. Senate Select Comm. on Presidential
Campaign Activities v. Nixon, 498 F.2d 725, 731–33 (D.C. Cir.
1974) (en banc).
This case differs from Senate Select Committee in two
respects, but neither diminishes its comparative importance.
First, the subpoena at issue is directed not to the President
directly, but to an accounting firm holding his personal
financial records. Yet as Judge Rao has explained, that
difference in form does not matter, because the subpoena in
substance targets his records. Trump v. Mazars USA, LLP, No.
19-5142, slip op. at 9–11 (Rao, J., dissenting). Second, Senate
Select Committee involved official communications over
which the President had asserted executive privilege, whereas
this case involves personal records and no privilege assertion.
But that difference cuts in both directions. On the one hand,
this case does not implicate the President’s need to secure
candid advice from close governmental advisors—the interest
supporting a presidential communications privilege covering
various official-capacity records. See, e.g., In re Sealed Case,
121 F.3d 729, 742–44 (D.C. Cir. 1997). On the other hand, the

A138

2
unavailability of that privilege creates an open season on the
President’s personal records. Under the panel’s analysis,
whenever Congress conceivably could pass legislation
regarding the President, it also may compel the President to
disclose personal records that might inform the legislation.
And precisely because such demands would target his personal
records, the President would have no privilege-based ground
for making the records even “presumptively” unavailable. See
id. at 744.
This threat to presidential autonomy and independence is
far greater than that presented by compulsory process issued by
prosecutors in criminal cases, as in United States v. Nixon, 418
U.S. 683 (1974), or even by private plaintiffs in civil cases, as
in Clinton v. Jones, 520 U.S. 681 (1997). In those
circumstances, governing rules provide for trimming any
requests to avoid “embarrassment, oppression, or undue
burden.” Fed. R. Civ. P. 26(c)(1); see also Fed. R. Crim. P.
17(c)(2). Moreover, the rules are applied by judges instructed
that avoiding “potential burdens on the President … should
inform the conduct of the entire proceeding.” Clinton v. Jones,
520 U.S. at 707.
By contrast, under the panel’s
uncompromising extension of McGrain v. Daugherty, 273 U.S.
135 (1927), and its progeny to the President, the courts are
powerless to take comparable considerations into account. See
Mazars USA, LLP, slip op. at 23. Thus, the scope of required
disclosure is determined not by neutral judges applying some
form of rule-based interest balancing, but by the whim of
Congress—the President’s constitutional rival for political
power—or even, as in this case, by one committee of one
House of Congress. With regard to the threat to the Presidency,
“this wolf comes as a wolf.” Morrison v. Olson, 487 U.S. 654,
699 (1988) (Scalia, J., dissenting).

A139

RAO, Circuit Judge, with whom Circuit Judge HENDERSON
joins, dissenting from the denial of rehearing en banc:
I would grant rehearing en banc for the reasons expressed
in my dissent to the panel opinion. See Trump v. Mazars USA,
LLP, 940 F.3d 710, 748–84 (D.C. Cir. 2019) (Rao, J.,
dissenting). The House Committee on Oversight and Reform
issued a subpoena to President Trump’s accounting firm,
Mazars USA, LLP, seeking evidence of alleged illegal conduct
by the President. The Committee has relied throughout this
litigation on Congress’s legislative power as the authority for
its subpoena. As I explained, the Committee exceeded its
constitutional authority when it issued a legislative subpoena
investigating whether the President broke the law. See id. at
767–75. Investigations of impeachable offenses simply are not,
and never have been, within the legislative power because
impeachment is a separate judicial power vested in Congress.
The panel’s analysis of these issues misapprehends the
gravamen of the Committee’s subpoena and glosses over the
difficult questions it raises for the separation of powers.
While Congress’s power to investigate as necessary and
proper to the legislative power is broad, this subpoena is
unprecedented. The Constitution and our historical practice
draw a sharp line between the legislative and judicial powers
of Congress. By upholding this subpoena, the panel opinion has
shifted the balance of power between Congress and the
President and allowed a congressional committee to
circumvent the careful process of impeachment. The
exceptionally important constitutional questions raised by this
case justify further review by our court. See generally Senate
Select Comm. on Presidential Campaign Activities v. Nixon,
498 F.2d 725 (D.C. Cir. 1974) (en banc) (considering en banc
the only case concerning the propriety of a subpoena directed
to a sitting President pursuant to the legislative power and
concluding that the Senate committee responsible for

A140

2
investigating the Watergate break-in lacked authority to
subpoena President Nixon).
Separately, I note that the Committee is wrong to suggest
that these questions are no longer of “practical consequence”
because the House has subsequently authorized an
impeachment inquiry. See Committee Br. 13 (citing H.R. Res.
660, 116th Cong. (Oct. 31, 2019)). From the outset of its
investigation, the Committee has relied consistently and
exclusively on the legislative power to justify this subpoena.
See Memorandum from Chairman Elijah E. Cummings to
Members of the Committee on Oversight and Reform 4 (Apr.
12, 2019) (“The Committee’s interest in these matters informs
its review of multiple laws and legislative proposals under our
jurisdiction.”). Throughout this litigation, the Committee has
maintained that it is “not here relying on impeachment power,”
Oral Arg. at 1:34:19–22, and both the panel opinion and dissent
agree that the Committee has never invoked the impeachment
power as the basis for this subpoena. See Mazars, 940 F.3d at
726–27; id. at 767–71 (Rao, J., dissenting).
The Committee’s suggestion that the current impeachment
inquiry somehow alters this case depends on whether House
Resolution 660 ratifies this subpoena. This Circuit has not
determined whether a defective subpoena can be revived by
after-the-fact approval. See Dombrowski v. Burbank, 358 F.2d
821, 825 (D.C. Cir. 1966) (“Whether this apparently approving
action by the full Subcommittee would serve as a nunc pro tunc
ratification and consequent validation of the subpoena for all
purposes, we need not decide.”), rev’d in part on other grounds
sub nom. Dombrowski v. Eastland, 387 U.S. 82 (1967). But we
need not confront that question here, because even assuming
the subpoena could be issued under the impeachment power,
the Committee has not reissued the subpoena pursuant to that
power and House Resolution 660 does not purport to sweep

A141

3
previously issued subpoenas into the ambit of the impeachment
inquiry. Resolution 660 is explicitly forward looking: it
authorizes the Oversight Committee, inter alia, to “continue
[its] ongoing investigations as part of the existing House of
Representatives” impeachment inquiry. H.R. Res. 660 § 1. In
telling contrast, during the pendency of this litigation, the
House enacted Resolution 507, which specifically claimed to
ratify all “current and future investigations, as well as all
subpoenas previously issued” relating to the President,
pursuant to its “legislative authority under Article I of the
Constitution.” H.R. Res. 507, 116th Cong. (July 24, 2019).
House Resolution 660 does not even purport to ratify
previously issued subpoenas, so the authority for the subpoena
in this case continues to depend exclusively on the legislative
power.
Thus, the central question presented here remains whether
the Committee can issue this subpoena investigating the
alleged wrongdoing of the President pursuant to the legislative
power. This question is one of exceptional importance, both for
this case as well as for the recurring disputes between Congress
and the Executive Branch.
I respectfully dissent from the denial of rehearing en banc.

A142

USCA Case #19-5142

Document #1814803

Filed: 11/07/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 19-5142

September Term, 2019
1:19-cv-01136-APM
Filed On: November 7, 2019

Donald J. Trump, et al.,
Appellants
v.
Mazars USA, LLP and Committee on
Oversight and Reform of the U.S. House of
Representatives,
Appellees
BEFORE:

Tatel, Millett, and Rao, Circuit Judges
ORDER

Upon consideration of the motion of the Committee on Oversight and Reform of
the U.S. House of Representatives for immediate issuance of the mandate, or in the
alternative, to shorten the time to petition for rehearing or rehearing en banc, the
opposition thereto, and the reply; and the cross-motion of the Trump appellants to stay
the mandate, the opposition thereto, and the reply, it is
ORDERED that the motions be denied. On October 24, 2019, the Trump
appellants filed a petition for rehearing and/or rehearing en banc, making the
Committee’s alternative request moot. Should the October 24, 2019 petition be denied,
the mandate will issue 7 days from the date of denial. See Fed. R. App. P. 41(b). This
decision takes into consideration the Trump appellants’ request for a period of at least 7
days to seek relief in the Supreme Court.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

A143

/s/
Michael C. McGrail
Deputy Clerk

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 1 of 41

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
_________________________________________

)
DONALD J. TRUMP, et al.
)
)
Plaintiffs,
)
)
v.
)
)
COMMITTEE ON OVERSIGHT AND
)
REFORM OF THE U.S. HOUSE OF
)
REPRESENTATIVES, et al.
)
)
Defendants.
)
_________________________________________ )

Case No. 19-cv-01136 (APM)

MEMORANDUM OPINION
I.

INTRODUCTION
I do, therefore, . . . solemnly protest against these proceedings of the
House of Representatives, because they are in violation of the rights
of the coordinate executive branch of the Government, and
subversive of its constitutional independence; because they are
calculated to foster a band of interested parasites and informers,
ever ready, for their own advantage, to swear before ex parte
committees to pretended private conversations between the
President and themselves, incapable, from their nature, of being
disproved; thus furnishing material for harassing him, degrading
him in the eyes of the country . . .
-

President James Buchanan 1

These words, written by President James Buchanan in March 1860, protested a resolution
adopted by the U.S. House of Representatives to form a committee—known as the Covode
Committee—to investigate whether the President or any other officer of the Executive Branch had
sought to influence the actions of Congress by improper means. See Buchanan at 218–21.

JAMES BUCHANAN, THE WORKS OF JAMES BUCHANAN VOLUME XII 225–26 (John Bassett Moore ed., J.B. Lippincott
Company) (1911) [hereinafter Buchanan].
1

A144

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 2 of 41

Buchanan “cheerfully admitted” that the House of Representatives had the authority to make
inquiries “incident to their legislative duties,” as “necessary to enable them to discover and to
provide the appropriate legislative remedies for any abuses which may be ascertained.” Id. at 221.
But he objected to the Covode Committee’s investigation of his conduct. He maintained that the
House of Representatives possessed no general powers to investigate him, except when sitting as
an impeaching body. Id. Buchanan feared that, if the House were to exercise such authority, it
“would establish a precedent dangerous and embarrassing to all my successors, to whatever
political party they might be attached.” Id. at 226.
Some 160 years later, President Donald J. Trump has taken up the fight of his
predecessor. On April 15, 2019, the Committee on Oversight and Reform of the House of
Representatives issued a subpoena for records to Mazars USA LLP, a firm that has provided
accounting services to President Trump. The subpoena called for Mazars to produce financial
records and other documents relating to President Trump personally as well as various associated
businesses and entities dating back to 2011—years before he declared his candidacy for office.
The decision to issue the subpoena came about after the President’s former lawyer and confidant,
Michael Cohen, testified before the House Oversight Committee that the President routinely would
alter the estimated value of his assets and liabilities on financial statements, depending on the
purpose for which a statement was needed. For instance, Cohen said that the President provided
inflated financial statements to a bank to obtain a loan to purchase a National Football League
franchise. But when it came time to calculate his real estate taxes, the President would deflate the
value of certain assets. To support his accusations, Cohen produced financial statements from
2011, 2012, and 2013, at least two of which were prepared by Mazars.

2

A145

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 3 of 41

Echoing the protests of President Buchanan, President Trump and his associated entities
are before this court, claiming that the Oversight Committee’s subpoena to Mazars exceeds the
Committee’s constitutional power to conduct investigations. The President argues that there is no
legislative purpose for the subpoena. The Oversight Committee’s true motive, the President
insists, is to collect personal information about him solely for political advantage. He asks the
court to declare the Mazars subpoena invalid and unenforceable.
Courts have grappled for more than a century with the question of the scope of Congress’s
investigative power. The binding principle that emerges from these judicial decisions is that courts
must presume Congress is acting in furtherance of its constitutional responsibility to legislate and
must defer to congressional judgments about what Congress needs to carry out that purpose. To be
sure, there are limits on Congress’s investigative authority. But those limits do not substantially
constrain Congress. So long as Congress investigates on a subject matter on which “legislation
could be had,” Congress acts as contemplated by Article I of the Constitution.
Applying those principles here compels the conclusion that President Trump cannot block
the subpoena to Mazars. According to the Oversight Committee, it believes that the requested
records will aid its consideration of strengthening ethics and disclosure laws, as well as amending
the penalties for violating such laws. The Committee also says that the records will assist in
monitoring the President’s compliance with the Foreign Emoluments Clauses. These are facially
valid legislative purposes, and it is not for the court to question whether the Committee’s actions
are truly motivated by political considerations. Accordingly, the court will enter judgment in favor
of the Oversight Committee.

3

A146

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 4 of 41

II.

BACKGROUND
A.

The 116th Congress and the House Oversight Committee

On January 3, 2019, the 116th Congress began with the Democratic Party controlling a
majority of seats in the U.S. House of Representatives. One of the House’s first actions was to
adopt the “Rules of the House of Representatives,” which govern proceedings during the two-year
term. This vote took place on January 9, 2019. 2 Rule X of the adopted House Rules, titled
“Organization of Committees,” establishes various standing committees and their respective
jurisdictions. 3 Among the standing committees with the broadest purview is the Committee on
Oversight and Reform (“Oversight Committee”). Its subject areas of primary jurisdiction range
from the lofty—“[o]verall economy, efficiency, and management of government operations”—to
the mundane—“[f]ederal paperwork reduction.” House Rules at 8. If there is a common thread
running through the subjects within the Oversight Committee’s jurisdiction, it is the oversight of
the operations and administration of the Executive Branch.
Each of the House’s standing committees possess “[g]eneral oversight responsibilities.”
Id. at 9. Those responsibilities are meant to assist the House in (1) “its analysis, appraisal, and
evaluation of” “the application, administration, execution, and effectiveness of Federal laws” and
(2) “conditions and circumstances that may indicate the necessity or desirability of enacting new
or additional legislation,” and (3) “its formulation, consideration, and enactment of changes in
Federal laws, and of such additional legislation as may be necessary or appropriate.” Id. Some of
the House’s standing committees have “[s]pecial oversight functions.” Id. at 10. The Oversight

2
Final Vote Results for Roll Call 19, Adopting the Rules of the House of Representatives for the One Hundredth
Sixteenth Congress, http://clerk.house.gov/evs/2019/roll019.xml (last visited May 20, 2019).
3
Rules
of the
House
of Representatives,
116th
Congress
at
6
(Jan.
11,
2019),
https://rules.house.gov/sites/democrats rules house.gov/files/116-1/116-House-Rules-Clerk.pdf (last visited May 20,
2019) [hereinafter House Rules].

4

A147

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 5 of 41

Committee is one of them. Its “special oversight function” is described as involving the “review
and study on a continuing basis the operation of Government activities at all levels, including the
Executive Office of the President.” Id. The Executive Office of the President consists of a small
group of federal agencies that most immediately aid the President on matters of policy, politics,
administration, and management. The President’s closest advisors typically are situated in the
Executive Office. 4
Rule X also vests the Oversight Committee with special authority to conduct investigations.
According to the Rule, “the Committee on Oversight and Reform may at any time conduct
investigations of any matter without regard to [other rules] conferring jurisdiction over the matter
to another standing committee.” House Rules at 11 (emphasis added). In other words, the
Oversight Committee is empowered to investigate as to any subject matter, even in those areas that
are expressly assigned to other committees. No other committee possesses such sweeping
investigative authority.
The Oversight Committee’s broad investigative power is not new. In each of the four
preceding Congresses—all controlled by the Republican Party, including during the final six years
of the Obama Administration—the House Oversight Committee enjoyed the same power “at any
time [to] conduct investigations of any matter.” 5

See generally Congressional Research Service, “The Executive Office of the President: An Historical Overview,”
Nov. 26, 2008, https://fas.org/sgp/crs/misc/98-606.pdf (last visited May 20, 2019).
5
Rules of the House of Representatives, 115th Congress at 505 (2017), https://www.govinfo.gov/content/pkg/HMAN115/pdf/HMAN-115.pdf, (last visited May 20, 2019); Rules of the House of Representatives, 114th Congress at 497
(2015), https://www.govinfo.gov/content/pkg/HMAN-114/pdf/HMAN-114.pdf (last visited May 20, 2019); Rules
of the House of Representatives, 113th Congress at 496 (2013), https://www.govinfo.gov/content/pkg/HMAN113/pdf/HMAN-113-houserules.pdf (last visited May 20, 2019); Rules of the House of Representatives, 112th
Congress at 492 (2011), https://www.govinfo.gov/content/pkg/HMAN-112/pdf/HMAN-112.pdf (last visited May 20,
2019).
4

5

A148

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 6 of 41

B.

The Oversight Committee’s Investigation

From the start of the 116th Congress, the Oversight Committee, now led by a Democrat,
moved aggressively to use its investigative powers. It did not adopt a resolution or issue a public
statement defining the scope of what it intended to investigate. Instead, it sent a series of letters
to the White House and elsewhere seeking various records regarding the President’s personal
finances, as well as records concerning his businesses and related entities. For instance, days
before the new Congress started, the incoming Chairman of the Oversight Committee,
Representative Elijah Cummings, wrote the President’s personal lawyer, Sheri Dillon, and the
Executive Vice President and Chief Compliance Counsel of the Trump Organization, George
Sorial, asking them to produce previously requested “documents regarding the Trump
Organization’s process for identifying payments from foreign governments and foreigngovernment controlled entities . . .”6 In a different letter, the Chairman asked the General Services
Administration (“GSA”), the agency that manages federally owned and leased buildings, to
produce records concerning the federal government’s lease with the Trump Organization for the
Old Post Office Building, which houses the Trump International Hotel in Washington, D.C. 7
Chairman Cummings indicated that he sought these records for multiple reasons, including the
concern that the lease might violate the Constitution’s Emoluments Clauses. Cummings’ April

6
Letter from the Honorable Elijah E. Cummings, Ranking Member, House Comm. on Oversight & Reform, to Sheri
A. Dillon, Counsel to Donald Trump, and George A. Sorial, Exec. Vice President and Chief Compliance Counsel,
Trump Org. (Dec. 19, 2018), https://tinyurl.com/Dec19CummingsDillonLetter (last visited May 20, 2019).
7
Letter from the Honorable Elijah E. Cummings, Chairman, House Comm. on Oversight & Reform, et al., to Emily
Murphy, Administrator, Gen. Servs. Admin. (Apr. 12, 2019), https://tinyurl.com/Apr12CummingsHorneLetter (last
visited May 20, 2019) [hereinafter Cummings’ April 12th GSA Letter].

6

A149

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 7 of 41

12th GSA Letter at 1. 8 These are but two examples of the types of records requests made by the
Oversight Committee at the start of the 116th Congress.
The investigative demand that sparked this lawsuit was issued on January 8, 2019. On that
day, Chairman Cummings wrote to Pat Cipollone, the White House Counsel, asking the President
to produce “documents related to President Trump’s reporting of debts and payments to his
personal attorney, Michael Cohen, to silence women alleging extramarital affairs with the
President before the election.” 9 The prior year, in May 2018, the Office of Government Ethics
had concluded that the President should have disclosed a payment made by Cohen as a liability on
the President’s public financial disclosure report. 10 Chairman Cummings noted in the January 8th
letter that the Oversight Committee “has jurisdiction over a wide range of matters, including the
Ethics in Government Act of 1978,” a law that requires “all federal officials, including the
President, to publicly disclose financial liabilities that could impact their decision-making.”
Cummings’ January 8th Letter at 1. On February 1, 2019, the White House Counsel responded to

This request for documents was not new. During the early months of the Trump Administration, Representative
Cummings, who was then the Ranking Member on the Oversight Committee, along with other Democratic members,
asked GSA to produce records regarding the Old Post Office lease. See Cummings v. Murphy, 321 F. Supp. 3d 92,
97–99 (D.D.C. 2018). When GSA did not cooperate, the Members brought a lawsuit to force it to disclose the records.
See generally id. This judge handled that very matter and ruled that the Democratic members lacked standing to bring
the case. See id. at 101–17. That decision is pending before the D.C. Circuit.
9
Letter from the Honorable Elijah E. Cummings, Chairman, House Comm. on Oversight & Reform, to Pat Cipollone,
White House Counsel (Jan. 8, 2019), https://tinyurl.com/Jan8CummingsCipolloneLetter (last visited May 20, 2019)
[hereinafter Cummings’ January 8th Letter]. Then-Ranking Member Cummings made a request for similar records in
September 2018, which went unanswered. See Letter from the Honorable Elijah E. Cummings, Ranking Member,
House Comm. on Oversight & Reform, to Donald F. McGahn II, White House Counsel, and George A. Sorial, Exec.
Vice
President
and
Chief
Compliance
Counsel,
Trump
Org.
(September
12,
2018),
https://oversight house.gov/sites/democrats.oversight.house.gov/files/documents/2018-0912.EEC%20to%20McGahn-WH%20SorialTrumpOrg%20re%20Financial%20Disclosures%20Cohen%20Payments.pdf (last visited May 20, 2019).
10
Letter from David J. Apol, Acting Dir., Office of Gov’t Ethics, to Rod J. Rosenstein, Deputy Att’y Gen., Dep’t of
Justice
(May
16,
2018),
https://oge.gov/web/OGE.nsf/0/D323FD5ABB1FD2358525828F005F4888/$FILE/OGE%20Letter%20to%20DOJ%
20(posting).pdf (last visited May 20, 2019).
8

7

A150

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 8 of 41

Chairman Cummings that the President was prepared to consider making some documents
available for review. 11
Chairman Cummings wrote the White House Counsel again on February 15, 2019. See
Cummings’ February 15th Letter. He opened by stating that, by his January 8th letter, “the
Committee launched an investigation into the failure of President Donald Trump to report
hundreds of thousands of dollars in payments and liabilities to his former attorney, Michael Cohen,
to silence women alleging extramarital affairs during the 2016 presidential campaign.” Id. at 1.
Chairman Cummings explained that “[t]he Committee’s interest in obtaining these documents is
even more critical in light of new documents obtained by the Committee from the Office of
Government Ethics (OGE) that describe false information provided by lawyers representing
President Trump . . . ” Id. The letter went on to detail a timeline of recent events starting with
statements made by the President’s lawyers to the Office of Government Ethics and to the public
about a supposed purpose of the Cohen payments unrelated to the election; followed by the
President’s disclosure of the Cohen payments on his 2017 Financial Disclosure form as a liability
of less than $250,000; and then revelations by federal prosecutors that the Cohen payments in fact
exceeded the $250,000 reported by the President. Id. at 2–6. In the end, Chairman Cummings
cited Congress’s “plenary authority to legislate and conduct oversight regarding compliance with
ethics laws and regulations” as the source of its authority to make the records demand, as well as
its “broad authority to legislate and conduct oversight on issues involving campaign finance.” Id.
at 7.

Letter from the Honorable Elijah E. Cummings, Chairman, House Comm. on Oversight & Reform, to Pat Cipollone,
White House Counsel at 1 (Feb. 15, 2019), https://tinyurl.com/Feb15CummingsCipolloneLetter [hereinafter
Cummings’ February 15th Letter].
11

8

A151

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 9 of 41

C.

Subpoena to Mazars USA LLP

On February 27, 2019, Michael Cohen appeared for a public hearing before the House
Oversight Committee. 12 By this time, Cohen had pleaded guilty to a host of federal felony charges,
including tax evasion, campaign finance violations, and making false statements to Congress. 13
During his testimony, Cohen alleged that financial statements prepared by the President’s
accountants falsely represented the President’s assets and liabilities. See Cohen Testimony at 13,
19. Specifically, Cohen stated that, in his experience, “Mr. Trump inflated his total assets when it
served his purposes . . . and deflated his assets to reduce his real estate taxes.” Id. Cohen supplied
the Oversight Committee with portions of the President’s Statements of Financial Condition from
2011, 2012, and 2013, some of which were signed by Mazars. 14
Following Cohen’s testimony, Chairman Cummings wrote to Mazars on March 20, 2019.
The letter first summarized aspects of Cohen’s testimony accusing the President of manipulating
financial statements to suit his purposes; it then identified a half-dozen questions about assets and
liabilities reflected in the President’s Statements of Financial Condition that Cohen had provided
to the Oversight Committee. See Cummings’ March 20th Letter at 1–3. Chairman Cummings
stated that these financial statements “raise questions about the President’s representations of his
financial affairs on these forms and on other disclosures, particularly relating to the President’s
debts.” Id. at 1. The letter concluded by asking Mazars to produce four categories of documents

12

Hearing with Michael Cohen, Former Attorney to President Donald Trump: Hearing Before the H. Comm. on
Oversight & Reform, 116th Cong. (2019), https://tinyurl.com/CohenHearing (last visited May 20, 2019) [hereinafter
Cohen Testimony].
13
See Mark Mazzetti, et al., Cohen Pleads Guilty and Details Trump’s Involvement in Moscow Tower Project, N.Y.
TIMES, Nov. 29, 2018, https://www.nytimes.com/2018/11/29/nyregion/michael-cohen-trump-russia-mueller.html
(last visited May 20, 2019).
14
See Letter from the Honorable Elijah E. Cummings, Chairman, House Comm. on Oversight & Reform, to Victor
Wahba,
Chairman
and
Chief
Exec.
Officer,
Mazars
USA
LLP
(Mar.
20,
2019),
https://tinyurl.com/Mar20CummingsLetter (last visited May 20, 2019) [hereinafter Cummings’ March 20th Letter];
see also Cohen Testimony at 13.

9

A152

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 10 of 41

with respect to not just the President, but also several affiliated organizations and entities,
including the Trump Organization Inc., the Donald J. Trump Revocable Trust, the Trump
Foundation, and the Trump Old Post Office LLC. See id. at 4. The records requested included
statements of financial condition, audited financial statements, documents relied upon to prepare
any financial statements, engagement agreements, and communications between Mazars and the
President or employees of the Trump Organization. See id. The relevant time period identified
for the requested records was “January 1, 2009, to the present.” Id. In his initial letter to Mazars,
Chairman Cummings did not articulate any legislative purpose for the records requested.
A week later, on March 27, 2019, Mazars responded that it “cannot voluntarily turn over
documents sought in the Request.” 15 Mazars cited various federal and state regulations and
professional codes of conduct that prevented it from doing so. See Mazars March 27th Letter at 1.
On April 12, 2019, Chairman Cummings distributed a memorandum to Members of the
Oversight Committee (“Memorandum”), advising them of his intent to issue a subpoena to
Mazars. 16 Under a section titled “Need for Subpoena,” Chairman Cummings cited to Cohen’s
testimony that the President had “altered the estimated value of his assets and liabilities on
financial statements,” as well as to the records Cohen had provided to support these claims.
Cummings’ April 12th Mem. at 1–2. He also referenced “[r]ecent news reports” raising “additional
concerns regarding the President’s financial statements and representations.” Id. at 1. In the
“Conclusion” section of the Memorandum, Chairman Cummings listed the purposes for seeking
the Mazars-held records:

15
Letter from Jerry D. Bernstein, BlankRome LLP, Outside Counsel to Mazars USA LLP, to the Honorable Elijah E.
Cummings,
Chairman,
House
Comm.
on
Oversight
&
Reform
(Mar.
27,
2019),
https://tinyurl.com/Mar27MazarsLetter (last visited May 20, 2019) [hereinafter Mazars March 27th Letter].
16
Memorandum from Honorable Elijah E. Cummings, Chairman, House Comm. on Oversight & Reform, to Members
of the Committee on Oversight and Reform (April 12, 2019), https://www.politico.com/f/?id=0000016a-131f-da8eadfa-3b5f319d0001 (last visited May 20, 2019) [hereinafter Cummings’ April 12th Mem.].

10

A153

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 11 of 41

The Committee has full authority to investigate whether the President may have
engaged in illegal conduct before and during his tenure in office, to determine
whether he has undisclosed conflicts of interest that may impair his ability to make
impartial policy decisions, to assess whether he is complying with the Emoluments
Clauses of the Constitution, and to review whether he has accurately reported his
finances to the Office of Government Ethics and other federal entities. The
Committee’s interest in these matters informs its review of multiple laws and
legislative proposals under our jurisdiction, and to suggest otherwise is both
inaccurate and contrary to the core mission of the Committee to serve as an
independent check on the Executive Branch.
Id. at 4. Chairman Cummings allowed 48 hours for Members to offer their views on issuing the
subpoena. See id. The Committee’s new Ranking Member, Congressman Jim Jordan, responded,
declaring the action “an unprecedented abuse of the Committee’s subpoena authority to target and
expose the private financial information of the President of the United States.” 17
Notwithstanding the Ranking Member’s objection, on April 15, 2019, the Oversight
Committee issued the subpoena to Mazars that is the subject of this lawsuit. The subpoena sought
the same four categories of records identified in the March 20th letter relating to the President and
his affiliated organizations and entities. See Subpoena, ECF No. 9-2, Ex. A, at 3 [hereinafter
Subpoena]; see also Cummings’ March 20th Letter at 4. The subpoena, however, differed in one
respect—it narrowed the relevant time period by two years to “calendar years 2011 through
2018.” 18 Subpoena at 3.

Letter from the Honorable Jim Jordan, Ranking Member, House Comm. on Oversight & Reform, to the Honorable
Elijah E. Cummings, Chairman, House Comm. on Oversight & Reform at 1 (April 15, 2019), https://republicansoversight.house.gov/wp-content/uploads/2019/04/2019-04-15-JDJ-to-EEC-re-Mazars-Subpoena.pdf (last visited
May 20, 2019).
18
At oral argument, Plaintiffs stated that paragraph 2 of the subpoena applies “without regard to time.” Hr’g Tr. at
69. That paragraph, however, is for all engagement agreements or contracts related to items “described in Item
Number 1,” which is time-limited from 2011 to 2018. See Subpoena at 3.
17

11

A154

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 12 of 41

D.

Procedural History
1.

Plaintiffs Seek Injunctive Relief

On April 22, 2019, President Trump, along with his affiliated organizations and entities
(collectively “Plaintiffs”), 19 filed this lawsuit. See Compl., ECF No. 1 [hereinafter Compl.]. They
originally named as defendants Chairman Cummings; Peter Kenny, the Chief Investigative
Counsel of the Oversight Committee; and Mazars. Plaintiffs asked the court, among other things,
to declare that the Oversight Committee’s subpoena to Mazars “is invalid and unenforceable” and
to issue a “permanent injunction quashing Chairman Cummings’ subpoena.” Compl. at 13. With
their Complaint, Plaintiffs filed an Application for a Temporary Restraining Order and Motion for
Preliminary Injunction. See Pls.’ App. for a TRO, ECF No. 9; Pls.’ Mot. for Prelim. Inj., ECF No.
11; Stmt. of P&A in Support of Pls.’ App. for a TRO and Mot. for Prelim. Inj., ECF Nos. 9-1, 111 [hereinafter Pls.’ Stmt.]. The Application asked the court to enter an order “prohibiting
Defendants from enforcing or complying with Chairman Cummings’ subpoena so that the Court
can decide Plaintiffs’ motion for a preliminary injunction.” Pls.’ Stmt. at 14.
Following discussions with the Oversight Committee, Plaintiffs consented to the
Committee’s intervention as a defendant in this matter and agreed to dismiss Chairman Cummings
and Kenny as defendants. See Consent Mot. of the Oversight Committee to Intervene, ECF No.
12; Joint Stip., ECF No. 15. The parties settled on a briefing schedule on Plaintiffs’ motion for
preliminary injunction, which the court entered. Minute Order, Apr. 23, 2019. The Oversight
Committee also agreed to postpone the date for Mazars to produce records until seven days after

The complete list of affiliated organizations and entities includes: The Trump Organization, Inc.; Trump
Organization LLC; The Trump Corporation; DJT Holdings LLC; The Donald J. Trump Revocable Trust; and the
Trump Old Post Office LLC.
19

12

A155

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 13 of 41

the court ruled on Plaintiffs’ motion. See id. That agreement made it unnecessary for the court to
enter a temporary restraining order.
2.

Consolidation under Rule 65(a)(2)

Under the entered schedule, the parties were to appear before the court for oral argument
on May 14, 2019. Five days before the hearing and one day after the parties had completed
briefing, the court entered an order announcing its intention to consolidate the hearing on the
preliminary injunction with the “trial on the merits,” as is permitted under Federal Rule of Civil
Procedure 65(a)(2). See Order, ECF No. 25 [hereinafter Order]. The court explained the reason
for consolidation as follows:
The sole question before the court—Is the House Oversight
Committee’s issuance of a subpoena to Mazars USA LLP for
financial records of President Donald J. Trump and various
associated entities a valid exercise of legislative power?—is fully
briefed, and the court can discern no benefit from an additional
round of legal arguments. Nor is there an obvious need to delay
ruling on the merits to allow for development of the factual record.
Id. The court made the decision to consolidate conscious of the need to expedite these types of
cases. In Eastland v. U.S. Servicemen’s Fund, the Supreme Court stated that motions to enjoin a
congressional subpoena “be given the most expeditious treatment by district courts because one
branch of Government is being asked to halt the functions of a coordinate branch.” 421 U.S. 491,
511 n.17 (1975); see also Exxon Corp. v. F.T.C., 589 F.2d 582, 589 (D.C. Cir. 1978) (describing
Eastland as emphasizing “the necessity for courts to refrain from interfering with or delaying the
investigatory functions of Congress”).

The court also was cognizant of the fact that the

Constitution’s Speech or Debate Clause forecloses Plaintiffs from compelling discovery from the
Oversight Committee, its Members, or staff. See Eastland, 421 U.S. at 503 (stating that “a private
civil action, whether for an injunction or damages, creates a distraction and forces Members to

13

A156

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 14 of 41

divert their time, energy, and attention from their legislative tasks to defend the litigation”); see
also Gravel v. United States, 408 U.S. 606, 616–22 (1972). Relatedly, the D.C. Circuit has
recognized that evidence relevant to determining whether Congress has acted in its legislative
capacity is likely to come largely, if not exclusively, from public sources. See Shelton v. United
States, 404 F.2d 1292, 1297 (D.C. Cir. 1968) (observing that relevant sources of evidence include
“the resolution of the Congress authorizing the inquiry,” “the opening statement of the Chairman
at the hearings,” and “statements of the members of the committee . . . or of the Staff Director”)
(citations omitted). The court ordered the parties to submit any additional evidence to the court or
lodge an objection to consolidation by May 13, 2019. Order at 2.
Plaintiffs protested the court’s consolidation order, but the Oversight Committee did not.
See Pls.’ Objections to Rule 65(a)(2) Consolidation, ECF No. 29 [hereinafter Pls.’ Objections];
see also Oversight Committee’s Resp. to the Court’s May 9, 2019 Order, ECF No. 31. Plaintiffs
asserted that, in briefing only a motion for preliminary injunction, they were constrained in their
arguments on the merits. See Pls.’ Objections at 4 (“Nor have the parties had the opportunity to
fully brief the important constitutional questions that this case presents.”). They also maintained
that they needed more time to obtain additional evidence, specifically (1) a memorandum of
understanding negotiated between Chairman Cummings and a Chair of a different House
Committee, which they believed the Ranking Member of the Oversight Committee would
voluntarily disclose to them, and (2) communications between Mazars and the Oversight
Committee. Id. at 6–7. Plaintiffs did not assert that they could obtain discovery from the Oversight
Committee. See generally id.
At the May 14th hearing, the court heard further argument from Plaintiffs on consolidation,
and overruled their objection. The court found that no additional briefing would aid in its decision-

14

A157

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 15 of 41

making, as the parties had comprehensively presented the issues and cited all applicable precedent.
See Hr’g Tr. at 34. Indeed, Plaintiffs could identify no new argument that they would make if
given the chance to do so. Id. at 34–36. To allow for Plaintiffs’ asserted need to gather additional
evidence, the court left the record open until May 18, 2019. Id. at 75. Plaintiffs already had
submitted some additional evidence after the consolidation order, which consisted of news reports
of public statements of various Members of Congress. See Supp. Decl. of William S. Consovoy,
ECF No. 30 [hereinafter First Supp. Decl.]. Plaintiffs added two more letters from the Ranking
Member before the record closed. See Second Supp. Decl. of William S. Consovoy, ECF No.
34. 20
E.

Cross-Motions for Summary Judgment

The legal issues presented do not require the court to resolve any fact contests because the
material facts are not in dispute. 21 Accordingly, having ordered consolidation under Rule 65(a)(2),
the court treats the parties’ briefing as cross-motions for summary judgment. See Mar. for Life v.
Burwell, 128 F. Supp. 3d 116, 124 (D.D.C. 2015) (reviewing case consolidated under Rule 65(a)(2)
as cross-motions for summary judgment); Indep. Bankers Ass’n of Am. v. Conover, 603 F. Supp.
948, 953 (D.D.C. 1985) (same).

Plaintiffs did not offer any evidence from Mazars; nor did they submit the memorandum of understanding that they
claimed in their Opposition was critical evidence. The Oversight Committee, however, did submit that memorandum
of understanding to the court in camera. The court has considered the contents of the agreement in rendering its
judgment.
21
Although the Oversight Committee’s “motive” for issuing the subpoena to Mazars is a disputed fact, as discussed
further below, it is not a “material” fact that would prevent deciding the case on cross-motions for summary judgment.
See Watkins v. United States, 354 U.S. 178, 200 (1957). In addition, the Committee admitted “there is no legitimate
dispute about the facts here. We’re not saying that Congressman Cummings didn’t say the things that he’s quoted as
saying . . .” Hr’g Tr. at 61–62.
20

15

A158

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 16 of 41

III.

LEGAL PRINCIPLES
A.

Congress’s Broad Investigative Authority

Article I of the Constitution grants Congress all “legislative Powers.” U.S. Const. art. I,
§ 1. Although Article I does not say so expressly, the power to secure “needed information . . .
has long been treated as an attribute of the power to legislate.” McGrain v. Daugherty, 273 U.S.
135, 161 (1927). As the Supreme Court observed in McGrain, the power to investigate is deeply
rooted in the nation’s history: “It was so regarded in the British Parliament and in the colonial
Legislatures before the American Revolution, and a like view has prevailed and been carried into
effect in both houses of Congress and in most of the state Legislatures.” Id. “There can be no
doubt as to the power of Congress, by itself or through its committees, to investigate matters and
conditions relating to contemplated legislation.” Quinn v. United States, 349 U.S. 155, 160 (1955).
Related to Congress’s legislative function is its “informing function.” The Supreme Court
has understood that function to permit “Congress to inquire into and publicize corruption,
maladministration or inefficiency in agencies of the Government.” Watkins v. United States, 354
U.S. 178, 200 n.33 (1957). “From the earliest times in its history, the Congress has assiduously
performed an ‘informing function’ of this nature.” Id. (citing James M. Landis, Constitutional
Limitations on the Congressional Power of Investigation, 40 HARV. L. REV. 153, 168–194
(1926)). The informing function finds its roots in the scholarship of President Woodrow Wilson,
which the Court first cited in United States v. Rumely:
It is the proper duty of a representative body to look diligently into
every affair of government and to talk much about what it sees. It
is meant to be the eyes and the voice, and to embody the wisdom
and will of its constituents. Unless Congress have and use every
means of acquainting itself with the acts and the disposition of the
administrative agents of the government, the country must be
helpless to learn how it is being served; and unless Congress both
scrutinize these things and sift them by every form of discussion, the
16

A159

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 17 of 41

country must remain in embarrassing, crippling ignorance of the
very affairs which it is most important that it should understand and
direct. The informing function of Congress should be preferred
even to its legislative function.
345 U.S. 41, 43 (1953) (quoting WOODROW WILSON, CONGRESSIONAL GOVERNMENT: A STUDY IN
AMERICAN POLITICS, 303). Thus, though not wholly distinct from its legislative function, the
informing function is a critical responsibility uniquely granted to Congress under Article I. See
Landis, 40 HARV. L. REV. at 205 n.227 (describing the informing function as “implied and
inherent” within the legislative function).
In furtherance of these duties, Congress’s power to investigate is “broad.” Watkins, 354
U.S. at 187. “It encompasses inquiries concerning the administration of existing laws as well as
proposed or possibly needed statutes. It includes surveys of defects in our social, economic or
political system for the purpose of enabling the Congress to remedy them.” Id. In short, “[t]he
scope of the power of inquiry . . . is as penetrating and far-reaching as the potential power to enact
and appropriate under the Constitution.” Barenblatt v. United States, 360 U.S. 109, 111 (1959).
But Congress’s investigatory power is not unbounded. The Constitution’s very structure
puts limits on it. For instance, the power to investigate may not “extend to an area in which
Congress is forbidden to legislate.” Quinn, 349 U.S. at 161. Nor may Congress “trench upon
Executive or judicial prerogatives.” McSurely v. McClellan, 521 F.2d 1024, 1038 (D.C. Cir. 1975).
A prime example of such overreach is exercising the “powers of law enforcement; those powers
are assigned under our Constitution to the Executive and the Judiciary.” Quinn, 349 U.S. at 161.
The Supreme Court has recognized other limits. Congress cannot “inquire into private affairs
unrelated to a valid legislative purpose.” Id. Nor is there a “congressional power to expose for
the sake of exposure.” Watkins, 354 U.S. at 200. “The public is, of course, entitled to be informed

17

A160

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 18 of 41

concerning the workings of its government. That cannot be inflated into a general power to expose
where the predominant result can only be an invasion of the private rights of individuals.” Id. 22
B.

Determining Whether Congress Has Acted Legislatively

When a court is asked to decide whether Congress has used its investigative power
improperly, its analysis must be highly deferential to the legislative branch. A number of
guideposts mark the way forward.
To start, the court must proceed from the assumption “that the action of the legislative body
was with a legitimate object, if it is capable of being so construed, and [the court] ha[s] no right to
assume that the contrary was intended.” McGrain, 273 U.S. at 178 (citation omitted). It also
“must presume that the committees of Congress will exercise their powers responsibly and with
due regard for the rights of affected parties.” Exxon Corp., 589 F.2d at 589. So, when it appears
that Congress is investigating on a subject-matter in aid of legislating, “the presumption should be
indulged that this was the real object.” McGrain, 273 U.S. at 178.
An important corollary to this presumption of regularity is that courts may not “test[] the
motives of committee members” to negate an otherwise facially valid legislative purpose. Watkins,
354 U.S. at 200; see also Eastland, 421 U.S. at 508 (“Our cases make clear that in determining the
legitimacy of a congressional act we do not look to the motives alleged to have prompted it.”)
(citation omitted). “So long as Congress acts in pursuance of its constitutional power, the Judiciary
lacks authority to intervene on the basis of the motives which spurred the exercise of that power.”
Barenblatt, 360 U.S. at 132 (citation omitted). Thus, it is not the court’s role to decipher whether
Congress’s true purpose in pursuing an investigation is to aid legislation or something more sinister

Other limitations on Congress’s investigative powers can be found in the Bill of Rights. See Quinn, 349 U.S. at
161. Plaintiffs have not asserted that disclosure of the records sought from Mazars would implicate any “specific
individual guarantees of the Bill of Rights.” Id.; see generally Pls.’ Stmt.
22

18

A161

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 19 of 41

such as exacting political retribution. See McSurely, 521 F.2d at 1038. If there is some discernable
legislative purpose, courts shall not impede Congress’s investigative actions. See Watkins, 354
U.S. at 200 (“Their motives alone would not vitiate an investigation which had been instituted by
a House of Congress if that assembly’s legislative purpose is being served.”).
Although Congress’s motives are off limits, courts can consider what Congress has said
publicly to decide whether it has exceeded its authority. See Shelton, 404 F.2d at 1297. Relevant
evidence includes the resolution authorizing the investigation, statements by Committee members,
and questions posed during hearings. See id. At the same time, the mere absence of public
statements identifying the investigation’s purpose or subject matter is not, by itself, conclusive
proof of an invalid purpose. See McGrain, 273 U.S. at 176–78. Congress is not required to
announce its intentions in advance. See id. at 178. Similarly, it does not matter if the investigation
does not produce legislation. See Eastland, 421 U.S. at 509. “The very nature of the investigative
function—like any research—is that it takes the searchers up some ‘blind alleys’ and into
nonproductive enterprises. To be a valid legislative inquiry there need be no predictable end
result.” Id.; see also Townsend v. United States, 95 F.2d 352, 355 (D.C. Cir. 1938) (Congress’s
“power to conduct a hearing for legislative purposes is not to be measured by recommendations
for legislation or their absence.”). The critical inquiry then is not legislative certainty, but
legislative potential: If the subject matter of the investigation is “one on which legislation could
be had,” Congress acts within its legislative function. McGrain, 273 U.S. at 177 (emphasis added);
see also Eastland, 421 U.S. at 504 n.15 (“The subject of any inquiry always must be one ‘on which
legislation could be had.’”) (quoting McGrain, 273 U.S. at 177).
Once a court finds that an investigation is one upon which legislation could be had, it must
not entangle itself in judgments about the investigation’s scope or the evidence sought. Only an

19

A162

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 20 of 41

investigative demand that is “plainly incompetent or irrelevant to any lawful purpose of the
[committee] in the discharge of its duties” will fail to pass muster. McPhaul v. United States, 364
U.S. 372, 381 (1960) (citation omitted) (cleaned up). Importantly, in making this assessment, it is
not the judicial officer’s job to conduct a “line-by-line review of the Committee’s requests.” Bean
LLC v. John Doe Bank, 291 F. Supp. 3d. 34, 44 (D.D.C. 2018). “There is no requirement that
every piece of information gathered in such an investigation be justified before the judiciary.”
McSurely, 521 F.2d at 1041.
And, finally, courts must take care not to be swayed by the political conflicts of the day.
Its role is not to act as a political referee. As the Supreme Court cautioned in Tenney v. Brandhove:
In times of political passion, dishonest or vindictive motives are
readily attributed to legislative conduct and as readily believed.
Courts are not the place for such controversies. Self-discipline and
the voters must be the ultimate reliance for discouraging or
correcting such abuses. The courts should not go beyond the narrow
confines of determining that a committee’s inquiry may fairly be
deemed within its province.
341 U.S. 367, 378 (1951).
IV.

ANALYSIS
With these principles in mind, the court proceeds to consider whether the Oversight

Committee’s subpoena to Mazars is “facially legislative in character,” McSurely, 521 F.2d at 1038,
or whether it exceeds Congress’s power to investigate. To answer that question, the court first
considers the legislative reasons offered by the Oversight Committee to justify the subpoena.
It then addresses Plaintiffs’ contentions why those reasons are invalid.
A.

Legislative Purpose for Issuing the Subpoena to Mazars

Had the Oversight Committee adopted a resolution that spells out the intended legislative
purpose and scope of its investigation, the court would have begun its inquiry there. Indeed, the

20

A163

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 21 of 41

Supreme Court has considered congressional resolutions as a primary source from which to glean
whether information “was sought . . . in aid of the legislative function.” McGrain, 273 U.S. at
176; see also Shelton, 404 F.2d at 1297 (observing that relevant sources of evidence to “ascertain
whether [an inquiry] is within the broad investigative authority of Congress” include “the
resolution . . . authorizing the inquiry”). However, the Committee never adopted one. While a
clearly drafted resolution would have made this court’s task easier or might have preempted the
challenge now brought altogether, it is not a constitutional prerequisite to start an investigation.
Cf. McGrain, 273 U.S. at 178.
Without a resolution as a point of reference, the logical starting point for identifying the
purpose of the Mazars subpoena is the memorandum to Members of the Oversight Committee
written by Chairman Cummings on April 12, 2019.

Chairman Cummings penned that

Memorandum in anticipation of issuing the subpoena. It is therefore the best evidence of the
Committee’s purpose. The Memorandum lists four areas of investigation: (1) “whether the
President may have engaged in illegal conduct before and during his tenure in office,” (2) “whether
he has undisclosed conflicts of interest that may impair his ability to make impartial policy
decisions,” (3) “whether he is complying with the Emoluments Clauses of the Constitution,” and
(4) “whether he has accurately reported his finances to the Office of Government Ethics and other
federal entities.” Cummings’ April 12th Mem. at 4. Each of these is a subject “on which legislation
could be had.” McGrain, 273 U.S. at 177.
Taking the reasons in reverse order, the accuracy of the President’s financial reporting
relates directly to the law that requires it: The Ethics in Government Act of 1978. See 5 U.S.C.
App. 4 § 101 et seq. In his letter to the White House Counsel dated February 15, 2019, Chairman
Cummings alluded to how documents relating to the accuracy of the President’s disclosures fell

21

A164

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 22 of 41

within the legislative purview of Congress: “Since the earliest days of our republic, Congress has
investigated how existing laws are being implemented and whether changes to the laws are
necessary. For decades, this has included laws relating to financial disclosures required of the
President.” Cummings’ February 15th Letter at 9. As to the specific demand made on February
15th, which related to the payments by Michael Cohen and the President’s failure to publicly report
them as a liability, Chairman Cummings explained that “[t]hese documents will help the
Committee determine why the President failed to report these payments and whether reforms are
necessary to address deficiencies with current laws, rules, and regulations.” Id. (emphasis added).
This legislative rationale applies equally to the financial records requested by the Mazars
subpoena. Congress reasonably might consider those documents in connection with deciding
whether to legislate on federal ethics laws and regulations. For example, the discovery of
additional disclosure violations by the President could influence whether Congress strengthens
public reporting requirements or enhances penalties for non-compliance. Thus, there can be little
doubt that Congress’s interest in the accuracy of the President’s financial disclosures falls within
the legislative sphere.
Investigating whether the President is abiding by the Foreign Emoluments Clause is
likewise a subject on which legislation, or similar congressional action, could be had. The Foreign
Emoluments Clause prohibits the President from “accept[ing]” any “Emolument” from “any King,
Prince, or foreign State” without the “Consent of the Congress.” U.S. Const. art. I, § 9, cl. 8. The
Constitution thus expressly vests in Congress the unique authority to approve the President’s
acceptance of “Emoluments,” however one defines that term. See generally Blumenthal v. Trump,
No. 17-1154 (EGS), 2019 WL 1923398 (D.D.C. Apr. 30, 2019). Even under the President’s
favored interpretation, the Clause, at a minimum, “was intended to combat corruption and foreign

22

A165

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 23 of 41

influence . . .” Id. at *8. Surely, incident to Congress’s authority to consent to the President’s
receipt of Emoluments is the power to investigate the President’s compliance with the Clause.
Without such power, Congress’s constitutional function to approve or disapprove Emoluments
would be severely and unduly constrained. The Founders could not have intended that result. A
congressional investigation to carry out an expressly delegated Article I function, in addition to
any legislation that might be had relating to that function, is plainly valid. 23
So, too, is an investigation to determine whether the President has any conflicts of interest.
As already discussed, it lies within Congress’s province to legislate regarding the ethics of
government officials. Indeed, exposing conflicts of interest is one of the core objectives of the
Ethics in Government Act. As the D.C. Circuit has observed, “the Act shows Congress’[s] general
belief that public disclosure of conflicts of interest is desirable despite its cost in loss of personal
privacy.” Washington Post Co. v. U.S. Dep’t of Health & Human Servs., 690 F.2d 252, 265 (D.C.
Cir. 1982). Obtaining records to shed light on whether the President has undisclosed conflicts of
interests is therefore entirely consistent with potential legislation in an area where Congress
already has acted and made policy judgments.
Finally, a congressional investigation into “illegal conduct before and during [the
President’s] tenure in office,” Cummings’ April 12th Mem. at 4, fits comfortably within the broad
scope of Congress’s investigative powers. At a minimum, such an investigation is justified based
on Congress’s “informing function,” that is, its power “to inquire into and publicize corruption,”

To be clear, even if Congress’s authority to approve the President’s receipt of Emoluments is technically not a
“legislative” act, the court doubts that the Supreme Court would read its precedent to foreclose Congress from
investigating an Emoluments Clause violation based on a semantic distinction. The fact is, no court has ever been
asked to address the extent of Congress’s power to police the Emoluments Clause. Therefore, it should come as no
surprise that there is no case holding that Congress may exercise its power to investigate in relation to that Clause.
But just as Congress’s authority to legislate is expressly rooted in Article I, so too is its power to consent to presidential
receipt of Emoluments. If Congress’s power to investigate is incidental to its legislative function, it likewise must be
incidental to carry out its Foreign Emoluments Clause function.
23

23

A166

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 24 of 41

Watkins, 354 U.S. at 200 n.33. 24 It is simply not fathomable that a Constitution that grants
Congress the power to remove a President for reasons including criminal behavior would deny
Congress the power to investigate him for unlawful conduct—past or present—even without
formally opening an impeachment inquiry. On this score, history provides a useful guide.
Cf. Tobin v. United States, 306 F.2d 270, 275–76 (D.C. Cir. 1962) (relying on historical practice
to determine the scope of a congressional investigation). Twice in the last 50 years Congress has
investigated a sitting President for alleged law violations, before initiating impeachment
proceedings. It did so in 1973 by establishing the Senate Select Committee on Presidential
Campaign Activities, better known as the Watergate Committee, and then did so again in 1995 by
establishing the Special Committee to Investigate Whitewater Development Corporation and
Related Matters. See S. Res. 60 (93rd Cong., 1st Session) (Feb. 7, 1973) [hereinafter Watergate
Res.]; see also S. Res. 120 (104th Cong., 1st Session) (May 17, 1995). The former investigation
included within its scope potential corruption by President Nixon while in office, while the latter
concerned alleged illegal misconduct by President Clinton before his time in office. Congress
plainly views itself as having sweeping authority to investigate illegal conduct of a President,
before and after taking office. This court is not prepared to roll back the tide of history. 25

Plaintiffs suggested at oral argument that Congress’s informing function was limited to rooting out corruption only
in “agencies” of the Government, and the President is not an “agency” of the government. See Hr’g Tr. at 9, 75.
Although footnote 33 in Watkins refers to the informing function in connection with “agencies of the Government,”
Watkins, 354 U.S. 200 n.33, the original conception of that function as embraced by the Court in Rumely was not so
limited, see Rumely, 345 U.S. 41. Rumely spoke more generally of shining a light on “every affair of government”
and “the acts and the disposition of the administrative agents of the government,” without qualification. Id. at 43.
Watkins’ reference to administrative agencies is therefore better understood as a case-specific statement—the
investigation there involved the Attorney General—rather than a limiting principle. Plaintiffs’ artificial line-drawing
is antithetical to the checks and balances inherent in the Constitution’s design.
25
Even if an investigation into a sitting President’s past or present illegal conduct lies beyond the Oversight
Committee’s reach, its investigation here still would be legitimate because the Committee identified three other
justifications with a valid legislative purpose. See McGrain, 273 U.S. at 176–77 (rejecting lower court’s opinion
striking down a congressional investigation because the investigation “contemplat[ed] the taking of action other than
legislative”).
24

24

A167

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 25 of 41

Before moving on to Plaintiffs’ arguments, the court notes that the Oversight Committee
has identified several pieces of actual legislation that, it asserts, are related to its overall
investigation of the President. See Oversight Committee’s Opp’n to Pls.’ Mot. for Prelim.
Injunction, ECF No. 20, at 5–6. The House has passed H.R. 1, which requires, among other things,
the President and Vice President to file new financial disclosure forms within 30 days of taking
office, and to divest all financial interests that would pose a conflict of interest by “either
converting those interests to cash or investments that satisfy ethics rules or placing those interests
in a qualified blind trust or disclosing information about business interests.” Id. at 6 (citing H.R.
1, 116th Cong., Title VIII (2019)). Other bills cited by the Oversight Committee include H.R. 745,
which would strengthen the Office of Government Ethics, and H.R. 706, which would prohibit the
President and Vice President from conducting business directly with the Federal Government. See
id. (citing H.R. 745, 116th Cong. (2019); H.R. 706, 116th Cong. (2019)). There is no mention of
any of these bills in any written request from the Oversight Committee, let alone the
April 12th Memorandum justifying the Mazars subpoena. That absence is not fatal, however.
Again, the question for the court is whether the congressional investigation pertains to a subject
matter on which legislation could be had, so Congress need not proactively identify any specific
legislation to justify its activities.

Here, the bills identified by the Oversight Committee

demonstrate Congress’s intent to legislate, at the very least, in the areas of ethics and accountability
for Executive Branch officials, including the President. These are subjects, therefore, on which
legislation could be had.
B.

Plaintiffs’ Contentions

The court now turns to Plaintiffs’ contentions. Each of Plaintiffs’ arguments for why the
Mazars subpoena exceeds Congress’s Article I investigative power fall into one of three general

25

A168

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 26 of 41

categories. First, by characterizing the Oversight Committee’s investigation as one delving “into
the accuracy of a private citizen’s past financial statements,” Plaintiffs contend that the Oversight
Committee is engaged in “a quintessential law enforcement task reserved to the executive and
judicial branches.” Pls.’ Stmt. at 11. Plaintiffs similarly contend that an investigation into the
accuracy of the President’s financial disclosures, his adherence to the Emoluments Clauses, and
his present or past compliance with the law is “law enforcement” activity that encroaches on the
prerogatives of the coordinate branches. Hrg. Tr. at 7, 13–18, 25. Second, Plaintiffs charge that
the Oversight Committee’s investigation “has nothing to do with government oversight,” but is
instead intended to expose for the mere sake of exposure “the conduct of a private citizen years
before he was even a candidate for public office . . .” Pls.’ Stmt. at 11. Finally, Plaintiffs maintain
that the Oversight Committee has exceeded its authority, insofar as it is doing nothing more than
“conduct[ing] roving oversight of the President,” and the records sought from Mazars are not
“pertinent” to any legitimate legislative purpose. Pls.’ Reply in Support of Pls.’ Mot. for Prelim.
Injunction, ECF No. 24 [hereinafter Pls.’ Reply], at 11–12. The court addresses each of these
arguments in turn.
1.

Usurpation of Executive and Judicial Functions

Plaintiffs first assert that each of the four justifications for the Mazars subpoena identified
by Chairman Cummings in the April 12th Memorandum falls outside the bounds of legislative
power, because each seeks to determine whether the President broke the law, a function reserved
exclusively to the Executive and Judicial branches. See id. at 13–14. That argument, however,
rests on a false premise. Just because a congressional investigation has the potential to reveal law
violations does not mean such investigation exceeds the legislative function. The Supreme Court’s
understanding of a “legislative” purpose is not so constrained.

26

A169

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 27 of 41

To be certain, the Supreme Court has said that the “power to investigate must not be
confused with any of the powers of law enforcement; those powers are assigned under our
Constitution to the Executive and the Judiciary.” Quinn, 349 U.S. at 161; see also Watkins, 354
U.S. at 187 (“Nor is the Congress a law enforcement or trial agency.”). But that limitation is not
so absolute as to foreclose Congress from investigating any law violation by a private citizen, let
alone a sitting President, so long as Congress is operating with a legislative purpose. As the Court
explained in Sinclair v. United States:
It may be conceded that Congress is without authority to compel
disclosures for the purpose of aiding the prosecution of pending
suits; but the authority of that body, directly or through its
committees, to require pertinent disclosures in aid of its own
constitutional power is not abridged because the information sought
to be elicited may also be of use in such suits.
279 U.S. 263, 295 (1929). Thus, the Court has made clear that the mere prospect that a
congressional inquiry will expose law violations does not transform a permissible legislative
investigation into a forbidden executive or judicial function. See McGrain, 273 U.S. at 179–80
(“Nor do we think it a valid objection to the investigation that it might possibly disclose crime or
wrongdoing on [the Attorney’s General’s] part.”); see also Townsend, 95 F.2d at 355 (describing
McGrain as holding that “the presumption should be indulged that the object of the inquiry was to
aid the Senate in legislating . . . even though the investigation might possibly disclose crime or
wrongdoing on the part of the then Attorney General, whose name was expressly referred to in the
resolution”).
Moreover, appellate courts have demanded exacting proof before declaring that Congress
has impermissibly intruded into exclusive executive or judicial territories. According to the
Supreme Court, “[t]o find that a committee’s investigation has exceeded the bounds of legislative
power it must be obvious that there was a usurpation of functions exclusively vested in the
27

A170

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 28 of 41

Judiciary or the Executive.” Tenney, 341 U.S. at 378 (emphasis added). Similarly, the D.C. Circuit
has said that Congress avoids trenching upon executive or judicial prerogatives “so long as [the
investigative activity] remains facially legislative in character.” McSurely, 521 F.2d at 1038.
Therefore, a congressional investigation that seeks to uncover wrongdoing does not, without more,
exceed the scope of Congress’s authority.
In this case, there is nothing “obvious” about the Oversight Committee’s activities to
support the conclusion that the subpoena to Mazars is a usurpation of an exclusively executive or
judicial function. Nothing “give[s ] warrant for thinking the [Oversight Committee is] attempting
or intending to try [the President] at its bar or before its committee for any crime or wrongdoing.”
McGrain, 273 U.S. at 179. Nor is there evidence before the court that the Oversight Committee
initiated its investigative activities at the behest of federal or state law enforcement officials, or is
coordinating its actions with such officials.

If anything, the evidence is to the contrary.

The Executive Branch is clearly not coordinating with Congress, as it continues to resist calls to
disclose records relating to the President’s actions in areas arguably well within Congress’s
investigative powers. 26 The Committee’s stated purposes, therefore, do not usurp judicial or
executive functions.
To support their position, Plaintiffs point out that (1) the Mazars subpoena arose out of the
testimony of Michael Cohen—“an admitted perjurer,” Pls.’ Stmt. at 4; (2) the records sought relate
primarily to the President’s personal and financial interests years before he became a candidate,
id. at 11; and (3) Chairman Cummings admitted that the Mazars subpoena was intended to

26
See, e.g., Carol D. Leonnig, et al., No ‘Do-Over’ on Mueller Probe, White House Lawyer Tells House Panel, Saying
Demands for Records, Staff Testimony Will be Refused, WASH. POST, May 15, 2019,
https://www.washingtonpost.com/politics/no-do-over-on-mueller-probe-white-house-lawyer-tells-house-panelsaying-demands-for-records-staff-testimony-will-be-refused/2019/05/15/1ad19728-7715-11e9-b3f55673edf2d127 story html?utm term=.b67bc595c86a (last visited May 20, 2019).

28

A171

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 29 of 41

“investigate whether the President may have engaged in illegal conduct before and during his
tenure in office,” Cummings’ April 12th Mem. at 4. In addition, Plaintiffs cite to statements made
by Chairman Cummings before he issued the Mazars subpoena. For instance, in his March 20th
letter to Mazars, Chairman Cummings focused solely on Michael Cohen’s allegations that
President Trump misrepresented his assets and liabilities and made no mention of a legislative
purpose for obtaining the records. See Cummings’ March 20th Letter; see also First Supp. Decl.
at 5–9.

Additionally, Plaintiffs offer a November 2018 Vox article that quotes Chairman

Cummings as saying, “[w]e’ve got to address this issue of exposing President Trump and what he
has done, and we’ve got to face the truth . . . The [P]resident is a guy who calls truth lies and lies
truth. But at some point, he’s also creating policy, and that’s affecting people’s day-to-day life.”
First Supp. Decl. at 42. Plaintiffs also provide a Politico article in which Chairman Cummings is
quoted as saying, “[o]ver the last two years President Trump set the tone from the top in his
administration that behaving ethically and complying with the law is optional . . . We’re better
than that.” Id. at 54. None of these facts, individually or taken together, make for an “obvious”
“usurpation of functions exclusively vested in the Judiciary or the Executive.” Tenney, 341 U.S.
at 378.
History has shown that congressionally-exposed criminal conduct by the President or a
high-ranking Executive Branch official can lead to legislation. The Senate Watergate Committee
provides an apt example. That Committee’s express mandate was to investigate “the extent, if
any, to which illegal, improper, or unethical activities were engaged in by any persons, acting
either individually or in combination with others, in the presidential election of 1972, or in any
related campaign or canvass conducted by or [o]n behalf of any person seeking nomination or
election as the candidate . . . for the office of President . . .” Watergate Res. at 1–2. As a

29

A172

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 30 of 41

consequence of the Committee’s work, Congress passed numerous pieces of legislation—among
them, the Ethics in Government Act, the Congressional Budget and Impoundment Control Act of
1974, the War Powers Resolution, and the Independent Counsel Statute—with objectives to “open
up the operation of the presidency to greater public oversight, subject[] the presidency to legal
checks by other branches or institutions of government and, more generally, impose[] rule of law
principles to more and more types of presidential decision making.”

Michael A. Fitts,

The Legalization of the Presidency: A Twenty-Five Year Watergate Retrospective, 43 ST. LOUIS
UNIV. LAW J. 725, 726 (1999). The Teapot Dome Scandal provides another illustration. That
congressional investigation concerned the award of a no-bid contract to lease federal oil reserves
in Wyoming. Congress’s investigation revealed that the Secretary of Interior had accepted bribes
from the oil companies that were awarded the leases. This discovery motivated Congress to enact
several good-government reforms, including the Revenue Act of 1924 and the Federal Corrupt
Practices Act of 1925. See James Sample, The Last Rites of Public Campaign Financing?, 92
NEB. L. REV. 349, 363 (2013). See also Lawrence A. Zelenak & Marjorie E. Kornhauser, Shaping
Public Opinion and the Law: How a “Common Man” Campaign Ended a Rich Man’s Law, 73
LAW & CONTEMP. PROBS. 123, 126 (2010). This court is in no position to say that an equally
ambitious legislative agenda might not arise out of the current era of congressional investigations
of the presidency.
2.

Investigation of Private Affairs

Plaintiffs next accuse the Oversight Committee of issuing the subpoena to Mazars simply
to investigate the private affairs of a citizen. See Pls.’ Stmt. at 9, 11. This argument fares no better
than Plaintiffs’ first.

30

A173

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 31 of 41

More than a century ago, in Kilbourn v. Thompson, the Supreme Court stated that Congress
does not possess “the general power of making inquiry into the private affairs of the citizen.” 103
U.S. 168, 190 (1880). In the ensuing decades, the Supreme Court repeatedly has affirmed that
constraint on Congress’s investigative powers. See, e.g., McGrain, 273 U.S. at 173–74; Quinn,
349 U.S. at 161; Eastland, 421 U.S. at 504 n.15. But Kilbourn is the high-water mark for that
limiting principle. In the nearly 140 years since Kilbourn, neither the Supreme Court nor any
circuit court has found a congressional investigation unconstitutional because it invades the
“private affairs of the citizen.” Indeed, years later, in the context of warning courts to be wary of
declaring a congressional inquiry unconstitutional, the Supreme Court acknowledged Kilbourn’s
shortcomings:
Experience admonishes us to tread warily in this domain. The loose
language of Kilbourn v. Thompson, 103 U.S. 168, the weighty
criticism to which it has been subjected, see, e.g., Fairman,
Mr. Justice Miller and the Supreme Court, 332–334; Landis,
Constitutional Limitations on the Congressional Power of
Investigation, 40 Harv. L. Rev. 153, the inroads that have been made
upon that case by later cases, McGrain v. Daugherty, 273 U.S. 135,
170–171, and Sinclair v. United States, 279 U.S. 263, strongly
counsel abstention from adjudication unless no choice is left.
Rumely, 345 U.S. at 46 (alternations added). Accordingly, although the notion from Kilbourn that
Congress does not have the general power to investigate into personal affairs remains alive today,
the case is largely impotent as a guiding constitutional principle. See Landis, 40 HARV. L. REV.
at 220 (“But no standard for judgment can be developed from Kilbourn v. Thompson. Its result
contradicts an unbroken Congressional practice continuing even after the decision, with the
increasing realization that committees of inquiry are necessary in order to make government
effectively responsible to the electorate.”).

31

A174

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 32 of 41

How then to measure whether Congress has ventured into impermissible territory of
investigating the personal affairs of a private citizen? The Supreme Court has provided some
guidance. In Quinn, the Court said that Congress cannot use its investigative power “to inquire
into private affairs unrelated to a valid legislative purpose.” 349 U.S. at 161 (emphasis added).
Similarly, in Watkins, the Court stated that: “The public is, of course, entitled to be informed
concerning the workings of its government. That cannot be inflated into a general power to expose
where the predominant result can only be an invasion of the private rights of individuals.” 354
U.S. at 200 (emphasis added). Thus, the question the court must ask is whether the Oversight
Committee’s investigation into the President’s personal affairs is fully divorced from any
legislative purpose.
Indulging in the presumption that when Congress acts it does so for a proper reason, the
court cannot say that the records sought from Mazars are “unrelated to a valid legislative purpose”
or that the “predominant result can only be an invasion of” the President’s private affairs. As
discussed above, legislation could stem from the Oversight Committee’s investigation of the
President’s personal and corporate finances and the possible conflicts of interest under which he
is operating. Thus, the potential presence of some intent to “ridicule, harass, or punish” the
President cannot overcome this facially valid legislative purpose. McSurely, 521 F.2d at 1038.
In their Complaint and in their supplemental evidentiary submissions, Plaintiffs reference
various statements from Democratic Members of Congress and congressional aides to the effect
that Democrats are intending to use their subpoena power to exact political retribution. See Compl.
¶¶ 27–30; see also First Supp. Decl. at 35–79. For instance, one Congressman is quoted as saying,
“We’re going to have to build an air traffic control tower to keep track of all the subpoenas flying
from here to the White House.” Compl. ¶ 29. Another unnamed Democratic official said that

32

A175

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 33 of 41

House Democrats were preparing a “subpoena cannon” to fire at the President. Id. Plaintiffs urge
that these and similar statements reveal that the Democrats’ true motive is to embarrass and harass
the President, which cannot be cured by the Committee’s “retroactive rationalizations” in the April
12th Memorandum. Hr’g Tr. at 8.
Even if the court were to take these statements at face value—at best, a dubious evidentiary
proposition given that these individuals do not control the actions of the Oversight Committee—
they make no material difference. The case law makes clear that “motives alone would not vitiate
an investigation which had been instituted by a House of Congress if that assembly’s legislative
purpose is being served.” Watkins, 354 U.S. at 200. In Watkins, the petitioner “marshalled an
impressive array of evidence that some Congressmen have believed that” their duty “was to bring
down upon himself and others the violence of public reaction because of their past beliefs,
expressions and associations.” Id. at 199. This evidence did not, however, carry the day with the
Supreme Court because Congress also had a legitimate legislative purpose for its investigation.
Id. at 200. Likewise, in McGrain, the Court rejected a lower court’s decision echoing the
arguments Plaintiffs advance here: “The extreme personal cast of the original resolutions; the
spirit of hostility towards the then Attorney General which they breathe; that it was not avowed
that legislative action was had in view until after the action of the Senate had been challenged; and
that the avowal then was coupled with an avowal that other action was had in view—are calculated
to create the impression that the idea of legislative action being in contemplation was an
afterthought.” McGrain, 273 U.S. at 176. The Court held that the lower court was “wrong,”
because “the subject [of the investigation] was one on which legislation could be had.” Id. at 177.

33

A176

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 34 of 41

In short, as long as there is a facially valid legislative purpose for the investigation, Congress acts
within its constitutional authority. That is the case here. 27
3.

Pertinency of the Records Request

Plaintiffs’ third and final challenge rests on the “pertinency” of the records requested from
Mazars. See Pls.’ Reply at 12–14. This argument takes multiple forms, none of which are
persuasive.
To begin, according to Plaintiffs, for the Mazars subpoena to be valid the records sought
must be “‘reasonably relevant’ to [the subpoena’s] legitimate legislative purpose,” and the records
demanded fail that test. Id. at 13 (citing McPhaul, 364 U.S. at 381–82). This argument suffers
from two problems. The first is that Plaintiffs conflate the concept of “pertinency” with the notion
of “relevancy” as used in civil proceedings. “Pertinency” does not require the court to ask, as it
would in a civil discovery dispute, whether the documents requested are likely to yield useful
evidence. Instead, pertinency “is a jurisdictional concept . . . drawn from the nature of a
congressional committee’s source of authority.” Watkins, 354 U.S. at 206. The concept appears
most often in the context of a criminal conviction for contempt of Congress, in which a person has
refused to comply with a subpoena or answer questions posed at a hearing. Pertinency, in this
setting, is an element of criminal contempt. See 2 U.S.C. § 192 (making it a misdemeanor for a
person summoned as a witness before Congress either to not appear or, if “having appeared, [to]
refuse[] to answer any question pertinent to the question under inquiry . . .”) (emphasis added).
The pertinency inquiry therefore asks whether the question posed to a witness is one that fell within
For this same reason, the forceful dissenting statements of the Ranking Member of the Oversight Committee,
Congressman Jim Jordan, do not change the court’s calculus. The Ranking Member views the Committee’s
investigation as without legislative purpose, and its sole design to harass and embarrass the President. See Second
Decl. of William S. Consovoy, ECF No. 34; Ex. B, Letter from the Honorable Jim Jordan, Ranking Member, House
Comm. on Oversight & Reform, to the Honorable Elijah E. Cummings, Chairman, House Comm. on Oversight &
Reform (May 15, 2019). But, again, so long as lawmaking could follow from the Committee’s investigation, any
attendant political purpose does not make the inquiry unconstitutional.

27

34

A177

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 35 of 41

the scope of the Committee’s investigative authority, which typically is defined by the resolution
authorizing the investigation. See Watkins, 354 U.S. at 207–10; Sinclair, 279 U.S. at 292 (stating
that, under the contempt statute, “a witness rightfully may refuse to answer where the bounds of
the power are exceeded or where the questions asked are not pertinent to the matter under
inquiry”). This is not a contempt case and therefore the pertinency inquiry, properly understood,
has no role here.
But even if the court were to treat pertinency as akin to a relevance determination, that test
is satisfied here. The standard adopted by the Supreme Court is a forgiving one. The subpoenaed
records need only be “not plainly incompetent or irrelevant to any lawful purpose [of the
Committee] in the discharge of its duties.” McPhaul, 364 U.S. at 381 (cleaned up). Here, the
Oversight Committee has shown that it is not engaged in a pure fishing expedition for the
President’s financial records. It is undisputed that the President did not initially identify as
liabilities on his public disclosure forms the payments that Michael Cohen made to alleged
mistresses during the presidential campaign. 28 Furthermore, Michael Cohen has pleaded guilty to
campaign finance violations arising from those payments. 29 These events, when combined with
Cohen’s testimony and the financial statements he supplied, make it reasonable for the Oversight
Committee to believe that the records sought from Mazars might reveal other financial
transgressions or improprieties. As already discussed, it is not unreasonable to think that the
Mazars records might assist Congress in determining whether ethics statutes or regulations need
updating to strengthen Executive Branch accountability, promote transparency, and protect against
Executive Branch officials operating under conflicts of interest. Additionally, the Mazars records

Letter from David J. Apol, supra n.10.
See Mark Mazzetti, et al., Cohen Pleads Guilty and Details Trump’s Involvement in Moscow Tower Project, N.Y.
TIMES, Nov. 29, 2018, https://www.nytimes.com/2018/11/29/nyregion/michael-cohen-trump-russia-mueller.html
(last visited May 20, 2019).
28
29

35

A178

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 36 of 41

could provide the Oversight Committee with clues about the President’s foreign interests or
sources of foreign income, if any, which would assist in determining Congress’s obligations under
the Foreign Emoluments Clause. This concern is not a new one. In other letters seeking records,
one sent to the Trump Organization and the other to the GSA, Chairman Cummings expressly
stated that the records sought would be useful in assessing the President’s compliance with the
Foreign Emoluments Clause. See n. 7 & 8, supra. The records from Mazars likewise could
advance this legislative purpose. Pertinency, to the extent it may apply, is thus satisfied.
Two more arguments remain. First, Plaintiffs insist that the Oversight Committee cannot
be seeking pertinent material because the legislative actions contemplated “extend to an area in
which Congress is forbidden to legislate,” Quinn, 349 U.S. at 161. See Pls.’ Reply at 15–16. For
example, Plaintiffs argue that H.R. 1 is unconstitutional insofar as it adds qualifications for the
presidency beyond those contained in Article II of the Constitution. See id. at 16. More broadly,
Plaintiffs maintain that any regulation of the “President’s finances or conflicts of interest” would
be unconstitutional for the same reason. Id.
Plaintiffs’ contention flies in the face of decades of legislation covering the President. For
example, the Ethics in Government Act requires the President to report the source, type, and
amount of certain income and assets to the Office of Government Ethics. See 5 U.S.C. App. 4
§§ 101(a), (f); id. §§ 102(a), (b); id. § 103(b). The Stop Trading on Congressional Knowledge Act
of 2012 provides that no “executive branch employee,” including the President, may use
“nonpublic information derived from such person’s position” “as a means for making a private
profit,” and further states that “executive branch employees,” including the President, “owe[] a
duty arising from a relationship of trust and confidence to the United States Government and the
citizens of the United States with respect to material, nonpublic information derived from [their]

36

A179

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 37 of 41

position.” Pub. Law No. 112-105 § 9. And, the Presidential Records Act “directs the President to
‘take all such steps as may be necessary to assure that the activities, deliberations, decisions, and
policies that reflect the performance of his constitutional, statutory, or other official or ceremonial
duties are adequately documented and that such records are maintained as Presidential records.’”
Armstrong v. Bush, 924 F.2d 282, 285 (D.C. Cir. 1991) (citing 44 U.S.C. § 2203).

Plaintiffs’

argument, if accepted, would wipe out some, and perhaps all, of these statutes.
But there is an even more fundamental problem with Plaintiffs’ position. It is not the
court’s role in this context to evaluate the constitutionality of proposed or contemplated legislation.
Doing so would go beyond its limited powers. The Supreme Court said as much in Rumely:
“Whenever constitutional limits upon the investigative power of Congress have to be drawn by
this Court, it ought only to be done after Congress has demonstrated its full awareness of what is
at stake by unequivocally authorizing an inquiry of dubious limits. Experience admonishes us to
tread warily in this domain.” 345 U.S. at 46. Consequently, courts must avoid declaring an
investigation by Congress unconstitutional, unless “no choice is left.” See id. In this case, not
only is there no need to confront difficult constitutional questions, it would be improper to do so.
Federal courts do not “render advisory opinions.

For adjudication of constitutional issues

‘concrete legal issues, presented in actual cases, not abstractions’ are requisite.” United Pub.
Workers of Am. (C.I.O.), et al., v. Mitchell, et al., 330 U.S. 75, 89 (1947) (citations omitted). The
court here faces only abstract constitutional questions about prospective legislation that is not yet
law. The court cannot declare a congressional investigation unconstitutional in such ill-defined
circumstances. 30

The D.C. Circuit’s decision in Tobin does not compel a different result. 306 F.2d 270 (D.C. Cir. 1962). If anything,
Tobin advises courts to sidestep important constitutional issues unless squarely presented and unavoidable. In Tobin,
the setting was review of a contempt conviction, which the Circuit found “is not the most practical method of inducing
courts to answer broad questions broadly.” 306 F.2d at 274. This case is even less amenable to resolving an important
30

37

A180

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 38 of 41

Finally, Plaintiffs suggest that the court has the authority to “narrow overbroad
[congressional] subpoenas,” and should consider doing so here. Pls.’ Reply at 13. But the federal
courts enjoy no such power. “A legislative inquiry may be as broad, as searching, and as
exhaustive as is necessary to make effective the constitutional powers of Congress.” Townsend,
95 F.2d at 361 (citation omitted). “There is no requirement that every piece of information
gathered in such an investigation be justified before the judiciary.” McSurely, 521 F.2d at 1041.
The court therefore cannot “engage in a line-by-line review” of the Mazars subpoena and narrow
its demands. Bean LLC, 291 F. Supp. 3d at 44; see also Senate Select Committee on Ethics v.
Packwood, 845 F. Supp. 17, 20 (D.D.C. 1994) (“This [c]ourt . . . has no authority to restrict the
scope of the Ethics Committee’s investigation.”).
V.

REQUEST FOR STAY PENDING APPEAL
At the May 14th oral argument, Plaintiffs asked the court to stay the return date of the

subpoena beyond the seven days already agreed upon by the parties, pending final appellate review
by the D.C. Circuit. See Hr’g Tr. at 77–78. The court declines to do so.
Federal Rule of Civil Procedure 62(c) authorizes a district court to issue an injunction
pending appeal. Fed. R. Civ. P. 62(c). To obtain a stay pending appeal, the moving party “must
establish [1] that he is likely to succeed on the merits, [2] that he is likely to suffer irreparable harm
in the absence of preliminary relief, [3] that the balance of equities tips in his favor, and [4] that
an injunction is in the public interest.” See Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20
(2008); accord Cuomo v. U.S. Nuclear Regulatory Comm’n, 772 F.2d 972, 974 (D.C. Cir. 1985)
(per curiam) (citing Wash. Metro. Area Transit Comm’n v. Holiday Tours, Inc., 559 F.2d 841, 843

constitutional issue than Tobin. There is no conviction or piece of legislation before the court to evaluate. Assessing
the constitutionality of a not-yet-enacted statute would be the equivalent of answering a hypothetical question on a
law school exam. This court cannot engage in such an exercise.

38

A181

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 39 of 41

(D.C. Cir. 1977)). The court balances these factors on a “sliding scale,” such that “a strong
showing on one factor could make up for a weaker showing on another.” Sherley v. Sebelius, 644
F.3d 388, 392 (D.C. Cir. 2011); see also Cigar Ass’n of Am. v. U.S. Food & Drug Admin.,
317 F. Supp. 3d 555, 560 (D.D.C. 2018).
As to the first factor, Plaintiffs have not shown that their challenge to the Mazars subpoena
presents “serious legal questions going to the merits, so serious, substantial, difficult as to make
them a fair ground of litigation and thus for more deliberative investigation.” Population Inst. v.
McPherson, 797 F.2d 1062, 1078 (D.C. Cir. 1986) (quoting Holiday Tours, 559 F.2d at 844).
None of the three grounds upon which Plaintiffs challenge the subpoena rests on “potentially
persuasive authority.” John Doe Co. v. Consumer Financial Protection Bureau, 849 F.3d 1129,
1131 (D.C. Cir. 2017). Indeed, Plaintiffs have cited no case since Kilbourn from 1880 in which
the Supreme Court or the D.C. Circuit has interfered with a congressional subpoena—because it
either intrudes on the law enforcement prerogatives of the Executive or Judicial branches, seeks
personal information unrelated to a legislative purpose, or demands records that lack “pertinency.”
This case does not merit becoming the first in nearly 140 years. 31
As for irreparable harm, this court has recognized that “the disclosure of confidential
information is, by its very nature, irreparable ‘because such information, once disclosed, loses its
confidential nature.’” Robert Half Int’l Inc. v. Billingham, 315 F. Supp. 3d 419, 433 (D.D.C. 2018)
(citations omitted). That concern is somewhat mitigated here, however, because of the recipient
of the records. Unlike Robert Half Int’l, where the challenged disclosure was to a market
competitor, the disclosure here is made to Congress, and the D.C. Circuit has held that “courts

This case is unlike Eastland in which the D.C. Circuit by a 2-1 margin granted a stay to enforce subpoenas issued
by Congress. See United States Servicemen’s Fund v. Eastland, 488 F.2d 1252, 1256–57 (D.C. Cir. 1974), rev’d on
other grounds, Eastland, 421 U.S. at 491. The court granted the stay because the case presented “serious constitutional
questions . . .” Id. at 1256. No such “serious constitutional questions” are presented here.
31

39

A182

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 40 of 41

must presume that the committees of Congress will exercise their powers responsibly and with due
regard for the rights of affected parties.” Exxon, 589 F.2d at 589 (citation omitted). That said, the
court is not naïve to reality—a reality confirmed by the fact that the Oversight Committee has said
that the decision whether to make the records public lies within its discretion. See Hr’g Tr. at 59.
Thus, there is a chance that some records obtained from Mazars will become public soon after they
are produced. The second factor of irreparable harm therefore favors a stay.
The final two factors—the balance of equities and the public interest—merge when, as
here, “the Government is the opposing party.” Nken v. Holder, 556 U.S. 418, 435 (2009). These
factors tip the balance in favor of denying a stay. In Exxon, the plaintiff had challenged Congress’s
right to obtain records from the Federal Trade Commission that contained its trade secrets.
589 F.2d at 586–87. The district court denied the plaintiff’s request for injunctive relief. In
affirming that decision on appeal, the D.C. Circuit held that the public interest favored Congress
having access to the records. The court stated that the plaintiff’s burden to obtain injunctive relief
was “considerably heightened by the clear public interest in maximizing the effectiveness of the
investigatory powers of Congress . . . It would, then, require an extremely strong showing by the
appellants to succeed in obtaining an injunction in light of the compelling public interest in denying
such relief.” Id. at 594 (emphasis added). The court concluded: “To grant the injunction
appellants request, this court would be required to interfere with the operation of Congress, and
also to depart from traditional doctrine concerning the availability of equitable relief.” Id.
The same would be true in this case. 32

The court acknowledges that this case differs from Exxon in one respect. Unlike Exxon, this case does involve
records whose public disclosure might give rise to “private injury.” 589 F.2d at 594. It is unclear, however, what
proportion of the records at issue in this case are truly “personal,” as opposed to corporate records. The fact of some
uncertain amount of private injury does not change the court’s calculus.
32

40

A183

Case 1:19-cv-01136-APM Document 35 Filed 05/20/19 Page 41 of 41

The court is well aware that this case involves records concerning the private and business
affairs of the President of the United States. But on the question of whether to grant a stay pending
appeal, the President is subject to the same legal standard as any other litigant that does not prevail.
Plaintiffs have not raised a “serious legal question[] going to the merits.” Population Inst., 797
F.2d at 1078. And, the balance of equities and the public interest weigh heavily in favor of denying
relief. The risk of irreparable harm does not outweigh these other factors. The court, therefore,
will not stay the return date of the subpoena beyond the seven days agreed upon by the parties.
VI.

CONCLUSION
For the foregoing reasons, the court will enter judgment in favor of the House Oversight

Committee and against Plaintiffs. The court denies Plaintiffs’ request for a stay pending appeal.
A separate final order accompanies this Memorandum Opinion.

Dated: May 20, 2019

Amit P. Mehta
United States District Court Judge

41

A184

Case 1:19-cv-01136-APM Document 36 Filed 05/20/19 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
_________________________________________

)
DONALD J. TRUMP, et al.
)
)
Plaintiffs,
)
)
v.
)
)
COMMITTEE ON OVERSIGHT AND
)
REFORM OF THE U.S. HOUSE OF
)
REPRESENTATIVES, et al.
)
)
Defendants.
)
_________________________________________ )

Case No. 19-cv-01136 (APM)

ORDER
For the reasons set forth in the court’s Memorandum Opinion, ECF No. 35, the court enters
judgment in favor of the House Oversight Committee and against Plaintiffs. The court denies
Plaintiffs’ request for a stay pending appeal.
This is a final, appealable order.

Dated: May 20, 2019

Amit P Mehta
United States District Court Judge

A185

